No. 20-____
IN THE
SUPREME COURT OF THE UNITED STATES
BOZEMAN FINANCIAL LLC,
Petitioner,
v.
FEDERAL RESERVE BANK OF ATLANTA, et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
PETITION FOR A WRIT OF CERTIORARI
SCOTT E. GANT
Counsel of Record
MENNO GOEDMAN
BOIES SCHILLER FLEXNER LLP
1401 New York Avenue, NW
Washington, DC 20005
(202) 237-2727
sgant@bsfllp.com
Counsel for Petitioner

i
QUESTION PRESENTED
In Return Mail, Inc. v. United States Postal Serv.,
139 S. Ct. 1853 (2019), the Court held the Federal
Government is not a “person” permitted to request
post-issuance patent review under the America
Invents Act (AIA), reversing the judgment of the
Federal Circuit.
The twelve regional Federal Reserve Banks (“the
Banks”) are the “operating arms” of the Federal
Reserve System, which is the central bank of the
United States. Subsequent to this Court’s decision in
Return Mail, the Federal Circuit held in this case that
the Banks are “distinct” from the Federal
Government, and therefore qualify as “persons”
permitted to seek post-issuance review under the AIA.
The question presented is:
Whether the regional Federal Reserve Banks—
the “operating arms” of the Federal Reserve System,
which is the central bank of the United States—are
“distinct” from the Federal Government, and qualify
as “persons” permitted to seek post-issuance patent
review under the America Invents Act, when the
Federal Government may not under the Court’s
holding in Return Mail, Inc. v. United States Postal
Serv., 139 S. Ct. 1853 (2019).

ii
PARTIES TO THE PROCEEDING
Petitioner is Bozeman Financial LLC.
Respondents are the Federal Reserve Bank of
Atlanta, Federal Reserve Bank of Boston, Federal
Reserve Bank of Chicago, Federal Reserve Bank of
Cleveland, Federal Reserve Bank of Dallas, Federal
Reserve Bank of Kansas City, Federal Reserve Bank
of Minneapolis, Federal Reserve Bank of New York,
Federal Reserve Bank of Philadelphia, Federal
Reserve Bank of Richmond, Federal Reserve Bank of
San Francisco, and Federal Reserve Bank of St. Louis.

iii
CORPORATE DISCLOSURE STATEMENT
Bozeman Financial LLC has no parent company,
and no publicly held company owns more than 10% of
its stock.

iv
RELATED PROCEEDINGS
Bozeman Financial LLC v. Fed. Reserve Bank of
Atlanta et al., No. 19-1018, U.S. Court of Appeals for
the Federal Circuit. Judgment entered April 10, 2020.
Bozeman Financial LLC v. Fed. Reserve Bank of
Atlanta et al., No. 19-1020, U.S. Court of Appeals for
the Federal Circuit. Judgment entered April 10, 2020.
Fed. Reserve Bank of Atlanta et al. v. Bozeman
Financial LLC, No. CBM2017-00035, Patent Trial
and Appeal Board. Final Written Decision issued July
23, 2018.
Fed. Reserve Bank of Atlanta et al. v. Bozeman
Financial LLC, No. CBM2017-00036, Patent Trial
and Appeal Board. Final Written Decision issued July
23, 2018.

v
TABLE OF CONTENTS
QUESTION PRESENTED......................................... i
PARTIES TO THE PROCEEDING .......................... ii
CORPORATE DISCLOSURE STATEMENT ......... iii
RELATED PROCEEDINGS .................................... iv
TABLE OF AUTHORITIES................................... viii
OPINIONS BELOW ...................................................1
JURISDICTION .........................................................1
STATUTORY PROVISIONS .....................................1
INTRODUCTION ......................................................2
STATEMENT OF THE CASE ..................................4
A.

The Federal Reserve System and the Role
of the Regional Federal Reserve Banks ..........4

B.

The Banks Sue Bozeman as
“Instrumentalities of the United States”
Performing “Important Public Functions”......8

C.

The PTAB Permits Post-Issuance Review
and Invalidates Bozeman’s Patents ................9

D.

The Federal Circuit’s Denial of Bozeman’s
Request to Stay Federal Circuit Briefing,
and This Court’s Decision in Return Mail ......9

E.

Supplemental Federal Circuit Briefing
Concerning this Court’s Decision in
Return Mail ....................................................10

vi
F.

The Federal Circuit Holds the Banks Are
“Distinct” From the Federal Government ....11

REASONS FOR GRANTING THE PETITION ......12
I.

The Federal Circuit’s Precedential
Decision Is Wrong and Important.................12
A.

The Federal Circuit Applied the
Wrong Test and Reached the
Wrong Outcome .....................................13

B.

The Federal Circuit’s Important
Decision Warrants Review ....................27

II.

The Federal Circuit’s Decision Is In
Tension With Decisions By Other Courts
of Appeals Concerning the Federal
Reserve Banks ...............................................29

III.

This Case Is an Ideal Vehicle to Resolve
the Question Presented .................................33

CONCLUSION ........................................................34
APPENDIX
Appendix A: Opinion of the United States Court
of Appeals for the Federal Circuit
(April 10, 2020) .........................................................1a
Appendix B: Final Written Decision, Patent
Trial and Appeal Board (July 23, 2018)
(Patent 6,754,640) .................................................21a

vii
Appendix C: Final Written Decision, Patent
Trial and Appeal Board (July 23, 2018)
(Patent 8,768,840) ..................................................73a
Appendix D: Granting Institution of Covered
Business Method Patent Review, Patent Trial
and Appeal Board (August 29, 2017)
(Patent 8,768,840) ................................................144a
Appendix E: Granting Institution of Covered
Business Method Patent Review, Patent Trial
and Appeal Board (August 29, 2017)
(Patent 6,754,640) ................................................176a
Appendix F: United States Court of Appeals for
the Federal Circuit, Order Denying Petition for
Rehearing En Banc (June 3, 2020) ......................219a
Appendix G: Statutory Provisions ......................223a
Appendix H: Complaint for Declaratory Relief,
Fed. Reserve Bank of Atlanta et al. v. Bozeman
Financial LLC, No. 17-cv-389-AT (N.D. Ga.
Feb. 1, 2017), ECF No. 1 ......................................224a

viii
TABLE OF AUTHORITIES
Cases
Advanced Software Design Corp. v.
Fed. Reserve Bank of St. Louis,
583 F.3d 1371 (Fed. Cir. 2009) ............................ 21
Am. Bankers Assoc. v. United States,
932 F.3d 1375 (Fed. Cir. 2019) ............................ 19
Berini v. Fed. Reserve Bank of St. Louis,
420 F. Supp. 2d 1021 (E.D. Mo. 2005) ................. 19
Brentwood Acad. v.
Tennessee Secondary School Athletic Assoc.,
531 U.S. 288 (2001) ........................................ 26, 27
Brink’s, Inc. v. Bd. of Governors of Fed. Reserve Sys.,
466 F. Supp. 116 (D.D.C. 1979) ........................... 32
Carter v. Carter Coal Co.,
298 U.S. 238 (1936) .............................................. 25
Cherry Cotton Mills v. United States,
327 U.S. 536 (1946) .............................................. 14
Comm. to Save the Fox Bldg. v. Birmingham
Branch of Fed. Reserve Bank of Atlanta,
497 F. Supp. 504 (N.D. Ala. 1980) ....................... 32

ix
Dep’t of Employ’t v. United States,
385 U.S. 355 (1966) .............................................. 24
Dep’t of Transp. v. Assoc. of Am. R.R.,
575 U.S. 43 (2015) .............................. 13, 14, 20, 25
Edmonson v. Leesville Concrete Co., Inc.,
500 U.S. 614 (1991) .............................................. 26

FCC v. Fox Television Stations, Inc.,
556 U.S. 502 (2009) ..............................................26
FDIC v. Meyer,
510 U.S. 471 (1994) .............................................. 14
Fed. Reserve Bank v. City of Memphis,
649 F.2d 462 (6th Cir. 1981) ................................ 30
Fed. Reserve Bank v. Kalin,
77 F.2d 50 (4th Cir. 1935) .................................... 31
Fed. Reserve Bank of Boston v. Comm’r of
Corps. & Taxation of Com. of Mass.,
499 F.2d 60 (1st Cir. 1974) .......................... passim
Fed. Reserve Bank of St. Louis v. City of Memphis,
515 F. Supp. 63 (W.D. Tenn. 1979) ..................... 30
Fed. Reserve Bank of St. Louis v.
Metrocentre Improvement Dist. # 1,
657 F.2d 183 (8th Cir. 1981) .......................... 18, 31

x

Flight Int’l Grp., Inc. v. Fed. Reserve Bank of Chicago,
583 F. Supp. 674 (N.D. Ga. 1984) ........................ 32
Florida Prepaid Postsecondary Educ. Expense Bd.
v. College Sav. Bank,
527 U.S. 627 (1999) .............................................. 33
Freytag v. Comm’r,
501 U.S. 868 (1991) .............................................. 23
Inyo Cty., Cal. v. Paiute-Shoshone Indians of
the Bishop Comm. of the Bishop Colony,
538 U.S. 701 (2003) .............................................. 28
Jet Courier Servs., Inc. v.
Fed. Reserve Bank of Atlanta,
713 F.2d 1221 (6th Cir. 1983) ........................ 29, 30
Kreipke v. Wayne State University,
807 F.3d 768 (6th Cir. 2015) ................................ 28
Lebron v. Nat’l R.R. Passenger Corp.,
513 U.S. 374 (1995) ....................................... 13, 14
Lee Const. Co. v. Fed. Reserve Bank of Richmond,
558 F. Supp. 165 (D. Md. 1982) ............... 18, 19, 32
Martin v. Occupational Safety & Health Review
Comm’n,
499 U.S. 144 (1991) .............................................. 25

xi
Metrocentre Improvement Dist. # 1 v.
Fed. Reserve Bank of St. Louis,
455 U.S. 995 (1982) .................................. 18, 24, 31
Oil States Energy Serv., LLC v. Greene’s Energy Grp.,
138 S. Ct. 1365 (2018) .................................... 10, 33
Rainwater v. United States,
356 U.S. 59 (1958) .......................................... 13, 14
Reiter v. Cooper,
507 U.S. 258 (1993) .............................................. 23
Research Triangle Inst. v.
Bd. of Governors of the Fed. Reserve Sys.,
132 F.3d 985 (4th Cir. 1997) ................................ 20
Return Mail, Inc. v. United States Postal Service,
139 S. Ct. 1853 (2019) .................................. passim
Robinson v. United States Dep’t of Educ.,
917 F.3d 799 (4th Cir. 2019) ............................... 28
Schroder v. Volcker,
646 F. Supp. 132 (D. Colo. 1986) ......................... 30
Schroder v. Volcker,
864 F.2d 97 (10th Cir. 1988) ................................ 30

xii
Seila Law LLC v.
Consumer Financial Protection Bureau,
140 S. Ct. 2183 (2020) .......................................... 24
Standard Oil Co. v. Johnson,
316 U.S. 481 (1942) .............................................. 24
Starr Int’l Co., Inc. v. Fed. Reserve Bank of N.Y.,
742 F.3d 37 (2d Cir. 2014) ....................... 17, 18, 31
Starr Int’l Co., Inc. v. Fed. Reserve Bank of N.Y.,
906 F. Supp. 2d 202 (S.D.N.Y. 2012) ................... 20
Starr Int’l Co., Inc. v. United States,
856 F.3d 953 (Fed. Cir. 2017) ........................ 16, 17
Taft v. Agric. Bank of China Ltd.,
2016 WL 2766661 (S.D.N.Y. May 12, 2016)..........4
Thacker v. TVA,
139 S. Ct. 1435 (2019) .......................................... 20
United States v. Boyd,
378 U.S. 39 (1964) ................................................ 24
United States v. Hollingshead,
672 F.2d 751 (9th Cir. 1982) .............. 19, 25, 30, 31
United States v. New Mexico,
455 U.S. 720 (1982) .............................................. 24

xiii
United States ex rel. Grubea v. Rosicki, Rosicki
& Assocs., P.C.,
318 F. Supp. 3d 680 (S.D.N.Y. 2018) ................... 32
Statutes, Rules and Regulations
1 U.S.C. § 1 ................................................................ 14
5 U.S.C. § 103 ............................................................ 14
12 U.S.C. § 1818(t)(5)(A) ........................................... 23
12 U.S.C. § 221 .......................................................... 11
12 U.S.C. § 244 .......................................................... 24
12 U.S.C. § 248(j) ....................................... 7, 16, 25, 31
12 U.S.C. § 248(k) ...................................................... 25
12 U.S.C. § 289(a)(3)(B) ............................................ 25
12 U.S.C. § 341 .......................................... 7, 16, 20, 21
12 U.S.C. § 635(a)(1) ................................................. 21
12 U.S.C. § 1467a(e) ....................................................6
12 U.S.C. § 1819(a) .................................................... 21
12 U.S.C. § 1828(c)(2)(B) .............................................6

xiv
12 U.S.C. § 1842 .........................................................6
12 U.S.C. § 1843 ..........................................................6
12 U.S.C. § 5497(a)(1) ............................................... 24
28 U.S.C. § 1254(1) ......................................................1
28 U.S.C. § 1498(a) .................................... 3, 11, 20, 21
29 U.S.C. § 1302(b)(1) ............................................... 21
31 U.S.C. § 714(a) ...................................................... 23
35 U.S.C. § 141 .................................................... 28, 33
35 U.S.C. § 311 ........................................................ 1, 9
35 U.S.C. § 321 ........................................................ 1, 9
41 U.S.C. § 351 ......................................................... 19
SUP. CT. R. 10 ............................................................... 3
12 CFR Part 229 ........................................................ 22
12 CFR § 265.11(c)(11) ................................................ 6
12 CFR § 265.11(e)(5) .................................................. 4
15 CFR Part 210 ........................................................ 22

xv
Legislative Materials
50 Cong. Rec. 4644 (1913) ...........................................7
50 Cong. Rec. 4673 (1913) ...........................................7
51 Cong. Rec. 901 (1913) .............................................7
51 Cong. Rec. 174 (1913) .............................................7
Administrative Proceedings
Fed. Reserve Bank of Bos. v. Stambler,
No. IPR2013-00409 (P.T.A.B. 2013) .................... 27
In the Matter of Bank Hapoalim B.M.,
Docket No. 20-005-B-FB (April 30, 2020) .............5
In the Matter of UniCredit S.p.A. et al.,
Docket No. 19-017-B-FB (April 15, 2019) .............5
Other Authorities
ANDREW ROSS SORKIN, TOO BIG TO FAIL (2018) ........ 17
BEN S. BERNANKE, TIMOTHY F. GEITHNER &
HENRY M. PAULSON, JR., FIREFIGHTING: THE
FINANCIAL CRISIS AND ITS LESSONS (2019) .......... 17
ALLAN H. MELTZER, A HISTORY OF THE FEDERAL
RESERVE (VOLUME 1: 1913-1951) (2003) ............ 6, 7

xvi
ALLAN H. MELTZER, A HISTORY OF THE FEDERAL
RESERVE (VOLUME 2, BOOK 2: 1970-1986)
(2009) ......................................................................6
BOARD OF GOVERNORS OF THE FED. RESERVE
SYS., FINANCIAL ACCOUNTING MANUAL FOR
FEDERAL RESERVE BANKS (2020). .................... 7, 16
BOARD OF GOVERNORS OF THE FED. RESERVE
SYS., THE FEDERAL RESERVE SYSTEM:
PURPOSES & FUNCTIONS (10th ed. 2016) ..... 4, 5, 22
Frequently Asked Questions: Competitive
Effects of Mergers, Board of Governors of the
Federal Reserve System ........................................6
Gov’t Accountability Office, GAO-10-97,
Federally Created Entities: An Overview of
Key Attributes (2009) .......................................... 27
Kevin R. Kosar, Cong. Research Serv., Federal
Government Corporations: An Overview
(2011) .................................................................... 14
LAWRENCE R. JACOBS & DESMOND KING,
FED POWER (2016) ..................................................7
Loretta J. Mester, A message from Loretta J.
Mester, President and CEO, Federal Reserve
Bank of Cleveland, Fed. Reserve Bank of
Cleveland .............................................................. 17

xvii
Neel Kashkari, COVID-19 and the Minneapolis
Fed: What we’re doing, how we’re working,
Fed. Reserve Bank of Minneapolis ...................... 17
New York Fed Actions Related to COVID-19,
Fed. Reserve Bank of N.Y. ................................... 17
PETER CONTI-BROWN, THE POWER AND
INDEPENDENCE OF THE FEDERAL RESERVE
(2016) ......................................................................7
Service Contract Act of 1965 (41 U.S.C. § 351 et
seq.)—Applicability to Federal Reserve
Banks, 2 Op. O.L.C. 211 (1978) ........................... 19
TIMOTHY F. GEITHNER, STRESS TEST:
REFLECTIONS ON FINANCIAL CRISES (2014).......... 15

1
OPINIONS BELOW
The Federal Circuit’s opinion is reported at 955
F.3d 971, and reproduced in the Appendix at 1a. The
Federal Circuit’s orders denying rehearing en banc
are unreported, but reproduced in the Appendix at
219a. The Patent Trial and Appeal Board’s Final
Written Decisions are unreported, but reproduced in
the Appendix at 21a.
JURISDICTION
This Court has jurisdiction under 28 U.S.C.
§ 1254(1). The Federal Circuit’s opinion is dated April
10, 2020. Pet. App. 1a. Bozeman Financial LLC
(“Bozeman”) timely filed a petition for rehearing en
banc, which the Federal Circuit denied on June 3,
2020. Pet. App. 219a. In response to the “public
health concerns relating to COVID-19,” the Chief
Justice extended the time to file a petition for
certiorari to 150 days from the date of the lower court
judgment. Order of March 19, 2020, 589 U.S. ___
(2020).
STATUTORY PROVISIONS
The relevant provisions of the America Invents
Act, 35 U.S.C. §§ 311, 321, which provide that only a
“person” may initiate post-issuance patent review
proceedings, are reproduced in the Appendix at 223a.

2
INTRODUCTION
In Return Mail, Inc. v. United States Postal Serv.,
139 S. Ct. 1853 (2019), this Court held the “Federal
Government” is not a “person” under the America
Invents Act (“AIA”),1 and therefore is not permitted to
seek post-issuance patent review under the AIA.
The twelve regional Federal Reserve Banks are
the “operating arms” of the Federal Reserve System,
which is the central bank of the United States.
In this case, subsequent to this Court’s decision in
Return Mail, the Federal Circuit held the Banks are
“persons” under the AIA because they are “distinct”
from the Federal Government for purposes of the Act.
It rendered that holding even while admitting “there
may be circumstances where the structure of the
Banks does not render them distinct from the
government for purposes of statutes other than the
AIA,” Pet. App. 9a, and without identifying anything
in or about the AIA which justifies a contrary result.
The Federal Circuit’s precedential decision is
wrong in both its approach and outcome.
The AIA is silent about whether the Banks are
“persons” under the statute. The Federal Circuit
filled this void by fashioning a formalistic test of its
own creation which ignored numerous significant
features of the Federal Reserve System. The Federal
Circuit’s approach also conflicts with this Court’s
functional analyses employed in other cases assessing
“Person” is not defined in the Act. Return Mail, 139 S. Ct. at
1861-62; id. at 1861 (“The patent statutes do not define the term
‘person.’”).
1

3
whether an entity is part of the Federal Government.
In those cases, this Court focused on the functions of
the entities at issue and how they are controlled,
emphasizing “practical reality” rather than labels and
formalities.
Applying its own test, the Federal Circuit
concluded the Banks are “distinct” from the Federal
Government because: (1) the Banks are designated as
“corporations”; (2) Congress chose in 1913 to permit
the Banks “to be sued in any court,” while the laterenacted 28 U.S.C. § 1498(a) requires certain patent
lawsuits against or concerning the United States be
brought in the Court of Federal Claims; and (3) the
Banks are “not structured as government agencies.”
See Pet. App. 7a-9a. But none of these considerations,
individually or together, provide a reasonable basis
for its holding that the Banks are “distinct” from the
Federal Government for purposes of the AIA.
The Court’s review of the Federal Circuit’s
decision is warranted. The court of appeals decided
an important question of federal law that has not
been, but should be, settled by this Court. The
decision below also conflicts with relevant decisions of
this Court, and is in tension with decisions by several
other courts of appeals. See, e.g., Fed. Reserve Bank
of Bos. v. Comm’r of Corps. & Taxation of Com. of
Mass., 499 F.2d 60, 62 (1st Cir. 1974) (Banks’
“interests seem indistinguishable from those of the
sovereign”); see also SUP. CT. R. 10(a), (c).
For these reasons, and because this case presents
an ideal vehicle for resolving the question presented,
the Petition should be granted.

4
STATEMENT OF THE CASE
A. The Federal Reserve System and the Role of
the Regional Federal Reserve Banks
The Federal Reserve System is the nation’s
central bank, and the twelve Federal Reserve Banks
(“the Banks”) are “the operating arms” of that System,
carrying out responsibilities to implement and foster
the monetary and fiscal policies of the United States.
Their functions include serving as lenders of last
resort and providing a variety of “key financial
services” that “undergird the nation’s payment
system.” BD. OF GOVERNORS OF THE FED. RESERVE
SYS., THE FEDERAL RESERVE SYSTEM: PURPOSES &
FUNCTIONS at 14 (10th ed. 2016) (“PURPOSES &
FUNCTIONS”).
The Banks also function as a supervisor and
regulator of private financial institutions.2
For
example, the Banks enforce compliance with federal

See PURPOSES & FUNCTIONS at 83-84 (explaining the Board’s
supervisory functions depend on “examinations and inspections”
that are conducted by “professionals who work at local Federal
Reserve Banks”); Taft v. Agric. Bank of China Ltd., No. 15-CV5321, 2016 WL 2766661, at *14 (S.D.N.Y. May 12, 2016) (Banks
are “Federal supervisory agenc[ies]” under the Bank Secrecy
Act); 12 CFR § 265.11(e)(5) (codifying delegation by Board to
Banks of responsibility for monitoring capital stock of member
banks).
2

5
banking3 and consumer protection4 laws, and conduct
regulatory reviews of proposed mergers and

See, e.g., 12 U.S.C. § 374a; see also Order to Cease & Desist, In
the Matter of UniCredit, S.p.A. et al., Docket No. 19-017-B-FB
(April 15, 2019), https://www.federalreserve.gov/newsevents/pre
ssreleases/files/enf20190415a1.pdf (FRBNY participating in
enforcement action resulting in $157 million fine); Order to
Cease & Desist, In the Matter of Bank Hapoalim B.M., Docket
No.
20-005-B-FB
(April
30,
2020),
https://www.federalreserve.gov/newsevents/pressreleases/files/e
nf20200430a1.pdf (FRBNY participating in enforcement action
resulting in $37 million fine).
3

See PURPOSES & FUNCTIONS, supra, at 14 (describing the
Banks’ obligation “to ensure and enforce compliance with federal
consumer protection and fair lending laws” as one of their “core
functions”); id. at 156 (“The Board has delegated its examination
authority to the 12 Reserve Banks,” each of which “conduct
periodic compliance examinations at financial institutions under
the Federal Reserve’s supervisory authority, including state
member banks and bank holding companies.”); id. (“The network
of Reserve Banks across the United States is integral to the
implementation of the Federal Reserve’s [consumer protection]
supervisory policy . . . .”); id. at 158 (“The Federal Reserve Banks,
using policies set by the Board of Governors, maintain consumer
compliance supervisory programs that evaluate institutions for
their level of compliance with applicable consumer protection
laws.”); id. (discussing the Banks’ role in enforcing the Truth in
Lending Act, the Fair Credit Reporting Act, the Equal Credit
Opportunity Act, the Community Reinvestment Act, and other
consumer protection laws).
4

6
acquisitions in the banking industry to evaluate their
competitive effects.5
Although “[t]he Federal Reserve began operations
in 1914 as a peculiar hybrid, a partly public, partly
private institution,” “[t]he Banking Acts of 1933 and
especially 1935 greatly reduced Reserve bank
autonomy, greatly reduced the role of the bank’s
outside directors, and centralized control in
Washington.” ALLAN H. MELTZER, A HISTORY OF THE
FEDERAL RESERVE (VOLUME 1: 1913-1951) 725 (2003)
(“MELTZER VOL. 1”); ALLAN H. MELTZER, A HISTORY OF
THE FEDERAL RESERVE (VOLUME 2, BOOK 2: 1970-1986)
1218 (2009). “By 1951 the Federal Reserve System
had become a central bank with its headquarters in
Washington” and “[t]he semiautonomous regional

See generally 12 CFR § 265.11(c)(11) (codifying delegation by
the Board of Governors to the Banks of responsibility to assess
“competitive factors involved in a bank merger”); 12 U.S.C. §§
1842-1843 (provisions under the Bank Holding Act likely to
trigger competitiveness review by the Board of Governors and
the Banks); 12 U.S.C. § 1828(c)(2)(B) (provisions of the Federal
Deposit Insurance Act likely to trigger competitiveness review by
the Board of Governors and the Banks); 12 U.S.C. § 1467a(e)
(provisions under Home Owners’ Loan Act likely to trigger
competitiveness review by the Board and Banks); Frequently
Asked Questions: Competitive Effects of Mergers, Board of
Governors
of
the
Federal
Reserve
System
https://www.federalreserve.gov/bankinforeg/competitive-effectsmergers-acquisitions-faqs.htm (last updated Oct. 9, 2014),
(directing applications for merger review to the Banks, not the
Board).
5

7
banks were now part of a unified system.” MELTZER
VOL. 1 at 726.6
In this “unified system” the Banks operate under
the direction and ultimate control of federal
governmental appointees—specifically, the Board of
Governors of the Federal Reserve System (the “Board”
or “Board of Governors”), which has been empowered
by Congress to exercise “general supervision” over the
“Federal reserve banks.” 12 U.S.C. § 248(j). The
Board approves (and may remove) the president and
vice president of each Bank, and directly elects certain
members of each Bank’s board of directors.7 See, e.g.,
12 U.S.C. §§ 248, 302, 304, 341. The Banks are also
subject to annual examinations conducted by the
Board of Governors, 12 U.S.C. § 485, and to unique
accounting rules drafted by the Board. See BOARD OF
GOVERNORS OF THE FEDERAL RESERVE SYSTEM,
FINANCIAL ACCOUNTING MANUAL FOR FEDERAL
RESERVE BANKS (2020).

See also LAWRENCE R. JACOBS & DESMOND KING, FED POWER
71 (2016) (“The new deal banking reforms stripped control over
monetary policy from the regional banks . . . and initiated a
process of centralization . . . . ”); PETER CONTI-BROWN, THE
POWER AND INDEPENDENCE OF THE FEDERAL RESERVE 104 (2016)
(the Banks “have become, over time, more and more like public
regulatory institutions”).
7 See also 50 Cong. Rec. 4673–74 (1913) (Board entrusted with
“supreme oversight and control of the whole [Federal Reserve]
System”); 50 Cong. Rec. 4644 (1913) (Board is “capstone” of
Federal Reserve System); 51 Cong. Rec. 174 (1913) (Board to be
given “absolute command” of Federal Reserve System); 51 Cong.
Rec. 901 (1913) (Board possesses “complete supervisory control”
of Federal Reserve System).
6

8
B. The
Banks
Sue
Bozeman
as
“Instrumentalities of the United States”
Performing “Important Public Functions”
In 2017, the Banks sued Petitioner Bozeman in
federal district court. Pet. App. 224a-46a. The Banks
sought a declaratory judgment that they had not
infringed two patents owned by Bozeman relating to
the verification of electronic payments. Pet. App.
225a, 230a-32a, ¶¶ 1, 20-21, 27.
In their complaint, the Banks identified
themselves as “instrumentalities of the United States
that, collectively, make up the operating arm of the
Federal Reserve System, the central bank of the
United States.” Pet. App. 227a, ¶ 14. The Banks
represented to the district court that they “carry out
the nationwide, operational responsibilities of the
nation’s central bank and perform a myriad of
important public functions, designed to develop,
implement and foster the monetary and fiscal policies
of the United States.” Pet. App. 227a (emphasis
added).
Shortly after the Banks filed their complaint, the
action was stayed pending a Patent Trial and Appeal
Board’s Covered Business Method (CBM) Review of
the two patents at issue, requested by the Banks.
Order Granting Motion to Stay Pending CBM Review,
Fed. Reserve Bank of Atlanta et al. v. Bozeman
Financial LLC, No. 17-cv-389-AT (N.D. Ga. Mar. 28,
2017), ECF No. 13.

9
C. The PTAB Permits Post-Issuance Review
and Invalidates Bozeman’s Patents
The AIA authorizes a “person” other than the
patent owner to challenge the validity of a patent postissuance before the Patent Trial and Appeal Board
(PTAB). See 35 U.S.C. §§ 311(a), 321(a).
In January 2017, the Banks petitioned the PTAB
to conduct a CBM review of two patents owned by
Bozeman. In August 2017, the PTAB granted the
Banks’ petitions. Pet. App. 144a-218a.
In July 2018, the PTAB issued two final written
decisions. Pet. App. 21a-72a (’640 Patent); Pet. App.
73a-143a (’840 Patent). As to the ’640 patent, the
PTAB held the challenged claims were directed at
patent-ineligible subject matter and a majority of the
claims were indefinite. Pet. App. 71a. As to the ’840
patent, the PTAB likewise held the challenged claims
were directed at patent-ineligible subject matter. Pet.
App. 142a.
Bozeman timely appealed to the United States
Court of Appeals for the Federal Circuit. Pet. App. 3a.
D. The Federal Circuit’s Denial of Bozeman’s
Request to Stay Federal Circuit Briefing,
and This Court’s Decision in Return Mail
On October 26, 2018, before briefing had
commenced in Bozeman’s appeal before the Federal
Circuit, this Court granted certiorari in Return Mail
to decide “[w]hether the government is a ‘person’ who
may petition to institute review proceedings under the
AIA.” 139 S. Ct. 397 (2018).
On December 13, 2018, Bozeman filed a motion to
stay Federal Circuit briefing pending this Court’s

10
consideration of Return Mail because the appeal
presented a closely related question: “whether the
Federal Reserve Banks” are “AIA-qualified ‘persons.’”
Motion of Appellant to Stay at 2, Bozeman Financial
LLC v. Fed. Reserve Bank of Atlanta et al., No. 191020 (Fed. Cir. Dec. 13, 2018), ECF No. 13.
The Federal Circuit denied Bozeman’s stay
request on December 27, 2018, and the appeal
proceeded. Order at 2, Bozeman, No. 19-1020 (Fed.
Cir. Dec. 27, 2018), ECF No. 17.
On June 10, 2019, this Court reversed the
judgment of the Federal Circuit in Return Mail.
Applying the longstanding presumption that the term
“person” does not apply to the Government, the Court
held the Federal Government is not a “person” for
purposes of the AIA, and may not seek post-issuance
patent review under the statute. 139 S. Ct. at 1861–
62, 1867.8
E. Supplemental Federal Circuit Briefing
Concerning this Court’s Decision in Return
Mail
Soon after the Court issued its decision in Return
Mail, Bozeman filed a motion asking the Federal
Circuit to permit supplemental briefing about the
impact of Return Mail on its appeal. The Federal
Circuit granted each side permission to file a ten-page
supplemental brief. Order, Bozeman, No. 19-1020
(Fed. Cir. July 29, 2019), ECF No. 55. Those
The year before Return Mail was decided, the Court observed:
“To be sure, a private party files the petition for review.” Oil
States Energy Serv., LLC v. Greene’s Energy Grp., 138 S. Ct.
1365, 1378 n.5 (2018) (emphasis added).
8

11
supplemental briefs were filed in August 2019.
Supplemental Briefs, Bozeman, No. 19-1020 (Fed. Cir.
Aug. 2019), ECF Nos. 57, 62.
The Federal Circuit heard oral argument on
November 6, 2019. Submission Order, Bozeman, No.
19-1020 (Fed. Cir. Nov. 6, 2019), ECF No. 69.
F. The Federal Circuit Holds the Banks Are
“Distinct” From the Federal Government
On April 10, 2020, the Federal Circuit issued a
precedential decision in which it held “the Banks are
‘persons’ under the AIA and [the PTAB] had authority
to resolve the issue raised in their petitions.” Pet.
App. 6a.9 That holding rested on the Federal Circuit’s
determination that the Banks “are distinct from the
government for purposes of the AIA.” Pet. App. 6a,
9a. The court of appeals reached that conclusion by
focusing on three considerations.
First, that “[t]he Federal Reserve Banks were
chartered corporate instrumentalities of the United
States under the Federal Reserve Act of 1913.” Pet.
App. 7a (citing 12 U.S.C. § 221).
Second, that Congress chose in the Federal
Reserve Act of 1913 to permit the Banks to be sued in
any court,” while the later-enacted 28 U.S.C. § 1498(a)
requires certain patent lawsuits against or concerning
the United States be brought in the Court of Federal
Claims. Pet. App. 7a-8a.

The Federal Circuit also affirmed the PTAB’s determinations
with respect to Bozeman’s patents. Pet. App. 20a. That aspect
of the Federal Circuit’s decision is not at issue in this Petition.
9

12
Third, that “[t]he Banks are not structured as
government agencies,” “do not receive congressionally
appropriated funds,” and “cannot promulgate
regulations with the force of law.” Pet. App. 8a
(citations omitted).
Bozeman timely filed a petition for rehearing en
banc, asking the full Federal Circuit to review the
panel’s holding that the Banks are distinct from the
Federal Government and are “persons” for purposes of
the AIA. Petition for Rehearing En Banc, Bozeman,
No. 19-1020 (Fed. Cir. Apr. 30, 2020), ECF 73. The
Federal Circuit denied the petition on June 3, 2020.
Pet. App. 219a-22a.
REASONS FOR GRANTING THE PETITION
I. The Federal Circuit’s Precedential Decision
Is Wrong and Important
In Return Mail this Court held the Federal
Government “is not a ‘person’ who may petition for
post-issuance review under the AIA.” 139 S. Ct. at
1867. Because “[t]he patent statutes do not define the
term ‘person,’” id. at 1861, in reaching that holding
the Court applied a “longstanding interpretive
presumption” that the term “person” does not include
the Federal Government. Id. at 1861-62.
In this case, the Federal Circuit acknowledged
Return Mail’s holding that the Federal Government is
not a “person” for purposes of the AIA, Pet. App. 6a,
but then erred in concluding the Banks are “distinct”
from the government and thus “persons” under the
AIA.

13
A. The Federal Circuit Applied the Wrong
Test and Reached the Wrong Outcome
The AIA is silent about whether the Banks are
“persons” under the statute. The Federal Circuit
filled this void by fashioning a formalistic test of its
own creation which ignored numerous relevant
features of the Federal Reserve System.
The Federal Circuit’s approach conflicts with this
Court’s functional analyses employed in other cases
assessing whether an entity is part of the Federal
Government. In those cases this Court focused on the
functions of the entities at issue and how they are
controlled, emphasizing “practical reality” over labels
and formalities. See, e.g., Dep’t of Transp. v. Ass’n of
Am. R.R., 575 U.S. 43, 54 (2015) (finding Amtrak is “a
federal actor or instrumentality under the
Constitution” on the basis of “the practical reality of
federal control and supervision”); Lebron v. Nat’l R.R.
Passenger Corp., 513 U.S. 374, 397-99 (1995)
(corporation created for governmental objectives and
operated under governmental direction and control is
“part of the Government” for constitutional purposes);
Rainwater v. United States, 356 U.S. 590, 591-92
(1958) (engaging in functional analysis to determine
that Commodity Credit Corporation was part of the
Government for purposes of the False Claims Act).
None of the bases for the Federal Circuit’s
conclusion that the Banks are “distinct” from the
Federal Government, individually or taken together,
provide a reasonable basis for its holding that the
Banks are “distinct” from the Federal Government.

14
1. The fact that an entity is organized as a
corporation does not mean it is “distinct” from the
Federal Government. As this Court has explained,
the corporate label is not determinative: “That the
Congress chose to call it a corporation does not alter
its characteristics so as to make it something other
than what it actually is, an agency selected by
Government to accomplish purely Governmental
purposes.” Cherry Cotton Mills v. United States, 327
U.S. 536, 539 (1946); see also Lebron, 513 U.S. at 393
(quoting Cherry Cotton Mills).
Congress has created many government
corporations.
See 5 U.S.C. § 103 (defining
“government corporation”); Kevin R. Kosar, Cong.
Research Serv., Federal Government Corporations:
An Overview (2011). And this Court has made clear
on numerous occasions that a corporation can be part
of the Federal Government. See, e.g., Assoc. of Am.
R.R., 575 U.S. at 55 (National Railroad Passenger
Corporation, known as Amtrak, “is a governmental
entity”); Lebron, 513 U.S. at 394-96 (discussing the
“public and judicial understanding” that corporations
can be “part of the Government”); FDIC v. Meyer, 510
U.S. 471, 486 (1994) (Bivens action could not lie
against Federal Deposit Insurance Corporation
because it was a federal agency); Rainwater, 356 U.S.
at 592 (Commodity Credit Corporation is “part of the
Government of the United States”).10

The Federal Circuit did not rely on the definition of “person”
in the Dictionary Act, 1 U.S.C. § 1, and there is no reason to
believe government corporations are covered by the term
“corporation” in that statute.
10

15
The structure and practical realities of the
Federal Reserve System also demonstrate the
irrelevance of the Banks’ status as corporations. The
Banks bear virtually no resemblance to any “private”
financial institution—a fact their corporate disclosure
statements in this case all-but-concede:
Although stock of each individual
Federal Reserve Bank is owned by
member commercial banks within that
Federal Reserve Bank’s district, none of
the member commercial banks control
any Federal Reserve Bank. Stock of
Federal Reserve Banks, unlike stock in a
private corporation, is not acquired for
investment purposes or for purposes of
control. Rather, such stock is acquired
because its ownership is a condition of
membership in the Federal Reserve
System. Unlike owners of a private
corporation, Federal Reserve Bank
stockholders do not possess a residual
equity interest in Reserve Bank assets.
That residual interest remains always
with the United States.11
Focused on the Banks’ designation as
“corporations,” the Federal Circuit failed to grapple
Certificate of Interest at 3-4, Bozeman, No. 19-1020 (Fed. Cir.
Oct. 18, 2018), ECF No. 5; see also TIMOTHY F. GEITHNER, STRESS
TEST: REFLECTIONS ON FINANCIAL CRISES 89 (2014) (Head of the
Federal Reserve Bank of New York during 2008 financial crisis,
explaining: “the New York Fed’s bank shareholders do not
control its operations”).
11

16
with the Board of Governors’s control over the
Banks—confining itself to a curious and inaccurate
remark about the government’s “limited control over
the operation of the Banks.” Pet. App. 8a (emphasis
added).
The Banks operate under the direction and
ultimate control of federal governmental appointees—
specifically, the Board of Governors of the Federal
Reserve System, which has been empowered by
Congress to exercise “general supervision” over the
“Federal reserve banks.” 12 U.S.C. § 248(j). The
Board approves (and may remove) the president and
vice president of each Bank, and directly elects certain
members of each Bank’s board of directors. See, e.g.,
12 U.S.C. §§ 248, 302, 304, 341. The Banks are also
subject to annual examinations conducted by the
Board, 12 U.S.C. § 485, and to “specialized accounting
principles and practices,” imposed by the Board, in
light of the “unique powers and responsibilities of the
nation's central bank.”12
The reality that the Banks are fundamentally
public institutions was on full display during the
Financial Crisis of 2008. For example, in a 2015
amicus brief, the Federal Reserve Bank of New York
(“FRBNY”) described its efforts “to stabilize” failing
insurance giant AIG during the Crisis, including its
“assistance in the form of the largest rescue loan in
history, an $85 billion credit facility.” Brief for
FRBNY as Amicus Curiae Supporting DefendantCross-Appellant at 2, Starr Int’l Co. v. United States,
856 F.3d 953 (Fed. Cir. 2017) (No. 15-5103).
12

See ACCOUNTING MANUAL, supra, at 1.

17
Explaining its role, FRBNY made one point crystal
clear: “There was no prospect of a private rescue; no
private entity had the capacity to stabilize AIG . . . .”
Id.
Indeed, it took the government—including
FRBNY—to save AIG.13
Reinforcing the point that FRBNY was acting as part of the
Federal Government in extending loans and credit to AIG, in
exchange for assistance from FRBNY “the United States
(‘Government’) received a majority stake in AIG’s equity.” Starr,
856 F.3d at 957; see Starr Int’l Co., Inc. v. Fed. Reserve Bank of
N.Y., 742 F.3d 37, 39 (2d Cir. 2014) (AIG equity provided in
exchange for FRBNY assistance issued to Trust “with the U.S.
Treasury named as the sole beneficiary”); see also BEN S.
BERNANKE, TIMOTHY F. GEITHNER & HENRY M. PAULSON, JR.,
FIREFIGHTING: THE FINANCIAL CRISIS AND ITS LESSONS 135
(2019) (discussing response of “the government” to the financial
crisis); ANDREW ROSS SORKIN, TOO BIG TO FAIL xix (2018) (listing
FRBNY as part of U.S. Government); id. at 65 (FRBNY “is the
government’s eyes and ears in the nation’s financial capital, in
addition to being responsible for managing much of the
Treasury’s debt”). The Banks are similarly acting on behalf of
the Federal Government during the current economic crisis to
“achieve the goals Congress has assigned [them]: maximum
employment and price stability” by taking “critical actions . . . to
support our nation’s economy” during the COVID-19 pandemic.
Neel Kashkari, COVID-19 and the Minneapolis Fed: What we’re
doing, how we’re working, Fed. Reserve Bank of Minneapolis
(Mar. 17, 2020), https://www.minneapolisfed.org/article/2020/co
vid-19-and-the-minneapolis-fed-what-were-doing-how-wereworking; see also New York Fed Actions Related to COVID-19,
Fed.
Reserve
Bank
of
N.Y.,
https://www.newyorkfed.org/markets/new-york-fed-actionsrelated-to-covid-19 (last visited Sept. 7, 2020) (“The New York
Fed, as part of the Federal Reserve System, is . . . implementing
monetary policy as directed by the” FOMC and “administering a
number of Federal Reserve facilities that provide liquidity to a
range of markets”); A message from Loretta J. Mester, President
and CEO, Federal Reserve Bank of Cleveland, Fed. Reserve Bank
13

18
This reality is also reflected in a 2019 Federal
Register notice announcing the Board of Governors
had “determined that the Federal Reserve Banks
(Reserve Banks) should develop a new interbank
24x7x365 real-time gross settlement service with
integrated clearing functionality to support faster
payments in the United States,” in which the Board
repeatedly contrasted Reserve Bank payments and
settlement services with those of the “private sector.”
Federal Reserve Actions to Support Interbank
Settlement of Faster Payments, 84 Fed. Reg. 39,297
(Aug. 9, 2019); id. at 39298 (“Throughout its history,
the Federal Reserve has provided these services
alongside, and in support of, similar services offered
by the private sector.”); id. at 39301 (“Serving such an
operational role would be consistent with the Federal
Reserve’s historical role as a provider of payment
services alongside the private sector.”).
Consistent with the overall statutory scheme of
the Federal Reserve System, and the practical role of
the Banks in that System, courts have described the
Banks as “conduct[ing] important governmental
functions.” See Starr Int’l Co., Inc. v. Fed. Reserve
Bank of N.Y., 742 F.3d 37, 40 (2d Cir. 2014) (quoting
Fed. Reserve Bank of St. Louis v. Metrocentre
Improvement Dist. # 1, 657 F.2d 183, 185–86 (8th Cir.
1981), aff’d mem., 455 U.S. 995 (1982)); see also Fed.
Reserve Bank of Bos., 499 F.2d at 62 (Banks’ “interests
seem indistinguishable from those of the sovereign”).
of
Cleveland,
https://www.clevelandfed.org/newsroom-andevents/covid-19.aspx (last visited Sept. 7, 2020) (“[W]e continue
to carry out our critical responsibilities on behalf of the American
public”).

19
Courts have also recognized that “despite the
ostensibly private ownership of Federal Reserve
Banks . . . the affairs of each Federal Reserve Bank
are conducted under the close supervision and
ultimate control of the Board [of Governors], an
independent federal regulatory agency.” Lee Const.
Co. v. Fed. Reserve Bank of Richmond, 558 F. Supp.
165, 177 (D. Md. 1982); see also Am. Bankers Assoc. v.
United States, 932 F.3d 1375, 1386 (Fed. Cir. 2019)
(describing banks’ ownership of Bank stock as mere
“regulatory scheme”); United States v. Hollingshead,
672 F.2d 751, 754 (9th Cir. 1982) (“Further evidence
of the federal character of the federal reserve banks is
seen in the fact that the Federal Reserve Board
exercises general supervision over the banks.
Consequently, all federal reserve bank expenditures
are subject to Federal Reserve Board approval and
control.”); Berini v. Fed. Reserve Bank of St. Louis, 420
F. Supp. 2d 1021, 1028 (E.D. Mo. 2005) (“[C]ontrol and
supervision of the federal reserve banks is vested in a
Board of Governors appointed by the President with
the advice and consent of the Senate”).
The Department of Justice previously reached a
similar conclusion, rejecting an argument by the
Banks that they are not part of “the United States” as
that term in used in the Service Contract Act of 1965.
As the Department observed, the Banks “are under
strict governmental control and perform important
government functions.” See Service Contract Act of
1965 (41 U.S.C. § 351 et seq.)—Applicability to
Federal Reserve Banks, 2 Op. O.L.C. 211, 212 (1978).
The Federal Circuit failed to account for any of
this, and erred in finding that the Banks’ designation

20
as “corporations” supports the conclusion they are
“distinct” from the Federal Government.14
2. The Federal Circuit wrongly concluded the
language in 12 U.S.C. § 341, providing the Banks may
“sue and be sued . . . in any court of law or equity,” is
inconsistent with the notion that the Banks are part
of the Federal Government in light of 28 U.S.C. §
1498(a)’s requirement that patent lawsuits against or
concerning the United States be brought only in the
Court of Federal Claims. See Pet. App. 7a.
As an initial matter, Section 341 is a waiver of
sovereign immunity, but the Federal Circuit failed to
explain why Congress waived the Banks’ sovereign
immunity in enacting their organic statute if the
Banks are “distinct” from the sovereign. See Starr
Int’l Co. v. Fed. Reserve Bank of N.Y., 906 F. Supp. 2d
202, 247 n.35 (S.D.N.Y. 2012) (noting “statutory
waiver of sovereign immunity for Federal Reserve
Banks, codified at 12 U.S.C. § 341”); Research
Triangle Inst. v. Bd. of Governors of the Fed. Reserve
Sys., 132 F.3d 985, 989 (4th Cir. 1997) (describing §
341 as a waiver of sovereign immunity); see also
Thacker v. TVA, 139 S. Ct. 1435, 1439 (2019) (without
“sue and be sued” clause in TVA’s organic statute, “the
In Ass’n of Am. R.R., the Court determined the National
Railroad Passenger Corporation, commonly known as Amtrak, is
“a federal actor or instrumentality under the Constitution” on
the basis of “the practical reality of federal control and
supervision,” which “prevail[ed] over Congress’ disclaimer of
Amtrak’s governmental status” and over Amtrak’s corporate
status. 575 U.S. at 55. Among the Federal Circuit’s errors here
was its disregard for the “practical reality of federal control and
supervision” of the Banks by the Federal Government, in
contrast with this Court’s analysis in Ass’n of Am. R.R.
14

21
TVA (as an entity of the Federal Government) would
have enjoyed sovereign immunity from suit”).
The Federal Circuit similarly ignored Congress’s
use of substantially identical language to permit
many government entities to sue and be sued in any
court. See, e.g., 12 U.S.C. § 1819(a) (FDIC may “sue
and be sued . . . in any court of law or equity”), 12
U.S.C. § 635(a)(1) (Export-Import Bank may sue and
be sued in any court of competent jurisdiction); 29
U.S.C. § 1302(b)(1) (Pension Benefit Guaranty
Corporation may “sue and be sued . . . in any court,
State or Federal”).
Moreover, the Federal Circuit’s reliance on
Section 1498(a) makes little substantive sense given
that provision was enacted decades after Congress
authorized the Banks to “sue and be sued.” If the
Banks are best viewed as part of the Federal
Government then the later-enacted Section 1498(a)
displaces Section 341’s older, more general language,
with respect to patent lawsuits covered by Section
1498(a). The Federal Circuit previously recognized
the Banks might “themselves [be] considered
government agencies in a patent infringement suit”—
having declined to decide the issue in a prior case
concerning Section 1498(a).15
The Federal Circuit also failed to consider that
the patents at issue relate to activities supervised and
See Advanced Software Design Corp. v. Fed. Reserve Bank of
St. Louis, 583 F.3d 1371, 1378 (Fed. Cir. 2009) (holding that
remedies against the Banks are limited by 28 U.S.C. § 1498(a) in
at least some contexts); see also Pet. App. 8a at n.3.
15

22
directed by the Board of Governors,16 which is
unquestionably not a “person” under the AIA. See
PURPOSES & FUNCTIONS at 3 (Board of Governors “is
an independent agency of the federal government”).
According to the Federal Circuit, the “operating
arms” of the Federal Reserve System may avail
themselves of post-issuance review before the PTAB
while the other parts of that System, including the
Board of Governors, may not. But there is no basis for
reading the AIA as if Congress meant to treat the
constituent parts of the Federal Reserve System
differently from one another.
And the Federal
Circuit’s view is a recipe for mischief: if the Banks can
initiate post-issuance reviews, the Board may direct
the Banks to do so—even though the Board is clearly
not a “person” permitted to institute those
proceedings itself. The Federal Circuit’s decision is
the kind of “odd result” courts avoid when engaging in

An innovation of the patents at issue was to create a “match,
authentication, authorization, clearing, and settlement system”
that can “reduce check fraud and verify checks,” while
“maintain[ing] check payment control.” See U.S. Patent No.
6,754,640 (filed Oct. 23, 2001). The patents expressly
contemplated their invention could be used by “the Federal
Reserve.” Id. The Board and Banks have had a shared role in
regulating check payments, with the Board promulgating several
regulations on the issue. See, e.g., PURPOSES & FUNCTIONS,
supra at 3, at 152-53; 15 CFR Part 210 (Regulation J, concerning
the Banks collection of checks); 12 CFR Part 229 (Regulation CC,
concerning availability of funds and collection of checks).
16

23
statutory interpretation. Reiter v. Cooper, 507 U.S.
258, 267 (1993).17
3. The Federal Circuit misguidedly based its
holding on the notion that the Banks are “not
structured as government agencies.”
As a threshold matter, the court of appeals looked
past the fact that Congress has, at times, defined the
Banks as “agencies.”
See, e.g., 12 U.S.C.
§ 1818(t)(5)(A) (describing a Federal Reserve Bank as
a “Federal banking agency”); 12 U.S.C. § 5581(a)(2)
(defining “transferor agency” to include “any Federal
reserve bank”); 31 U.S.C. § 714(a) (including “Federal
reserve banks” in definition of “agency”); 42 U.S.C. §
4601 (defining “Federal agency” to include “the
Federal reserve banks”); see also Freytag v. Comm’r,
501 U.S. 868, 887 n.4 (1991) (describing Federal
Reserve Bank as “one of the principal agencies” of the
federal government); Fed. Reserve Bank of Bos., 499
F.2d at 62-63 (Federal Reserve Banks “are plainly and
predominantly fiscal arms of the federal government”
and “play a major role” as “agencies of government”).
But even if the Banks had never been defined as
“agencies” the Federal Circuit also ignored that an
entity need not be an “agency” to be part of the Federal
Government. For example, the Banks concede they
are “instrumentalities of the United States.” Pet App.
7a; see also Metrocentre Improvement Dist. # 1 v. Fed.

In Return Mail, the Court rejected the notion that the AIA’s
broad purpose of “provid[ing] a cost-effective and efficient
alternative to litigation in the courts” justified interpreting
“person” to include the Federal Government. 139 S. Ct. at 1867,
n.11.
17

24
Reserve Bank of St. Louis, 455 U.S. 995 (1982)
(affirming holding that “the federal reserve banks are
instrumentalities of the federal government”). This
Court has explained, in “describing the nature of a
federal instrumentality,” United States v. New
Mexico, 455 U.S. 720, 736 (1982), that such an entity
may be an “integral part[]” of a governmental
department, Standard Oil Co. v. Johnson, 316 U.S.
481, 485 (1942), “incorporated into the government
structure,” United States v. Boyd, 378 U.S. 39, 48
(1964), and virtually “an arm of the Government,”
Dep’t of Employment v. United States, 385 U.S. 355,
360 (1966).18
As for the Federal Circuit’s reliance on the fact
that “[t]he Banks do not receive congressionally
appropriated funds” and instead receive funding from
the Board of Governors (Pet. App. 8a (citing 12 U.S.C.
§ 244)), the same is true of the Consumer Financial
Protection Bureau, 12 U.S.C. § 5497(a)(1), which
clearly is part of the government. See Seila Law LLC
v. Consumer Financial Protection Bureau, 140 S. Ct.
2183, 2191 (2020) (describing CFPB as an “agency”
which, through its head, “wields vast rulemaking,
enforcement, and adjudicatory authority over a
significant portion of the U.S. economy”). But it is also
In Return Mail, the Court noted that allowing government
entities to obtain AIA review would result in a “civilian patent
owner . . . defend[ing] the patentability of her invention in an
adversarial, adjudicatory proceeding initiated by one federal
agency . . . overseen by a different federal agency (the Patent
Office).” 139 S. Ct. at 1867. Regardless of whether the Banks
themselves are defined as a federal “agency” for all purposes, the
“awkward situation” the Court sought to avoid in Return Mail
existed before the PTAB in this case. Id.
18

25
a distinction without a difference since the Banks are
required to transfer all “profits” to the United States
Treasury.
12 U.S.C. § 289(a)(3)(B); see also
Hollingshead, 672 F.2d at 754 (citing § 248(j)).
The Federal Circuit also claimed support for its
holding in the fact that “the Banks cannot promulgate
regulations with the force of law” because
Section 248(k) provides the Board of Governors may
delegate to the Banks only functions “other than those
relating to rulemaking or pertaining principally to
monetary and credit policies.” Pet. App. 8a-9a. But
the Federal Circuit cited no support for its view that
the power to promulgate rules is a prerequisite to
being part of the Federal Government, and there are
other governmental entities that lack authority to
promulgate regulations with the force of law. See, e.g.,
Martin v. Occupational Safety & Health Review
Comm’n, 499 U.S. 144, 154 (1991) (commission lacked
rulemaking authority); see also EEOC v. Arabian Am.
Oil Co., 499 U.S. 244, 259-60 (1991) (Scalia, J.,
concurring in part) (discussing “agencies without
explicit rulemaking power”).
But there is a more fundamental way in which the
delegation of powers by the Board to the Banks
undercuts the Federal Circuit’s holding. If the Banks
actually were “distinct” from the Federal Government
it is doubtful the Board could delegate its powers to
them in light of the private non-delegation doctrine.
See Carter v. Carter Coal Co., 298 U.S. 238, 311
(1936); see also Assoc. of Am. R.R., 575 U.S. at 87-88
(Thomas, J., concurring in the judgment) (explaining
the “‘private nondelegation doctrine’ flows logically
from the three Vesting Clauses” and that if Amtrak

26
were private “it cannot exercise these three categories
of governmental power.”).
That constitutional
problem is avoided by interpreting “person” in the AIA
as excluding the Banks, just like other parts of the
Federal Government. See FCC v. Fox Television
Stations, Inc., 556 U.S. 502, 516 (2009) (doctrine of
constitutional avoidance is “an interpretive tool”).
*
*
*
The factors relied on by the Federal Circuit fail to
support its conclusion that the Banks are “distinct”
from the Federal Government, or the court’s holding
that they are “persons” under the AIA.
Had the Federal Circuit taken guidance from this
Court’s prior decisions it would have focused on the
purposes and functions of the Banks in the Federal
Reserve System, how the Banks actually operate, and
the supervision and control the Board exercises over
the Banks. That approach should have led readily to
the conclusion that the Banks are part of the Federal
Government, and that the presumption recognized in
Return Mail applies to them.19
While the Banks neither look nor operate like any truly
private institution, the state action doctrine nevertheless makes
clear an entity can have attributes of a private organization and
still be treated as a government actor. The principles underlying
that doctrine further support treating the Banks under the AIA
in accord with other parts of the Federal Government. See, e.g.,
Edmonson v. Leesville Concrete Co., Inc., 500 U.S. 614, 621–22
(1991); see also Brentwood Acad. v. Tennessee Secondary School
Athletic Assoc., 531 U.S. 288, 305 (2001) (Thomas, J., dissenting)
(observing that even a private organization’s act can constitute
state action “when the organization performed a public function,
was created, coerced or encouraged by the government, or acted
in a symbiotic relationship with the government”).
19

27
B. The
Federal
Circuit’s
Important
Decision Warrants Review
The Federal Circuit’s precedential decision is
important for several reasons.
1. The Banks acknowledged to the Federal
Circuit that “the question whether [they] qualify as
‘person[s]’” under the AIA is “an important one.”
Opposition to Motion for Supplemental Briefing at 6,
Bozeman, No. 19-1020 (Fed. Cir. June 28, 2019), ECF
No. 53.
The Banks have previously sought post-issuance
review before the PTAB—see, e.g., Fed. Reserve Bank
of Bos. v. Stambler, No. IPR2013-00409 (P.T.A.B.
2013)—and presumably will in the future,
emboldened by the decision below. The Federal
Circuit recognized as much. Pet. App. 6a (observing
that whether the Banks are “persons” under the AIA
“is pertinent to multiple pending and future patent
litigations involving the Banks”).
This case would warrant review even if its
implications were limited to the application of the AIA
to the Banks.
2. But the Federal Circuit’s precedential decision
has implications beyond the Banks. There are
hundreds of federally-created entities, including
dozens of government corporations, whose status
under the AIA may be affected by the Federal Circuit’s
decision. See generally Gov’t Accountability Office,
GAO-10-97, Federally Created Entities: An Overview
of Key Attributes (2009). Because the Federal Circuit
has exclusive jurisdiction over appeals from postissuance proceedings before the PTAB, 35 U.S.C.

28
§ 141, the precedential decision issued in this case will
be binding on future panels of that court, and guide
the resolution of any case involving any of these
entities.
3. The decision below may also have important
repercussions beyond the AIA. This Court’s cases
applying the longstanding presumption that the
Federal Government is not a “person” do not resolve
the antecedent question: what entities are part of the
Federal Government for purposes of that
presumption. The Federal Circuit’s precedential
decision—which turns almost entirely on factors
independent of patent law—is likely to be invoked in
any case where this antecedent question is presented,
including those where neither the Banks nor the AIA
are involved.20
4. Finally, as explained in detail in Section II, the
Federal Circuit’s decision is difficult to reconcile with
decisions from several other courts of appeals
concerning the Banks.

The presumption has been invoked by courts interpreting a
wide range of statutes. See, e.g., Inyo Cty., Cal. v. PaiuteShoshone Indians of the Bishop Comm. of the Bishop Colony, 538
U.S. 701, 711-12 (2003) (applying presumption to 42 U.S.C. §
1983); Robinson v. United States Dep’t of Educ., 917 F.3d 799,
802-03 (4th Cir. 2019) (applying presumption to Fair Credit
Reporting Act); Kreipke v. Wayne State University, 807 F.3d 768,
774-76 (6th Cir. 2015) (applying presumption to False Claims
Act).
20

29
II. The Federal Circuit’s Decision Is In Tension
With Decisions By Other Courts of Appeals
Concerning the Federal Reserve Banks
While ostensibly limited to the AIA, the Federal
Circuit’s determination that the Banks are “distinct
from the government” is in tension with decisions by
several other courts of appeals addressing the
provenance and governmental character of the Banks.
For example, in Fed. Reserve Bank of Bos., 499
F.2d 60 (1st Cir. 1974), the First Circuit held the
Federal Reserve Bank of Boston was a “public
governmental body” entitled to intergovernmental tax
immunity—and was not “a private party performing
some functions for the federal government.” Id. at 62
& n.6. In contrast with the Federal Circuit’s decision
here, the First Circuit found that Congress’s decision
to organize the Banks in corporate form is irrelevant
to their status as a “public governmental body.” And
unlike the Federal Circuit, the First Circuit found
that the Banks’ “interests seem indistinguishable
from those of the sovereign.” Id. at 62. (emphasis
added).
The Sixth Circuit adopted a similar view in Jet
Courier Servs., Inc. v. Fed. Reserve Bank of Atlanta,
713 F.2d 1221 (6th Cir. 1983), where it held the Banks
are not “persons” amenable to suit under the Sherman
Act because they are part of the Federal Reserve
System, “an agency of the federal government.” Id. at
1228. Drawing on Fed. Reserve Bank of Bos., the
Sixth Circuit found “the Federal Reserve Banks are
not private business corporations, but are part of a
system created by Congress to perform important
governmental functions. The Federal Reserve System,

30
consisting of the Board of Governors and the twelve
Federal Reserve Banks, functions as the nation’s chief
money manager. It is this nation's central bank,
performing a vital governmental role.” Id. (emphasis
added). According to the Sixth Circuit, “[i]t is the role
of the Federal Reserve System as manager of the fiscal
affairs of the federal government and the money
supply of the nation which places the Reserve Banks
outside the Sherman Act definition of persons.” Id. 21
The Tenth Circuit adopted a similar view in
Schroder v. Volcker, 864 F.2d 97, 99 (10th Cir. 1988),
where the court of appeals affirmed “the district
court’s reasoning and conclusion” which, like the
Sixth Circuit in Jet Courier Servs., determined that
an antitrust claim could not be asserted against
defendants “affiliated with the Federal Reserve
System,” 646 F. Supp. 132, 134 (D. Colo. 1986). The
court of appeals therefore affirmed dismissal of
plaintiff’s antitrust claim, including against the
Federal Reserve Bank of Kansas City. 864 F.2d at 98.
The Ninth Circuit has concluded that Bank
employees are public officials for purposes of the
federal anti-bribery statute. Hollingshead, 672 F.2d
at 753-54. Reviewing the Banks’ organic statute, the
Ninth Circuit found the Banks’ purpose was of a
fundamentally federal character, and that they are
See also Fed. Reserve Bank of St. Louis v. City of Memphis,
515 F. Supp. 63, 64 (W.D. Tenn. 1979) (Federal Reserve Bank
immune from state assessment because “in the absence of
express Congressional consent, a state or local government
cannot levy a tax against the United States or its
property”), aff'd sub nom. Fed. Reserve Bank v. City of Memphis,
649 F.2d 462 (6th Cir. 1981).
21

31
subject to extensive governmental control: “the
Federal Reserve Board exercises general supervision
over the banks. Consequently, all federal reserve bank
expenditures are subject to Federal Reserve Board
approval and control.” Id. at 754 (citing 12 U.S.C.
§ 248(j)).
Other courts of appeals examining the nature of
the Banks have reached similar conclusions. See, e.g.,
Starr Int’l Co., Inc. v. Fed. Reserve Bank of N.Y., 742
F.3d 37, 40 (2d Cir. 2014) (Banks “conduct important
governmental functions”); Metrocentre Improvement
Dist. # 1, 657 F.2d at 186 (“In light of the important
governmental functions performed by the federal
reserve banks . . . we hold that the federal reserve
banks are instrumentalities of the federal
government”), aff’d mem. 455 U.S. 995 (1982); Fed.
Reserve Bank v. Kalin, 77 F.2d 50, 51 (4th Cir. 1935)
(Federal Reserve Banks are “important agencies of

32
the federal government in its control of banking and
currency”).22

Numerous district courts have expressed similar views. See,
e.g., United States ex rel. Grubea v. Rosicki, Rosicki & Assocs.,
P.C., 318 F. Supp. 3d 680, 704 n. 20 (S.D.N.Y. 2018) (“Although,
as a legal matter the Federal Reserve Banks are federal
instrumentalities, not federal agencies, they are properly
conceived of as part of the federal Government under the [False
Claims Act].”); Flight Int’l Grp., Inc. v. Fed. Reserve Bank of
Chicago, 583 F. Supp. 674, 679 (N.D. Ga. 1984) (“Although the
Federal Reserve banks are not executive departments, they are
independent establishments in the executive branch of the
government.”), vacated after settlement, 597 F. Supp. 462 (N.D.
Ga. 1984); Lee Const. Co., 558 F. Supp. at 177 (“[D]espite the
ostensibly private ownership of Federal Reserve Banks . . . the
affairs of each Federal Reserve Bank are conducted under the
close supervision and ultimate control of the Board [of
Governors], an independent federal regulatory agency.”); Comm.
to Save the Fox Bldg. v. Birmingham Branch of Fed. Reserve
Bank of Atlanta, 497 F. Supp. 504, 509 (N.D. Ala. 1980) (“[F]or
purposes of the National Environmental Policy Act and the
National Historic Preservation Act, the Federal Reserve Bank of
Atlanta is a ‘federal agency.’”); Brink’s, Inc. v. Bd. of Governors
of Fed. Reserve Sys., 466 F. Supp. 116, 118 (D.D.C. 1979) (“[The
Federal Reserve Bank of Richmond] is an agency of the United
States for purposes of the Service Contract Act”).
22

33
III. This Case Is an Ideal Vehicle to Resolve the
Question Presented
This case is an ideal vehicle for resolving the
question presented.
First, there are no obstacles to the Court’s
consideration of the question presented. The “purely
legal” issue (Pet. App. 5a) was posed to the Federal
Circuit and passed upon by the court of appeals in a
precedential decision.
Second, the question presented entirely controls
the outcome of this case. If the Banks are not distinct
from the Federal Government, and are not “persons”
who may avail themselves of the post-issuance review
procedures set forth in the AIA, then the PTAB lacked
jurisdiction to invalidate the patents at issue. If the
PTAB lacked jurisdiction then its actions were ultra
vires, and the invasion of Petitioner’s property rights
will go unaddressed absent this Court’s review. See
Oil States, 138 S. Ct. at 1375 (patents convey “a
specific form of property right”); Florida Prepaid
Postsecondary Educ. Expense Bd. v. College Sav.
Bank, 527 U.S. 627, 642 (1999) (patents “have long
been considered a species of property”).
Third, because the Federal Circuit has exclusive
jurisdiction over appeals from post-issuance
proceedings before the PTAB, 35 U.S.C. § 141, there
is no need or opportunity for other lower courts to pass
on the question presented.
Finally, the question presented was decided by
the Federal Circuit in a precedential decision, and the
full court considered Bozeman’s request for en banc
review, but refused to correct the panel’s error.

34
Pet. App. 221a-24a. This Court should not wait for a
future case posing the question which is cleanly and
squarely presented here.
CONCLUSION
For the foregoing reasons, this Petition for a Writ
of Certiorari should be granted.
Respectfully submitted,
SCOTT E. GANT
Counsel of Record
MENNO GOEDMAN
BOIES SCHILLER FLEXNER LLP
1401 New York Avenue, NW
Washington, DC 20005
(202) 237-2727
sgant@bsfllp.com
Counsel for Petitioner
SEPTEMBER 2020

APPENDIX

1a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
_________________
BOZEMAN FINANCIAL LLC,
Appellant
v.
FEDERAL RESERVE BANK OF ATLANTA,
FEDERAL RESERVE BANK OF BOSTON,
FEDERAL RESERVE BANK OF CHICAGO,
FEDERAL RESERVE BANK OF CLEVELAND,
FEDERAL RESERVE BANK OF DALLAS,
FEDERAL RESERVE BANK OF KANSAS CITY,
FEDERAL RESERVE BANK
OF MINNEAPOLIS,
FEDERAL RESERVE BANK OF NEW YORK,
FEDERAL RESERVE BANK
OF PHILADELPHIA,
FEDERAL RESERVE BANK OF RICHMOND,
FEDERAL RESERVE BANK
OF SAN FRANCISCO,
FEDERAL RESERVE BANK OF ST. LOUIS,
Appellees
_________________
2019-1018
_________________

2a
Appeal from the United States Patent and
Trademark Office, Patent Trial
and Appeal Board in No. CBM2017-00035.
_________________
BOZEMAN FINANCIAL LLC,
Appellant
v.
FEDERAL RESERVE BANK OF ATLANTA,
FEDERAL RESERVE BANK OF BOSTON,
FEDERAL RESERVE BANK OF CHICAGO,
FEDERAL RESERVE BANK OF CLEVELAND,
FEDERAL RESERVE BANK OF DALLAS,
FEDERAL RESERVE BANK OF KANSAS CITY,
FEDERAL RESERVE BANK
OF MINNEAPOLIS,
FEDERAL RESERVE BANK OF NEW YORK,
FEDERAL RESERVE BANK
OF PHILADELPHIA,
FEDERAL RESERVE BANK OF RICHMOND,
FEDERAL RESERVE BANK
OF SAN FRANCISCO,
FEDERAL RESERVE BANK OF ST. LOUIS,
Appellees
_________________
2019-1020
_________________
Appeal from the United States Patent and
Trademark Office, Patent Trial
and Appeal Board in No. CBM2017-00036.

3a
_________________
Decided: April 10, 2020
_________________
SCOTT E. GANT, ERIC J. MAURER, Boies, Schiller &
Flexner, LLP, Washington, DC, argued for appellant.
Also represented by THOMAS MAIORINO, Maiorino Law
Group LLC, Mt. Laurel, NJ; JOHN W. GOLDSCHMIDT,
JR., Ference & Associates LLC, Philadelphia, PA.
JEFFREY S. BUCHOLTZ, JOSHUA NATHANIEL
MITCHELL, King & Spalding LLP, Washington, DC,
argued for appellees. Also represented by NATASHA
HORNE MOFFITT, Atlanta, GA.
_________________
Before LOURIE, DYK, AND MOORE, Circuit Judges.
MOORE, Circuit Judge.
Bozeman Financial LLC appeals from the Patent
Trial and Appeal Board’s covered business method
(CBM) review decisions holding all of the claims of
U.S. Patent Nos. 6,754,640 and 8,768,840 ineligible
under 35 U.S.C. § 101.1 On appeal, Bozeman
challenges the Board’s authority to decide the

The Board also determined that claims 1–20, 25, and 26 of
the ’640 patent are unpatentable under § 112, but Bozeman does
not challenge that decision on appeal.
1

4a
petitions because it argues the Banks2 are not
“persons” under the America Invents Act (AIA). It
further challenges the Board’s eligibility decisions.
We have jurisdiction under 28 U.S.C. § 1295(a)(4)(A).
For the reasons set forth below, we hold that the
Banks are “persons” who may petition for postissuance review under the AIA. We further hold that
claims 21–24 of the ’640 patent and 1–20 of the ’840
patent are ineligible under § 101. Accordingly, the
Board’s decisions are affirmed.
I
Bozeman filed a supplemental brief arguing that
the Banks are not “persons” under the AIA, and
therefore they may not petition for post-issuance
review under the AIA. Bozeman contends that the
Banks are government entities, which the Supreme
Court held in Return Mail, Inc. v. U.S. Postal Serv.,
are not “persons” under the AIA. 139 S. Ct. 1853
(2019). The Banks argue that Bozeman waived this
argument by not raising it to the Board or in its
opening brief. Additionally, they argue that Return
Mail is inapplicable because the Banks are distinct
from the United States government.
The general rule is “that a federal appellate court
does not consider an issue not passed upon below.”
Singleton v. Wulff, 428 U.S. 106, 120 (1976). We
The petitioners and now appellees are a set of Federal
Reserve banks from Atlanta, Boston, Chicago, Cleveland, Dallas,
Kansas City, Minneapolis, New York, Philadelphia, Richmond,
San Francisco, and St. Louis (the Banks).
2

5a
generally do not consider arguments not raised to the
Board. See In re Baxter, 678 F.3d 1357, 1362 (Fed. Cir.
2012); In re DBC, 545 F.3d 1373 (Fed. Cir. 2008). We
similarly consider arguments not raised in an
appellant’s opening brief waived absent exceptional
circumstances. SmithKline Beecham Corp. v. Apotex
Corp., 439 F.3d 1312, 1319 (Fed. Cir. 2006). There are
circumstances where we will exercise our discretion to
consider an issue despite its not being raised below or
in an appellant’s opening brief, however. See
Interactive Gift Exp., Inc. v. Compuserve, Inc., 256
F.3d 1323, 1344–45 (Fed. Cir. 2001); L.E.A. Dynatech,
Inc. v. Allina, 49 F.3d 1527, 1531 (Fed. Cir. 1995);
Cemex, S.A. v. United States, 133 F.3d 897, 902 (Fed.
Cir. 1998); Becton Dickinson & Co. v. C.R. Bard, Inc.,
922 F.2d 792, 800 (Fed. Cir. 1990). Here, we find that
the circumstances warrant deviating from the general
rule of waiver.
Whether the Banks are “persons” for purposes of
the AIA is an issue of statutory interpretation, a
purely legal question. Resolving this issue is limited
to interpretation of provisions of the AIA that apply to
the Board, an issue that would only be appealable to
this court, even if addressed by the Board in the first
instance. Patent law questions of this sort fall
squarely within the role of this court to create a
uniform body of patent law. Reaching the issue is
unlikely to substantially prejudice the parties.
Bozeman moved for supplemental briefing to address
the Supreme Court’s decision in Return Mail, which
the Banks opposed, arguing that Bozeman forfeited
its argument by not raising that argument in its

6a
opening brief. That motion was granted and the
parties were given the opportunity to brief the issue.
While resolution of this issue may not have a large
impact (beyond this case) on pending post-issuance
proceedings before the Board, it is pertinent to
multiple pending and future patent litigations
involving the Banks. Oral Arg. at 23:08–12. Because
the issue is narrow and legal, and the parties are not
prejudiced by our resolution, we exercise our
discretion to reach the issue. We note that this
decision is limited to the status of the Banks and does
not prejudice other entities whose status as “persons”
under the AIA may separately be questioned.
Turning to the merits, we hold that the Banks are
“persons” under the AIA and the Board had authority
to resolve the issues raised in their petitions. In
Return Mail, the Supreme Court held that federal
agencies are not “persons” able to seek post-issuance
review of a patent under the AIA. 139 S. Ct. at 1858.
The Court held that the government was not a
“person,” such that it was capable of petitioning for
any of the three post-issuance proceedings before the
USPTO—inter partes review, post-grant review, and
CBM review. The Banks argue that they are distinct
from the government for purposes of the AIA, such
that they are “persons” capable of bringing petitions
for post-issuance review under the AIA. We agree.
Bozeman argues that the Banks are operating
members of the nation’s Federal Reserve System,
which is a federal agency, meaning they are
government entities. According to Bozeman, the
Banks implement the monetary and fiscal policies of

7a
the United States, conduct important governmental
functions, and any profit generated by the Banks is
transferred to the United States Treasury. See 12
U.S.C. § 289. For these reasons, Bozeman argues that
the Banks are not private financial institutions, but
are instead fundamentally public, government
institutions whose equity interest remains with the
United States.
The Banks respond that the Federal Reserve
Banks are chartered corporate instrumentalities of
the United States, which are distinct from the
sovereign because they are not part of any executive
agency or department. They argue that they are
corporations that are not government-owned and are
operationally distinct from the federal government.
We agree that the Banks are “persons” and as such
are capable of petitioning the USPTO.
The Federal Reserve Banks were established as
chartered corporate instrumentalities of the United
States under the Federal Reserve Act of 1913. See 12
U.S.C. § 221 et seq. Unlike the Postal Service, which
was at issue in Return Mail, the Banks’s enabling
statute does not establish them as part of an executive
agency, but rather each bank is a “body corporate.” 12
U.S.C. § 341. Like any other private corporation, the
Banks each have a board of directors to enact bylaws
and to govern the business of banking. Id. Moreover,
the Banks may sue or be sued in “any court of law or
equity.” Id.
It is significant that the Banks are subject to suit
for patent infringement in any court. The Supreme

8a
Court recognized that federal agencies face less risk
for patent infringement than do private entities, and
recognized that lessened risk as a reason for Congress
to treat federal agencies differently. Return Mail, 139
S. Ct. at 1867. A patent owner’s remedy is limited
when it sues the government rather than private
entities.3 28 U.S.C. § 1498(a). Patent owners’ ability
to sue the Banks in any district court, and to seek
remedies they would be prohibited from in a suit
against the government, favors a finding that the
Banks are separate from the government and
Congress intended the Banks have access to postissuance proceedings.
The Banks are not structured as government
agencies. The Banks do not receive congressionally
appropriated funds. 12 U.S.C. § 244. No Bank official
is appointed by the President or any other
Government official. 12 U.S.C. § 341. Moreover, the
government exercises limited control over the
operation of the Banks. Instead, the “direct
supervision and control of each Bank is exercised by
its board of directors.” 12 U.S.C. § 301. And the Banks
Although this court has held that § 1498(a) applied to the
Banks in Advanced Software Design Corp. v. Fed. Reserve Bank
of St. Louis, 583 F.3d 1371, 1378 (Fed. Cir. 2009), that decision
arose in an unusual posture. The court held that the Banks’ acts
of infringement were only “for the Government” because a
government agency, the Treasury, had authorized and consented
to the use of the infringing software. Id. at 1377–78. The court
specifically declined to resolve whether the Banks themselves
are considered government agencies in a patent infringement
suit. Id. at 1379.
3

9a
cannot promulgate regulations with the force of law.
Scott v. Fed. Reserve Bank, 406 F.3d 532, 535 (8th Cir.
2005).
For these reasons, we conclude that the Banks are
distinct from the government for purposes of the AIA.
We recognize that there may be circumstances where
the structure of the Banks does not render them
distinct from the government for purposes of statutes
other than the AIA. For purposes of the AIA, however,
we conclude the Banks are “persons” capable of
petitioning for post-issuance review under the AIA.
The Board therefore had authority to decide the CBM
petitions at issue here.
II
Having determined that the Board had the
authority to resolve the petitions before it, we now
turn to Board’s determinations holding ineligible the
claims of the ’840 and ’640 patents. The ’840 and ’640
patents are directed to methods for authorizing and
clearing financial transactions to detect and prevent
fraud. See, e.g., ’640 patent at Abstract. The ’840
patent is a continuation of a divisional application,
which was a continuation-in-part of the application
that issued as the ’640 patent. Claim 1 of the ’840
patent is representative:
1. A computer implemented method for detecting
fraud in financial transactions during a payment
clearing process, said method comprising:
receiving through one of a payer bank and a third
party, a first record of an electronic financial

10a
transaction from at least one of the following
group: a payer, a point-of-sale terminal, an online
account and a portable electronic device;
storing in a database accessible by each party to
said payment clearing process of said electronic
financial transaction, said first record of said
electronic financial transaction, said first record
comprising more than one parameter;
receiving at said database at least a second record
of said electronic financial transaction from one or
more of a payee bank and any other party to said
payment clearing process as said transaction
moves along said payment clearing process,
wherein said second record comprises at least one
parameter which is the same as said more than
one parameter of said first record;
each of said first and second records received at
said database comprise at least two of the same
said more than one parameters;
determining by a computer when there is a match
between at least two of said parameters of said
second record of said first financial transaction
received at said database and the same
parameters of said first record of said financial
transaction stored in said database, and wherein
any party to said payment clearing process is
capable of verifying said parameters at each point
along said financial transaction payment clearing
process;

11a
sending a notification to said payee bank
participant with authorization to process said
electronic financial transaction when said
parameters match; and
sending a notification to said payee bank
participant to not process said electronic financial
transaction when said parameters do not match.
The Banks petitioned for CBM review of claims 1–
26 of the ’640 patent and claims 1–20 of the ’840
patent. The Board determined that the ’640 patent’s
claims are directed to the abstract idea of “collecting,
displaying, and analyzing information to reconcile
check information against a ledger.” No. 2019-1018 at
J.A. 34. The Board further found that the claims do
not contain an inventive concept to render them
eligible under § 101. The Board noted, and rejected,
Bozeman’s attempt to incorporate by reference
arguments related to the ’840 patent’s CBM rather
than offer any argument in its Patent Owner
Response. The Board also found that claims 1–20, 25,
and 26 are unpatentable under § 112.
The Board determined that the ’840 patent claims
are directed to the abstract idea of “collecting and
analyzing information for financial transaction fraud
or error detection.” No. 2019-1020 at J.A. 33. The
Board found that the claims do not contain an
inventive concept to render them eligible under § 101.
It found that the claims recite generic computer
technology and that the claim elements considered
individually and as an ordered combination merely

12a
“apply the abstract concept of collecting, storing,
analyzing, and communicating information to
reconcile financial information.” Id. at J.A. 47. The
Board concluded that claims 1–20 of the ’840 patent
are ineligible under § 101. Bozeman appeals the
Board’s decisions that the claims of the ’640 and ’840
patents are ineligible under § 101.4
A. Eligibility
The Banks argue that Bozeman waived any
separate eligibility arguments related to the claims of
the ’640 patent. In its patent owner response,
Bozeman’s argument was limited to a single sentence
incorporating by reference its eligibility arguments in
the ’840 patent CBM proceeding stating, “the ’640
Patent would fall under the same Section 101
Patentability as the child parent, the ’840.” No. 191018 at J.A. 188. The Board found that Bozeman
“offer[ed] no arguments in its Patent Owner
Response” in the ’640 patent CBM proceeding. Id. at
J.A. 37. It also determined that Bozeman’s attempt to
incorporate by reference its arguments in the separate
CBM proceeding violated the Board’s rules. Id. (citing
37 C.F.R. § 42.6(a)(3)). The Board nevertheless viewed
as applicable the reasoning it provided in the CBM
At oral argument, Bozeman’s counsel acknowledged that
only the Board’s ineligibility decisions as to claims 21–24 of the
’640 patent are at issue on appeal. Oral Arg. at 17:55–18:13.
Bozeman did not appeal the Board’s decision that claims 1–20,
25, and 26 of the ’640 patent were invalid under § 112. Thus, our
review of the Board’s ineligibility decision is limited to claims 21–
24 of the ’640 patent and claims 1–20 of the ’840 patent.
4

13a
related to the ’840 patent and held ineligible the
claims of the ’640 patent. Id. at J.A. 38.
Bozeman’s failure to separately argue the
eligibility of the ’640 patent claims before the Board
precludes it from doing so for the first time on appeal.
Bozeman concedes that the appeal is limited to the
eligibility of claims 21–24 of the ’640 patent. We limit
our review to the only argument Bozeman made to the
Board, that the ’640 patent claims are eligible for the
same reasons as the ’840 patent claims.
We review the Board’s legal conclusions de novo
and its factual findings for substantial evidence.
Samsung Elecs. Co. v. Elm 3DS Innovations, LLC, 925
F.3d 1373, 1380 (Fed. Cir. 2019). Eligibility under
§ 101 is a question of law, based on underlying facts.
SAP Am., Inc. v. InvestPic, LLC, 898 F.3d 1161, 1166
(Fed. Cir. 2018). Section 101 states that “[w]hoever
invents or discovers any new and useful process,
machine, manufacture, or composition of matter, or
any new and useful improvement thereof, may obtain
a patent therefor, subject to the conditions and
requirements of this title.” 35 U.S.C. § 101. Abstract
ideas are not patent eligible. Alice Corp. Pty. Ltd. v.
CLS Bank Int’l, 573 U.S. 208, 216 (2014). We apply
the two-step framework set forth in Alice to determine
patent-eligibility under § 101. Id. at 217. We first
determine whether the claims are directed to a
“patent-ineligible concept,” such as an abstract idea.
Id. If so, we “consider the elements of each claim both
individually and ‘as an ordered combination’ to
determine whether the additional elements
‘transform the nature of the claim’ into a patent-

14a
eligible application.” Id. (quoting Mayo Collaborative
Servs. v. Prometheus Labs., Inc., 566 U.S. 66, 78–79
(2012)).
1. Alice Step One
At step one, we determine whether the claims are
directed to an abstract idea. Alice, 573 U.S. at 217.
“[F]undamental economic practice[s] long prevalent in
our system of commerce” are examples of abstract
ideas, which are ineligible subject matter. Bilski v.
Kappos, 561 U.S. 593, 611 (2010). The Board
determined that the claims of the ’840 patent are
directed to the abstract idea of “collecting and
analyzing information for financial transaction fraud
or error detection.” No. 19-1020 at J.A. 33. We agree.
Claim 1 of the ’840 patent claims a method of
receiving data from two financial records, storing that
data, comparing that data, and displaying the results.
As the specification explains, “[t]he present invention
relates to a Universal Positive Pay Database method,
system, and/or computer useable medium to reduce
check fraud and verify checks, other financial
instruments and documents.” ’840 patent at 1:22–25;
see id. at 5:29–53. Verifying financial documents to
reduce transactional fraud is a fundamental business
practice that, without more, is not eligible for patent
protection. The ’840 patent’s claimed method, which
implements basic computer equipment to achieve this
verification, is similar to methods we have held
directed to abstract ideas. See Credit Acceptance Corp.
v. Westlake Servs., 859 F.3d 1044, 1054–56 (Fed. Cir.
2017); Fairwarning IP, LLC v. Iatric Sys., Inc., 839

15a
F.3d 1089, 1093 (Fed. Cir. 2016); Content Extraction
& Transmission LLC v. Wells Fargo Bank, National
Assoc., 776 F.3d 1343 (Fed. Cir. 2014).
In Credit Acceptance, we held claims directed to “a
system for maintaining a database of information
about the items in a dealer’s inventory, obtaining
financial information about a customer from a user,
combining these two sources of information to create
a financing package for each of the inventoried items,
and presenting the financing packages to the user”
were directed to an abstract idea. 859 F.3d at 1054.
We explained that the claims there were directed to
the abstract idea of processing an application for a
financial purchase, which was not meaningfully
distinct from the types of financial industry practices
held ineligible by the Supreme Court. Id. (citing Alice,
134 S.Ct. 2356; Bilski, 561 U.S. at 611). The claims
here likewise obtain information from financial
databases and present results of a comparison of those
pieces of financial information.
Our recent decision in Solutran, Inc. v. Elavon,
Inc. held claims like the claims of the ’840 patent
ineligible. 931 F.3d 1161 (Fed. Cir. 2019). In Solutran,
the claims recited a method for electronic check
processing that involved, among other things,
receiving purchase data at a point of sale and
comparing that information to the paper check to
verify the accuracy of the transaction, and crediting a
merchant’s account while processing the check. Id. at
1166–67. We held that crediting a merchant’s account
as early as possible was a long-standing commercial
practice, and that the claims directed to that

16a
commercial practice were directed to an abstract idea.
Id. The ’840 patent claims similarly recite a method of
reducing check fraud by receiving financial
transaction data from two sources including the point
of sale and comparing that data to verify a
transaction. And like the claimed subject matter in
Solutran, verifying a transaction to avoid fraud, in
particular check fraud, is a long-standing commercial
practice. Moreover, the use of well-known computer
components to collect, analyze, and present data, in
this case to verify financial transactions, does not
render these claims any less abstract. See Elec. Power
Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1352 (Fed.
Cir. 2016). We see no meaningful distinction between
the claims of the ’840 patent and our precedent that
would lead us to conclude that these claims are not
directed to an abstract idea.
Bozeman argues that the claimed method is a
physical process that improves handling and
processing of checks, not an abstract idea. It argues
that because the process involves tangible steps, it
cannot be an abstract idea, even if the claims
additionally involve or include otherwise abstract
concepts. As we explained in Solutran, “the
physicality of the paper checks being processed and
transported is not by itself enough to exempt the
claims from being directed to an abstract idea” Id.; see
In re Marco Guldenaar Holding B.V., 911 F.3d 1157,
1161 (Fed. Cir. 2018) (“[T]he abstract idea exception
does not turn solely on whether the claimed invention
comprises physical versus mental steps.”). Moreover,
recording or extracting data from physical documents,

17a
such as paper checks, is not alone sufficient to render
claims not abstract. Content Extraction, 776 F.3d at
1347. In Content Extraction, we explained that “data
collection, recognition, and storage is undisputedly
well-known. Indeed, humans have always performed
these functions. And banks have, for some time,
reviewed checks, recognized relevant data such as the
amount, account number, and identity of account
holder, and stored that information in their records.”
Id. Despite the presence of physical documents from
which data was collected, we held that the claims were
directed to the abstract idea of “1) collecting data, 2)
recognizing certain data within the collected data set,
and 3) storing that recognized data in a memory.” Id.
The claims of the ’840 patent, however, do not even
limit the method steps to processing a physical check.
These claims are directed to the abstract idea of
collecting and analyzing information for financial
transaction fraud or error detection.
2. Alice Step Two
At Alice step two, we “consider the elements of
each claim individually and ‘as an ordered
combination’ to determine whether the additional
elements ‘transform the nature of the claim’ into a
patent-eligible application.” Alice, 573 U.S. at 218
(quoting Mayo, 566 U.S. at 78–79). The Board
determined that the ’840 patent claims do not contain
an inventive concept sufficient to “transform the
nature of the claims into patent-eligible applications
of an abstract idea.” No. 19-1020 at J.A. 42. We agree
that there is nothing additional in the claims of the

18a
’840 patent that would render the claims patenteligible.
The ’840 patent specification explains that
methods for inhibiting check fraud and verifying
financial transactions were well-known. See ’840
patent at 1:57–2:46. The specification further
demonstrates that the technological components
recited in claim 1 of the ’840 patent were conventional,
off-the-shelf computer components. Id. at 9:30–47. As
the Board found, “[n]othing in the claims, understood
in light of the specification, appears to require
anything more than off-the-shelf, conventional
computer, storage, network, and display technology
for collecting the data related to financial
transactions, and displaying the data to the users.”
No. 19-1020 at J.A. 43. Indeed, Bozeman does not
argue that the claimed computer components provide
the inventive concept.
Bozeman instead argues that the ordered
combination of the elements in claim 1 of the ’840
patent is a specific implementation of an invention
that was not routine or conventional. But Bozeman
fails to identify what about the ordering of the steps
in claim 1 provides an inventive concept. It argues
that “the claim elements describe a new combination
of steps, in an ordered sequence, that was never found
before in the prior art and was found to be a nonobvious improvement over the prior art by the USPTO
examiner.” No. 19-1020, Appellant’s Br. at 44.
Bozeman does not provide any evidence to contradict
the Board’s finding that, “the claims only recite a
logical sequence of steps for receiving and storing

19a
information, analyzing that information, and sending
a notification upon completion of that analysis.” No.
19-1020 at J.A. 46.
Bozeman further argues that the claims meet the
machine-or-transformation test by transforming a
paper check into financial data. “While the Supreme
Court has explained that the machine-ortransformation test can provide a ‘useful clue’ in the
second step of Alice, passing the test alone is
insufficient” to satisfy step two. Solutran, 931 F.3d at
1169 (citing DDR Holdings, LLC v. Hotels.com, L.P.,
773 F.3d 1245, 1256 (Fed. Cir. 2014)). In any event,
we do not agree that the claims of the ’840 patent
satisfy the machine-or-transformation test. As
explained in Solutran, “[m]erely using a generalpurpose computer and scanner to perform
conventional activities in the way they always have,
as the claims do here, does not amount to an inventive
concept.” Id. (citing Content Extraction, 776 F.3d at
1348–49; Ultramercial, Inc. v. Hulu, LLC, 772 F.3d
709, 716–17 (Fed. Cir. 2014)). Bozeman’s use of a
digital-image scanner to create a digital electronic
record of a check, therefore, does not meet the
machine-or-transformation test.
Based on the foregoing, we conclude that the
claims of the ’840 patent are directed to the abstract
idea of “collecting and analyzing information for
financial transaction fraud or error detection,” and the
claims do not include an inventive concept that would
otherwise render the claims eligible. The claims are
therefore not directed to patent-eligible subject
matter under § 101. As discussed, Bozeman has not

20a
preserved any eligibility arguments related to claims
21–24 of the ’640 patent separate from the claims of
the ’840 patent. The Board’s holdings that claims 21–
24 of the ’640 patent and claims 1–20 of the ’840
patent are ineligible are therefore affirmed.
III
We have considered Bozeman’s remaining
arguments and find them unpersuasive. We hold that
the Banks are “persons” who may petition for postissuance review under the AIA. We further hold that
claims 21–24 of the ’640 patent and 1–20 of the ’840
patent are ineligible under § 101.
AFFIRMED

21a
APPENDIX B
Trials@uspto.gov
571-272-7822

Paper 34
Entered: July 23, 2018

UNITED STATES PATENT
AND TRADEMARK OFFICE
_________________
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
_________________
FEDERAL RESERVE BANK OF ATLANTA,
FEDERAL RESERVE BANK OF BOSTON,
FEDERAL RESERVE BANK OF CHICAGO,
FEDERAL RESERVE BANK OF CLEVELAND,
FEDERAL RESERVE BANK OF DALLAS,
FEDERAL RESERVE BANK OF KANSAS CITY,
FEDERAL RESERVE BANK OF MINNEAPOLIS,
FEDERAL RESERVE BANK OF NEW YORK,
FEDERAL RESERVE BANK OF PHILADELPHIA,
FEDERAL RESERVE BANK OF RICHMOND,
FEDERAL RESERVE BANK OF SAN FRANCISCO,
and FEDERAL RESERVE BANK OF ST. LOUIS,
Petitioner,
v.
BOZEMAN FINANCIAL LLC,
Patent Owner.
_________________

22a
Case CBM2017-00035
Patent 6,754,640 B2
_________________
Before MICHAEL W. KIM, WILLIAM V. SAINDON,
and KEVIN W. CHERRY, Administrative Patent
Judges.
CHERRY, Administrative Patent Judge.
FINAL WRITTEN DECISION
35 U.S.C. § 328(a) and 37 C.F.R. § 42.73
I. INTRODUCTION
Federal Reserve Bank of Atlanta, Federal Reserve
Bank of Boston, Federal Reserve Bank of Chicago,
Federal Reserve Bank of Cleveland, Federal Reserve
Bank of Dallas, Federal Reserve Bank of Kansas City,
Federal Reserve Bank of Minneapolis, Federal
Reserve Bank of New York, Federal Reserve Bank of
Philadelphia, Federal Reserve Bank of Richmond,
Federal Reserve Bank of San Francisco, and Federal
Reserve Bank of St. Louis (“Petitioner”) filed a
Petition (Paper 1, “Pet.”) seeking a covered business
method patent review of claims 1–26 of U.S. Patent
No. 6,754,640 B2 (Ex. 1001, “the ’640 patent” or the
“challenged patent”) under Section 18 of the LeahySmith America Invents Act, Pub. L. No. 112–29, 125
Stat. 284, 331 (2011) (“AIA”). Petitioner supports its
contentions that the claims are unpatentable with the
Declaration of Thomas M. Conte, Ph.D. (Ex. 1004),

23a
and its contentions that it was charged with
infringement with the Declaration of Richard M.
Fraher (Ex. 1005). Patent Owner, Bozeman Financial
LLC, filed a Preliminary Response (Paper 4, “Prelim.
Resp.”). Patent Owner submitted the Declaration of
William O. Bozeman, III with its Preliminary
Response. Paper 5 (“First Bozeman Decl.”).
On May 19, 2017, pursuant to our authorization,
Petitioner filed a Reply to Patent Owner’s Preliminary
Response on the limited issue of whether Petitioner
has standing to bring this proceeding. Paper 9
(“Reply”). With its Reply, Petitioner provided a second
Declaration of Richard M. Fraher (Ex. 1014). On May
26, 2017, also pursuant to our authorization, Patent
Owner filed a Sur-Reply on the limited issue of
standing. Paper 13 (“Sur-Reply”). Patent Owner
submitted a second Declaration of William O.
Bozeman, III in support of its Sur-Reply. Paper 15
(“Second Bozeman Decl.”).
Pursuant to 35 U.S.C. § 324, in our Decision to
Institute, we instituted this proceeding as to claims 1–
26 on the all asserted grounds. Paper 23 (“Dec.”).
After the Decision to Institute, Patent Owner filed
a Patent Owner Response (Paper 24, “PO Resp.”), and
Petitioner filed a Reply to the Patent Owner Response
(Paper 26, “Pet. Reply”). Patent Owner supported its
Response with a third Declaration of William O.
Bozeman (Ex. 2003) (“Third Bozeman Decl.”). An oral
hearing was held on April 5, 2018. Paper 33 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6(b). This
Decision is a Final Written Decision under 35 U.S.C.

24a
§ 328(a) as to the patentability of the challenged
claims. Based on the complete record, we determine
Petitioner has demonstrated, by a preponderance of
the evidence, that claims 1–26 are unpatentable.
A. Related Matters
Petitioner and Patent Owner represent that
Petitioner has filed a covered business method patent
review, CBM2017-00036, against a related patent,
U.S. Patent No. 8,768,840 B2 (“the ’840 patent,” Ex.
1003). Pet. 3; Paper 7, 3; Paper 8, 1. Petitioner has
also filed a declaratory judgment action of noninfringement of both the ’640 patent and ’840 patent—
Federal Reserve Bank of Atlanta et al. v. Bozeman
Financial LLC, Case No. 1:17-cv-00389 (N.D. Ga.).
Paper 7, 2.
B. Standing to File a Petition for
Covered Business Method Patent Review
A petition for covered business method review
must set forth the petitioner’s grounds for standing.
37 C.F.R. § 42.304(a). Rule 42.304(a) states it is
Petitioner’s burden to “demonstrate that the patent
for which review is sought is a covered business
method patent, and that the petitioner meets the
eligibility requirements of § 42.302.” Id. One of those
eligibility requirements is that only persons (or their
privies) who have been sued or charged with
infringement under a patent are permitted to file a
petition seeking a covered business method patent
review of that patent. AIA § 18(a)(1)(B); 37 C.F.R. §
42.302(a). Under our rules, “[c]harged with
infringement means a real and substantial

25a
controversy regarding infringement of a covered
business method patent exists such that the petitioner
would have standing to bring a declaratory judgment
action in Federal court.” 37 C.F.R. § 42.302(a).
The Declaratory Judgment Act provides that “[i]n
a case of actual controversy within its jurisdiction, . . .
any court of the United States, upon the filing of an
appropriate pleading, may declare the rights and
other legal relations of any interested party seeking
such declaration.” 28 U.S.C. § 2201(a). In
MedImmune, Inc. v. Genentech, Inc., the Supreme
Court stated that the test for whether an “actual
controversy” exists is “whether the facts alleged,
under all the circumstances, show that there is a
substantial controversy, between parties having
adverse legal interests, of sufficient immediacy and
reality to warrant the issuance of a declaratory
judgment.” 549 U.S. 118, 127 (2007) (internal
quotation marks omitted).
Although it relaxed the test for establishing
jurisdiction, MedImmune “did not change the bedrock
rule that a case or controversy must be based on a real
and immediate injury or threat of future injury that is
caused by the defendants—an objective standard that
cannot be met by a purely subjective or speculative
fear of future harm.” Prasco, LLC v. Medicis Pharm.
Corp., 537 F.3d 1329, 1339 (Fed. Cir. 2008). Thus,
courts have explained post-MedImmune that
“jurisdiction generally will not arise merely on the
basis that a party learns of the existence of a patent
owned by another or even perceives such a patent to
pose a risk of infringement, without some affirmative

26a
act by the patentee.” SanDisk Corp. v. STMicroelecs.,
Inc., 480 F.3d 1372, 1381 (Fed. Cir. 2007). Instead,
courts have required “conduct that can be reasonably
inferred as demonstrating intent to enforce a patent.”
Hewlett-Packard Co. v. Acceleron LLC, 587 F.3d 1358,
1363 (Fed. Cir. 2009).
In this case, Patent Owner has not sued Petitioner
for infringement. Instead, Petitioner contends that
Patent Owner charged it with infringing the ’640
patent. Pet. 19–21. Petitioner submits, supported by
the testimony of Mr. Fraher, that Patent Owner
contacted Petitioner by telephone, in January 2016,
and contended that Petitioner was infringing the ’640
patent and ’840 patents. Id. at 20 (citing Ex. 1005 ¶
5). Petitioner also asserts that Patent Owner
indicated that it intended to seek fees for the alleged
infringement. Id. Petitioner contends that Patent
Owner continued to contact it about potentially
licensing the ’640 and ’840 patents. Id. Petitioner also
provides an infringement claim chart Patent Owner
sent Petitioner, mapping Petitioner’s conduct to the
claims of the ’840 patent, which also mentions the ’640
patent. Id. (citing Ex. 1006, 000001-5).
In its Patent Owner Response, Patent Owner
contends that Petitioner has
not met the burden of establishing standing in
this matter as they have not provided any
evidence that [Petitioner] suffered from any
real and immediate injury or threat of future
injury that was caused by the Patent Owner
(‘Bozeman’) and that they have not been

27a
sufficiently sued or charged with infringement
to give rise to the immediate nature of a present
or future threat of patent infringement
litigation.
PO Resp. 3. Patent Owner argues that
any discussion of infringement of one of the
Bozeman patents, the ’840 Patent, were only
provided in response to the solicitation by
[Petitioner] in order to further evaluate a
business agreement centered around future
licensing and royalties and not past
infringement and that there was never any
discussion of potential infringement of the ’640
Patent.
Id. at 4 (citing Ex. 2002, 5). Patent Owner further
asserts that “[b]ecause [Patent Owner] was seeking
only a future looking agreement, and further and
more importantly, since any discussion of potential
infringement was only directed to the ’840 [patent]
does not give rise to sufficient immediacy and reality
of a serious threat to warrant such an affirmative
filing by the [Petitioner] without proper standing.” Id.
at 4–5. Patent Owner contends that Petitioner’s
assertion that litigation was threatened as to the ’640
patent is “patently false and unsubstantiated.” Id. at
5. Patent Owner asserts that it was seeking ground
for “mutual agreement and commercially reasonable
treatment” from the Petitioner and other parties. Id.
Patent Owner also acknowledges that it sent the
claim chart to Petitioner regarding the ’840 patent,
but asserts that the claim chart was “very

28a
preliminary” and intended to “support a dialog”
between Patent Owner and Petitioner. Id. Patent
Owner argues that the parties’ course of dealing
demonstrates that Petitioner had no fear of an
immediate and real threat of litigation. Id. at 5–6.
In its Reply, Petitioner disputes Patent Owner’s
characterization of the events that took place in their
negotiations in 2016 and early 2017. Pet. Reply 7–10.
Petitioner points to the proposal Patent Owner sent
discussing Patent Owner’s “IP,” and broadly
discussing how the “Bozeman patents” cover “multiple
FRB systems.” Id. at 7 (citing Ex. 10241, 3, 8–11).
Petitioner argues that Patent Owner was seeking past
damages, and threatened litigation during their
discussions. Id. at 8 (citing Ex. 1024, 1, 10; Ex. 1014
¶¶ 11–13). Petitioner contends that the lack of a claim
chart for the ’640 patent, or use of the word
“infringement” in the communications, is “irrelevant.”
Id. at 9 (citing Hewlett-Packard, 587 F.3d at 1362).
Moreover, Petitioner argues that Patent Owner did
provide a claim chart of the ’840 patent, which is
related to the ’640 patent and has overlapping subject
matter. Id. at 10.
We have reviewed Petitioner’s and Patent Owner’s
submissions and supporting evidence, and we
determine that Petitioner has established that the
facts, taken together, demonstrate that it has

Exhibit 1024 is a redacted version of Exhibit 1015. On the
Board’s electronic filing system, it was filed by Patent Owner as
Exhibit 2010.
1

29a
standing to bring this covered business method
review. It is undisputed that Patent Owner contacted
Petitioner and the parties entered into lengthy
discussions regarding the potential licensing of the
’640 and ’840 patents beginning in 2014. See Ex. 1005
¶¶ 4–8; Ex. 1014 ¶¶ 3–7; First Bozeman Decl. ¶¶ 7–
14. These included a number of calls over a period of
more than a year. Id. In April 2016, Patent Owner
sent Petitioner a claim chart mapping Petitioner’s
existing services to claims of the ’840 patent, and also
mentioned the ’640 patent. See Ex. 1005 ¶ 6; Ex. 1006,
1 (mentioning ’640 patent), 2–5 (claim chart of ’840
patent); Ex. 1014 ¶ 6. In addition, in August 2016, the
parties held an in-person meeting to discuss
Petitioner’s systems, the Patent Owner’s patents, and
potential licensing of those patents. Ex. 1014 ¶ 10.
Although Patent Owner disputes whether Mr.
Bozeman mentioned infringement of the ’640 patent
during telephone calls and in-person meetings with
Petitioner’s representatives, we do not need to
definitely resolve that dispute; it is enough to find that
the other facts, discussed below, weigh against Patent
Owner on the issue of Petitioner’s standing. We find,
regardless of whether infringement of the ’640 patent
was discussed specifically on the calls or meetings,
other contacts by Patent Owner establish standing,
especially when weighed in the aggregate with the
above.
In particular, following the August 2016 meeting,
Patent Owner sent Petitioner an email and attached
licensing proposal on September 29, 2016. Ex. 1014
¶ 12. Patent Owner’s September 29, 2016

30a
communication and Memorandum and Proposal
repeatedly reference the “Bozeman patents”
collectively (including both the ’640 and ’840 patents),
and threaten litigation. See, e.g., Ex. 1024, 1. In
particular, in the September 29, 2016 email from
Patent Owner’s counsel to Mr. Fraher, Patent
Owner’s counsel states:
Pursuant to our ongoing discussions regarding
the Bozeman patent dispute with the FRB and
in the interest of attempting to move this
process along at a more rapid pace we provide
the
attached
Proposal,
Memorandum,
Appendix and revised preliminary Claim Chart
for consideration by the Federal Reserve in
addressing the current divide on past usage and
rents due by the FRB. . . . As we have been going
at this since late 2014 and as the Bozeman
patents useful life continues to tick away, we
are respectfully requesting that the FRB use
best efforts to review the attached and to set up
a follow-up meeting or conference session in the
near future. If we cannot get to that point, it
may leave [Mr. Bozeman] with little alternative
but to begin to head down an enforcement path
that would most likely be very disruptive. . . .
We remain very flexible in discussing
alternative approaches but do want to point out
the time sensitivities involved in [Mr.
Bozeman’s] opening proposal.
Ex. 1024, 1 (emphasis added). Attached to this email
is Patent Owner’s Memorandum and Proposal of
Bozeman Financial LLC to the Federal Reserve Bank

31a
(“FRB”) (“Memorandum”). Id. at 2. In the
Memorandum, Patent Owner repeatedly refers to the
“Bozeman IP” and “Bozeman patents,” without
limiting the identification to the ’840 patent. See, e.g.,
id. at 3 (noting “infringement upon the Bozeman IP”),
4 (identifying both the ’640 and ’840 patents), 5
(“potential applicability of the Bozeman IP to the
FRB”), 6 (“Bozeman IP”), 8 (“Bozeman IP” and
“Bozeman issued patents”). Furthermore, the
Memorandum repeatedly alludes to, and openly
discusses, the parties’ dispute regarding whether
Petitioner’s systems infringe the Bozeman patents.
See, e.g., id. at 9 (alleging “when Bozeman first made
known his IP to the FRB, that the FRB was in the
process of updating its systems from its dated legacy
methods to those anticipated by the Bozeman I.P.,”
and noting, with respect to the “Bozeman patents,”
that the parties have “differing views of its
applicability to the current and past FRB systems and
service offerings”), 9–10 (noting “Bozeman[ ] asserts
that a relatively basic reading of the Bozeman patents
readily shows that . . . [Petitioner’s] systems . . . fit
well within the inventions of the Bozeman IP”), 10
(asserting Petitioner’s “argument and its related
technical analysis have not persuaded Bozeman and
his advisors that the Bozeman interpretation of the
patents is not the more likely outcome to be upheld if
infringement litigation were to be undertaken”), 12
(discussing “the Bozeman interpretation of the
patents” and noting that “[w]e believe that Bozeman
and the FRB are at a critical crossroad in determining
if they can reach an agreement recognizing that each
side believes it has valid and determinative

32a
arguments and analysis to defeat the other’s claims”
and arguing that “with the stakes so high the relevant
question is it more practical to compromise and reach
a fair accord, or is it in the best interest of either party
to litigate these issues on multiple fronts over the next
1–5 years”), 16–18 (discussing “settlement criteria
which would substantially discount the totals from
traditional patent damages”).
We note that the context for these statements
significantly enhances their weight in our analysis.
This Memorandum was made at the culmination of
almost two years of talks between the parties,
including numerous calls and a technical presentation
by Petitioner on how its systems operated, and why
they did not infringe. See Ex. 1005 ¶¶ 4–6 (discussing
early talks between the parties); Ex. 1014 ¶¶ 7–11
(discussing the parties’ meetings and discussions
leading up to the Memorandum). Rather than backing
down from its previous assertions, Patent Owner
repeatedly asserts, in the Memorandum, that
Petitioner’s systems are covered by (i.e., infringe) the
Bozeman patents. Moreover, the email and
Memorandum make clear that the time for Petitioner
to license the Bozeman patents was running short,
and that if Petitioner did not take a license to the
Bozeman patents that Patent Owner would begin to
“head down an enforcement path,” Ex. 1024, 1, which
could involve “litigat[ing] these issues on multiple
fronts over the next 1–5 years,” id. at 12.
“[A] specific threat of infringement litigation by
the patentee is not required to establish jurisdiction,
and a ‘declaratory judgment action cannot be defeated

33a
simply by the stratagem of a correspondence that
avoids magic words such as ‘litigation’ or
‘infringement.’’” ABB Inc. v. Cooper Indus., LLC, 635
F.3d 1345, 1348 (Fed. Cir. 2011) (quoting Hewlett–
Packard, 587 F.3d at 1362). But, of course, if “a party
has actually been charged with infringement of the
patent, there is, necessarily, a case or controversy
adequate to support [declaratory judgment]
jurisdiction.” Cardinal Chem. Co. v. Morton Int’l, Inc.,
508 U.S. 83, 96 (1993). Here, we find the statements
in the Memorandum actually charge Petitioner with
infringement of both the ’640 and ’840 patents, which
is sufficient to give rise to declaratory judgment
jurisdiction. Id. Patent Owner cannot defeat this
overwhelming evidence merely because the
Memorandum does not utter the precise words
“infringes” and “the ’640 patent” in the same sentence.
Instead, Patent Owner’s communications make clear
that its allegations were not limited to a single patent,
but rather encompass both of the “Bozeman patents.”
See Ex. 1024, 1. Patent Owner also stated that it
believed that Petitioner’s products were covered by
the “Bozeman patents,” and that litigation was on the
horizon if a license, which would include both patents,
was not taken. These suggest Petitioner was
reasonable in believing that Patent Owner intended
to sue if its demands were not met.
Patent Owner attempts to delve into the
subjective understandings of the parties, arguing that
Petitioner would never fear litigation because it is so
powerful, and that, regardless of Patent Owner’s
statements, it really never intended to sue Petitioner.

34a
Ex. 2001 ¶ 14; Ex. 2002 ¶¶ 4, 6, 19; Ex. 2003 ¶ 9.
However, it is irrelevant whether Patent Owner
subjectively believed Petitioner was infringing or
intended to sue. “‘The test [for declaratory judgment
jurisdiction in patent cases], however stated, is
objective. . . .’” Hewlett-Packard, 587 F.3d at 1364
(quoting Arrowhead Indus. Water, Inc. v. Ecolochem,
Inc., 846 F.2d 731, 736 (Fed. Cir. 1988)). “Indeed, it is
the objective words and actions of the patentee that
are controlling.” BP Chems. Ltd. v. Union Carbide
Corp., 4 F.3d 975, 979 (Fed. Cir. 1993). Thus, conduct
that can be reasonably inferred as demonstrating
intent to enforce a patent can create declaratory
judgment jurisdiction. Hewlett-Packard, 587 F.3d at
1364. Here, when Patent Owner’s statements,
demands, and actions are considered collectively, it is
difficult to reasonably infer any conclusion other than
that Patent Owner was demonstrating an intent to
enforce its patents. Moreover, Patent Owner’s
contentions that it was only seeking a forward-looking
agreement (see PO Resp. 4), are not supported by the
record. The Memorandum repeatedly refers to seeking
compensation for past use of the Bozeman patents.
See Ex. 1024, 18 (“This option allows for a one-time
payment to cover all of the past rents due. . . .”).
As for Patent Owner’s argument that it was
somehow entrapped by Petitioner, we note that (a) all
through its negotiations with Petitioner, Patent
Owner was represented by counsel (First Bozeman
Decl. ¶ 6; Ex. 1006, 1; Ex. 1024, 1), (b) Patent Owner’s
head, Mr. Bozeman, appears to be a sophisticated
businessman (First Bozeman Decl. ¶¶ 2, 3; Ex. 1024,

35a
4–5), and (c) there is no credible evidence that shows
that Patent Owner was coerced into making the
statements it made in the Memorandum. Moreover,
the law was clear at the time the statements were
made that they could give rise to declaratory
judgment jurisdiction. See Hewlett-Packard, 587 F.3d
at 1362 (“But it is implausible (especially after
MedImmune and several post MedImmune decisions
from this court) to expect that a competent lawyer
drafting such correspondence for a patent owner
would identify specific claims, present claim charts,
and explicitly allege infringement.”).
As for Patent Owner’s arguments that the parties
had a longstanding relationship, we do not find this
materially changes our analysis, even if true.
Specifically, based on the evidence presented, we are
persuaded that, even assuming some sort of previous
non-adversarial relationship did exist, it does not
change the objective import of the documented
interactions beginning in January 2016. Thus, we
determine that these statements and actions, when
considered objectively, and even when taking into
consideration any past relationships, are more than
sufficient to establish that there was a substantial
controversy between the parties sufficient to establish
standing under relevant case law. See SanDisk, 480
F.3d at 1382 (holding demand for license fees and
identification of specific allegedly infringing activity
sufficient for jurisdiction); see also Hewlett-Packard
Co., 587 F.3d at 1364 (finding jurisdiction where
patentee took affirmative step of twice contacting

36a
alleged infringer and made implied assertion of right
against particular product).
Accordingly, we conclude that Petitioner has
demonstrated that it has standing to bring this
covered business method review.
C. The Challenged Patent
The ’640 patent, titled “Universal Positive Pay
Match, Authentication, Authorization, Settlement
and Clearing System,” describes a universal positive
pay match, authentication, authorization clearing and
settlement system to reduce check fraud and verify
checks, other financial instruments and documents.
Ex. 1001, [54], Abstract. The ’640 patent explains that
“[c]heck fraud and verification of checks presented to
merchants and financial institutions have always
been a problem for payers who write checks.” Id. at
1:19–21. According to the ’640 patent, positive pay
services are services “that a bank sells for a fee to its
account holders whereby only checks that are preapproved are accepted at the bank,” and “have been
available from individual banks for a number of
years.” Id. at 5:8–11. According to the patent, a
check generating customer [using a prior art
positive pay service] generally uploads a file of
check register information daily to the bank of
all checks written that day. When checks drawn
on the customers’ accounts are presented to the
bank, their database is queried. If the check has
been tampered with or if it is an unauthorized
check number, the check will be rejected.

37a
Id. at 5:11–17.
The patent explains that “[t]he existing positive
pay services are bank specific,” meaning that “only a
bank’s own account holders can utilize it and take
advantage of it.” Id. at 5:25–27. The patent suggests
that it will overcome this perceived problem by
offering a “universal” positive pay system that “can be
used by both account holder members and nonmembers,” and “accessed by all banks, depositors and
account holders for issuing and tracking check data,
signatures and matrixes at point of presentment,
point of sale and point of payment of the item.” Id. at
5:27–35. Figure 5A of the ’640 patent is reproduced
below.

Figure 5A illustrates a flow diagram of the
universal positive pay method for checking accounts
according to the claimed invention. Id. at 4:9–11.

38a
Figure 5A shows that “each participant in the check
clearing process (payer customer 30, payee 100, payee
bank 110, Federal Reserve 80, clearing bank 70, or
payor bank 120), participates in a universal positive
pay match, authentication, authorization, clearing
and settlement system method 130 used by a payer
(customer) 30 for maintaining check payment control
and preventing check fraud.” Id. at 9:46–53.
According to the ’640 patent,
[t]he
universal
positive
pay
match,
authentication, authorization, clearing and
settlement system method 130 comprises a
series of steps in which payer 30 uploads check
information to the universal positive pay
match, authentication, authorization, clearing
and settlement system 10, payee 100 deposits
check in payee bank 110, payee bank 110
checks the check against database 20 in the
universal positive pay match authentication,
authorization, clearing and settlement system
10, check is deposited in Federal Reserve 80 or
clearing bank 70, which checks it against the
database 20, payor bank 120 receives check and
checks it against the database 20 and reports
back to the universal positive pay match
authentication, authorization, clearing and
settlement system 10 that the check has been
debited from payer’s 30 account.
Id. at 9:53–67.

39a
D. Illustrative Claims
Petitioner challenges all twenty-six claims of the
challenged patent. Claims 1 and 21 are independent
claims. Claims 1 and 21 are illustrative of the claimed
subject matter:
1. A universal positive pay match,
authentication, authorization, clearing and
settlement system comprising:
at least one server computer having a
processor, an area of main memory, a storage
device, and a bus connecting the processor,
main memory, and the storage device;
a database stored on said storage device;
a data communications device connected to said
bus for connecting said at least one server
computer to an Internet; and
web-based computer program code stored in
said storage device and executing in said main
memory under direction of said processor, the
computer program code including:
first instruction means for permitting a payer
who executes a check for payment to enter and
store check register information relating to the
executed check in said database, the check
register information including a check number,
a date issued, a payee, a routing number, and
an account number;
second instruction means for providing a web
site on the Internet accessible to the payer who

40a
executed the check, a payee of the executed
check, a payee bank, a drawee bank, and
banking institutions intermediate the payee
bank and the drawee bank;
third instruction means for enabling the payer
who executed the check, the payee of the
executed check, the payee bank, the drawee
bank, and banking institutions intermediate
the payee bank and the drawee bank to access
check register information of the executed
check at every point along a check clearing
process in order to determine correspondence
between check register information stored in
said database and the executed check
presented for payment; and
fourth instruction means for enabling the payer
who executed the check, the payee of the
executed check, the payee bank, the drawee
bank, and banking institutions intermediate
the payee bank and the drawee bank to
determine whether tampering or altering has
occurred to the executed check at every point
along a check clearing process;
wherein said database stores check register
information for payers who execute checks
having accounted with a plurality of unrelated
drawee banks.
Ex. 1001, 16:59–17:35.
21. A computerized method for a universal
positive
pay
match,
authentication,

41a
authorization, clearing and settlement system,
said method comprising:
(a) providing a database;
(b) storing check register information relating
to a check executed by a payer for payment in
said database, the check register information
including a check number, a date issued, a
payee, a routing number, an account number,
and an amount;
(c) providing a web site on the Internet
accessible to the payer who executed the check,
a payee of the executed check, a payee bank, a
drawee bank, and banking institutions
intermediate the payee bank and the drawee
bank;
(d) enabling the payer who executed the check,
the payee of the executed check, the payee
bank, the drawee bank, and banking
institutions intermediate the payee bank and
the drawee bank to access the check register
information of the executed check stored in said
database via the web site at every point along a
check clearing process in order to determine
correspondence between the check register
information stored in said database and the
executed check presented for payment; and
(e) enabling the payer who executed the check,
the payee of the executed check, the payee
bank, the drawee bank, and banking
institutions intermediate the payee bank and

42a
the drawee bank to determine whether
tampering or altering has occurred to the
executed check at every point along a check
clearing process.
Id. at 18:62–19:25.
E. Asserted Grounds of Unpatentability
Petitioner asserts that the challenged claims are
unpatentable based on the following grounds:
Basis

Challenged Claims

§ 101

1–26

§ 112 ¶¶ 2, 62

1–20, 25, and 26
II. DISCUSSION

A. Claim Construction
In a covered business method patent review, a
claim term in an unexpired patent shall be given its
broadest reasonable construction in light of the
specification of the patent in which it appears. 37

Paragraphs 2 and 6 of 35 U.S.C. § 112 were replaced with
newly designated § 112(b) and § 112(f) by § 4(c) of the AIA, and
AIA § 4(e) makes those changes applicable “to any patent
application that is filed on or after” September 16, 2012. Alcon
Research Ltd. v. Barr Labs., Inc., 745 F.3d 1180, 1183 n.1 (Fed.
Cir. 2014). Because the application resulting in the ’640 patent
was filed before that date, we will refer to the pre-AIA-version of
§ 112.
2

43a
C.F.R. § 42.300(b); Cuozzo Speed Techs., LLC v. Lee,
136 S. Ct. 2131, 2144 (2016); Versata Dev. Grp., Inc. v.
SAP Am., Inc., 793 F.3d 1306, 1328 (Fed. Cir. 2015).
We construe the challenged claims according to
these principles. Petitioner proposes constructions
only for the various means-plus-function terms found
in claim 1–20, 25, and 26. Pet. 23–32. We deal with
the claim construction of the means-plus-function
terms in the discussion of the ground based on § 112
below. Aside from the means-plus-function terms, we
determine that no other terms require express
construction for this Decision.
B. Covered Business Method Patent
The AIA defines a “covered business method
patent” as “a patent that claims a method or
corresponding apparatus for performing data
processing or other operations used in the practice,
administration, or management of a financial product
or service . . . .” AIA § 18(d)(1); see 37 C.F.R. §
42.301(a). Congress provided a specific exception to
this definition of a covered business method patent—
“the term does not include patents for technological
inventions.” Id. To determine whether a patent is
eligible for a covered business method patent review,
the focus is on the claims. See Unwired Planet, LLC v.
Google Inc., 841 F.3d 1376, 1381 (Fed. Cir. 2016). For
the reasons set forth below, we conclude that the
challenged patent meets the definition of a covered
business method patent.

44a
1. Financial Product or Service
One requirement of a covered business method
patent is for the patent to “claim[ ] a method or
corresponding apparatus for performing data
processing or other operations used in the practice,
administration, or management of a financial product
or service.” AIA § 18(d)(1); 37 C.F.R. § 42.301(a).
Petitioner contends the challenged patent meets
the financial product or service requirement, because
the patent claims methods or systems for allowing
check clearing participants (i.e., payers, payees,
drawee banks, payee banks, and banking institutions
intermediate the payee and drawee banks) to access
stored check register information at every point along
the check clearing process in order to determine
whether a check has been tampered with or altered.
Pet. 12–13.
Patent Owner does not dispute Petitioner’s
assertions.
We agree with Petitioner that the ’640 patent
meets the financial product or service requirement.
For example, claim 21 and its dependents are directed
to “[a] computerized method for a universal positive
pay match, authentication, authorization, clearing
and settlement system” that includes the steps of (a)
providing a database; (b) storing check register
information in the database; (c) providing a website
accessible to the check clearing process participants;
(d) enabling the check clearing process participants to
access the stored check register information via the
website at every point along a check clearing process

45a
in order to determine correspondence between the
stored check register information and an executed
check; and (e) enabling the check clearing process
participants to determine whether tampering or
altering has occurred at every point along a check
clearing process. Pet. 13–14. We agree with Petitioner
that the processing and authentication of checks for
payment meets the financial product or service
requirement of Section 18 of the AIA. See, e.g., U.S.
Bancorp v. Solutran, Inc., Case CBM2014-00076, slip
op. 6 (PTAB Aug. 7, 2014) (Paper 16) (method of
processing paper checks for payment); Jack Henry &
Assocs., Inc. v. DataTreasury Corp., Case CBM201400056, slip op. 8 (PTAB July 10, 2014) (Paper 17)
(method and system for storage and verification of
checks financial in nature). Accordingly, the financial
product or service requirement is satisfied.
2. Exclusion for Technological Inventions
Section 18 of the AIA states that the term “covered
business method patent” does not include patents for
“technological inventions.” AIA § 18(d)(1); see 37
C.F.R. § 42.301(a). To determine whether a patent is
for a technological invention, we consider “whether
the claimed subject matter as a whole recites a
technological feature that is novel and unobvious over
the prior art; and solves a technical problem using a
technical solution.” 37 C.F.R. § 42.301(b). The
following claim drafting techniques, for example,
typically do not render a patent a “technological
invention”:

46a
(a) Mere recitation of known technologies, such
as computer hardware, communication or
computer
networks,
software,
memory,
computer-readable storage medium, scanners,
display devices or databases, or specialized
machines, such as an ATM or point of sale
device.
(b) Reciting the use of known prior art
technology to accomplish a process or method,
even if that process or method is novel and nonobvious.
(c) Combining prior art structures to achieve
the normal, expected, or predictable result of
that combination.
Office Patent Trial Practice Guide, 77 Fed. Reg.
48,756, 48,764 (Aug. 14, 2012).
Petitioner submits that no “technological feature”
of claim 21 is novel and non-obvious. Pet. 15.
Petitioner argues that claim 21 is directed to a
computerized method that uses a database for storing
check register information and an Internet website.
Id. Petitioner asserts that “[a] database and Internet
website are not novel or non-obvious — they were
generic, conventional computer technologies wellknown in the art in October 2000.” Id. (citing Ex. 1004
¶¶ 41, 44, 57). Petitioner further contends that the
’640 patent does not provide a technical solution to a
technical problem. Id. at 16–19. Petitioner argues that
the ’640 patent addresses the problem of check fraud,
which is a business problem, not a technical problem.
Id. at 17. Further, Petitioner contends that the

47a
solution, providing multiple users with access to a
positive pay system at every point along the check
clearing process, is not a technical solution to this
problem. Id.
Patent Owner offers no arguments in its Patent
Owner Response, but instead, tries to incorporate by
reference its arguments from the related proceeding
in CBM2017-00036. PO Resp. 7. Our rules do not
allow such incorporation by reference. See 37 C.F.R.
§ 42.6(a)(3); see also Cisco Sys., Inc. v. C-Cation
Techs., LLC, Case IPR2014-00454, slip op. (PTAB
Aug. 29, 2014) (Paper 14) (informative) (declining to
consider arguments incorporated by reference from
one document into another). Patent Owner’s
arguments are directed to the claims of the ’840
patent, not the claims of the ’640 patent. Patent
Owner has not provided any explanation of how the
arguments related to the claims of the ’840 patent can
correlate to the claims of the ’640 patent. Thus, we do
not consider these arguments to be persuasive. In
addition, as we explained in our final written decision
in CBM2017-00036, issued concurrently, those
arguments are not persuasive because they relate to
unclaimed features and conventional technology that
could not transform the claims of the ’840 patent into
a technological invention. Based on our review, the
reasoning from CBM2017-00036 applies to these
claims as well, so we adopt it here.
We determine that the technological features of
the claimed steps are directed to using known
technologies. See Office Trial Practice Guide, 77 Fed.
Reg. at 48,764 (indicating use of known technologies

48a
does not render a patent a technological invention).
For example, independent claim 21 requires only “a
database,” and “a web site on the Internet” (Ex. 1001,
18:62–19:24), and we do not discern that either is used
in a non-conventional manner. We further agree with
Petitioner that the subject matter of independent
claim 21, as a whole, does not require any specific,
unconventional software, computer equipment,
processing capabilities, or other technological features
to produce the required functional result. See Ex. 1004
¶¶ 39–45.
We also agree with Petitioner that the challenged
patent addresses the business problem of check fraud
by providing multiple users access to a positive pay
system at every point along the check clearing
process, which is not a technical solution to a technical
problem. See Nautilus Hyosung Inc. v. Diebold, Inc.,
Case CBM2016-00034, slip op. 11–14 (PTAB Aug. 22,
2016) (Paper 9) (characterizing “reducing the risk of
[check] fraud” as a “business problem”).
Accordingly, we conclude that the subject matter
of at least independent claim 21 does not have a
technological feature that solves a technical problem
using a technical solution, and is, therefore, not a
technological invention. See Blue Calypso, LLC v.
Groupon, Inc., 815 F.3d 1331, 1341 (Fed. Cir. 2016)
(finding that using general computer components to
carry out the claimed process does not “rise[ ] above
the general and conventional” and “cannot change the
fundamental character of [patent owner’s] claims”).

49a
3. Eligible for Covered Business Method
Patent Review
Having determined that the challenged patent
claims a method or corresponding apparatus for
performing data processing or other operations used
in the practice, administration, or management of a
financial product or service and does not fall within
the exception for technological inventions, we
determine that the challenged patent is eligible for a
covered business method patent review
C. Asserted Ground that Claims 1–26 Are
Unpatentable Under § 101
Petitioner asserts each of claims 1–26 is
unpatentable for being directed to patent-ineligible
subject matter under 35 U.S.C. § 101. Pet. 60–83.
Petitioner supports its contentions with citations to
the Declaration of Dr. Conte (Ex. 1004).
1. Principles of Law
A patent may be obtained for “any new and useful
process, machine, manufacture, or composition of
matter, or any new and useful improvement thereof.”
35 U.S.C. § 101. The Supreme Court has held that this
statutory provision contains an important implicit
exception: laws of nature, natural phenomena, and
abstract ideas are not patentable. Alice Corp. Pty. Ltd.
v. CLS Bank Int’l, 134 S. Ct. 2347, 2354 (2014);
Gottschalk v. Benson, 409 U.S. 63, 67 (1972)
(“Phenomena of nature, though just discovered,
mental processes, and abstract intellectual concepts
are not patentable, as they are the basic tools of

50a
scientific and technological work.”). Notwithstanding
that a law of nature or an abstract idea, by itself, is
not patentable, the practical application of these
concepts may be deserving of patent protection. Mayo
Collaborative Servs. v. Prometheus Labs., Inc., 566
U.S. 66, 69–72 (2012).
In Alice, the Supreme Court reaffirmed the
framework set forth previously in Mayo “for
distinguishing patents that claim laws of nature,
natural phenomena, and abstract ideas from those
that claim patent-eligible applications of those
concepts.” Alice, 134 S. Ct. at 2355. The first step in
the analysis is to “determine whether the claims at
issue are directed to one of those patent-ineligible
concepts.” Id. If the claims are directed to a patentineligible concept, the second step in the analysis is to
consider the elements of the claims “individually and
‘as an ordered combination’” to determine whether the
additional elements “‘transform the nature of the
claim’ into a patent-eligible application.” Id. (quoting
Mayo, 566 U.S. at 77). In other words, the second step
is to “search for an ‘inventive concept’—i.e., an
element or combination of elements that is ‘sufficient
to ensure that the patent in practice amounts to
significantly more than a patent upon the [ineligible
concept] itself.’” Id. (quoting Mayo, 566 U.S. at 71–72)
(alterations in original).
Noting that the two stages involve “overlapping
scrutiny of the content of the claims,” the Federal
Circuit has described “the first-stage inquiry as
looking at the ‘focus’ of the claims, their ‘character as
a whole,’ and the second-stage inquiry (where

51a
reached) as looking more precisely at what the claim
elements add—specifically, whether, in the Supreme
Court’s terms, they identify an ‘inventive concept’ in
the application of the ineligible matter to which (by
assumption at stage two) the claim is directed.”
Electric Power Grp, LLC v. Alstom S.A., 830 F.3d
1350, 1353 (Fed. Cir. 2016).
Furthermore, the prohibition against patenting
an abstract idea “cannot be circumvented by
attempting to limit the use of the formula to a
particular technological environment or adding
insignificant postsolution activity.” Bilski v. Kappos,
561 U.S. 593, 610–11 (2010) (citation and internal
quotation marks omitted); see Electric Power, 830 F.3d
at 1355 (“[L]imiting the claims to the particular
technological environment of power-grid monitoring
is, without more, insufficient to transform them into
patent-eligible applications of the abstract idea at
their core.”).
2. Step 1 — Whether the Claims Are Directed to an
Abstract Idea
In determining whether a method or process claim
recites an abstract idea, we must examine the claim
as a whole. Alice, 134 S. Ct. at 2355 n.3. Petitioner
submits that claim 21 is representative for the § 101
analysis. Pet. 62. Patent Owner does not dispute this.
We agree with Petitioner that claim 21 is
representative.
More specifically, Petitioner asserts that claim 21,
as a whole, relates to “[a] computerized method for a
universal positive pay match, authentication,

52a
authorization, clearing and settlement system,”
comprising steps directed to storing check register
information in an online database, accessing the
stored check register information to determine
correspondence between the stored information and
an executed check, and determining whether
tampering or altering has occurred. Id. (citing Ex.
1001, 18:62–19:24 (claim 21)). Petitioner asserts that
“[c]laim 21 recites nothing more than a recitation of
steps for collecting and analyzing information” for
“the age-old abstract idea of reconciling check
information against a ledger—a long-standing
fundamental economic practice that can easily be
performed using pen and paper. . . .” Id.
We agree with Petitioner that it has shown that
claims 1–26 are drawn to an abstract idea.
Specifically, we agree with Petitioner that the claims
of the challenged patent are directed to collecting,
displaying, and analyzing information to reconcile
check information against a ledger.
For example, beginning with independent claim
21, no specific equipment is recited for executing the
claimed functions. While the claim does recite a
database and a website accessible over the Internet,
they do not appear to perform any more than their
typical and ordinary functions, unrelated to the
specific functions claimed. Ex. 1001, 18:62–19:25. The
remainder of the claim is simply a method of collecting
and displaying information. As discussed above, the
claimed method steps include (i) “providing a
database,” (ii) “storing check register information ... in
said database,” (iii) “providing a web site on the

53a
Internet . . .,” (iv) “enabling . . . access [to] the check
register information . . . stored in the database via the
web site . . . in order to determine correspondence
between the check register information stored in said
database and the executed check presented for
payment,” and (v) “enabling . . . [a] determin[ation]
whether tampering or altering has occurred to the
executed check at every point along the check clearing
process.” Id. at 18:62–19:25. Thus, besides providing
conventional computer technology in the form of a
database and website, the method consists of storing,
displaying, and analyzing information. Moreover, the
claim language is broad enough such that a person
viewing the information on a website could be the one
making the determination of whether the check is
fraudulent or not. Claim 1 is written as a system and
includes substantially similar functions, written as
computer code, as claim 21.
The specification reinforces that the focus of
claims 1 and 21 is collecting and analyzing
information: “The present invention relates to a
universal positive pay [ ] system to reduce check fraud
and verify checks, other financial instruments and
documents.” Ex. 1001 at 1:14–17. According to the
specification, the customer “has the flexibility to
utilize several means for inputting current check
register information . . . includ[ing] computerized
devices such as personal computers, portable laptops
and palmtops, as well as mainframe computers and
servers[.]” Id. at 6:1–7. Once the customer’s
information is in the claimed system, the
“participating commercial entity . . . may match and

54a
compare the information from the check with the
check register information in the [claimed system] . . .
to verify that the check has not been altered or
tampered with.” Id. at 6:51–61. Moreover, we are
persuaded that the idea of reconciling check register
information is a well-known, routine economic
practice commonplace in the financial services
industry and is fundamentally abstract. Indeed, the
specification states that “[p]ositive pay services have
been available from individual banks for a number of
years.” Id. at 5:8–9.
We find this case indistinguishable from a number
of cases that have found storing, displaying, and
analyzing data, such as for loan application
processing and fraud detection, to be abstract ideas.
See Credit Acceptance Corp. v. Westlake Servs., 859
F.3d 1044, 1054–57 (Fed. Cir. 2017) (holding “system
for maintaining a database of information about items
in a dealer’s inventory, obtaining financial
information about a customer from a user, combining
these two sources of information to create a financing
package for each of the inventoried items, and
presenting the financing packages to the user” to be
abstract); Intellectual Ventures I LLC v. Capital One
Fin. Corp., 850 F.3d 1332, 1340 (Fed. Cir. 2017)
(discussing abstract idea precedent related to
organizing, displaying, and manipulating data);
FairWarning IP, LLC v. Iatric Sys., Inc., 839 F.3d
1089, 1093–94 (Fed. Cir. 2016) (holding that claims
directed to “collecting and analyzing information to
detect misuse and notifying a user when misuse is
detected” are abstract); Electric Power, 830 F.3d at

55a
1354 (“[M]erely presenting the results of abstract
processes of collecting and analyzing information,
without more (such as identifying a particular tool for
presentation), is abstract as an ancillary part of such
collection and analysis.”); Mortg. Grader, Inc. v. First
Choice Loan Servs. Inc., 811 F.3d 1314, 1324 (Fed. Cir.
2016) (holding that claims are abstract where they
“recite nothing more than the collection of information
to generate a ‘credit grading’ and to facilitate
anonymous loan shopping”); Content Extraction &
Transmission LLC v. Wells Fargo Bank, Nat’l Ass’n,
776 F.3d 1343, 1347 (Fed. Cir. 2014) (identifying “the
abstract idea of 1) collecting data, 2) recognizing
certain data within the collected data set, and 3)
storing that recognized data in a memory”);
Intellectual Ventures I LLC v. Capital One Bank
(USA), 792 F.3d 1363, 1367–69 (Fed. Cir. 2015)
(determining claims adding generic computer
components to financial budgeting not patent
eligible); Accenture Global Servs., GmbH v. Guidewire
Software, Inc., 728 F.3d 1336, 1346 (Fed. Cir. 2013)
(generating tasks in an insurance organization);
Dealertrack, Inc. v. Huber, 674 F.3d 1315, 1333–34
(Fed. Cir. 2012) (holding that a “computer-aided”
method for “processing information through a
clearinghouse” for car loan applications is
patentineligible).
Patent Owner offers no arguments in its Patent
Owner Response, but, instead, tries to incorporate by
reference its arguments from the related proceeding
in CBM2017-00036. PO Resp. 7. Our rules do not
allow such incorporation by reference. See 37 C.F.R.

56a
§ 42.6(a)(3); see also Cisco Sys., Inc. v. C-Cation
Techs., LLC, Case IPR2014-00454, slip op. (PTAB
Aug. 29, 2014) (Paper 14) (informative) (declining to
consider arguments incorporated by reference from
one document into another). Moreover, even if we did
consider them, Patent Owner’s arguments are
directed to the claims of the ’840 patent, not the claims
of the ’640 patent. Patent Owner has not provided any
explanation of how the arguments related to the
claims of the ’840 patent can correlate to the claims of
the ’640 patent. Thus, we do not consider these
arguments to be persuasive. In addition, as we
explained in our final written decision in CBM201700036, those arguments are not persuasive because
they relate to unclaimed features and conventional
technology that could not transform the claims of the
’840 patent from being an abstract idea. Based on our
review, the reasoning from CBM2017-00036 applies
to these claims as well, so we adopt it here.
The dependent claims either specify additional
data processing steps (claims 2–8, 19, 20, 22–26), or
append one or more instruments or devices to the
claimed system (claims 9–18). Petitioner asserts, and
we agree, that none of these dependent claims appear
to add anything that would change the conclusion that
the claims are directed to an abstract idea. See Pet.
64; Ex. 1004 ¶ 48.
In view of the foregoing, we determine that
Petitioner has shown, by a preponderance of the
evidence, that claims 1–26 of the challenged patent
are directed to a patent-ineligible abstract idea.

57a
3. Step 2 — Whether the Challenged Claims
Include Limitations that Represent
Inventive Concepts
We turn to the second step of the Alice inquiry “and
scrutinize the claim elements more microscopically”
for additional elements that can “transform the
nature of the claim” into a patent-eligible application
of an abstract idea. Electric Power, 830 F.3d at 1353–
54. That is, we determine whether the claims include
an “inventive concept,” i.e., an element or combination
of elements sufficient to ensure that the patent in
practice amounts to significantly more than a patent
on the abstract idea itself. Alice, 134 S. Ct. at 2357.
The relevant inquiry here is whether “additional
substantive limitations . . . narrow, confine, or
otherwise tie down the claim so that, in practical
terms, it does not cover the full abstract idea itself.”
Accenture, 728 F.3d at 1341 (internal quotations and
citation omitted).
Further scrutinizing the recited system and
method, Petitioner asserts, and we agree, there is
nothing that appears to transform the nature of the
claims into patent-eligible applications of an abstract
idea. Pet. 74–83.
First, the only recited technology in claim 21 is a
“database” and “Internet accessible web page.” Claim
1 merely adds a “server computer” with a “processor,”
“main memory,” “storage device,” and “bus connecting
the processor, main memory, and the storage device.”
Nothing in the claims, understood in light of the
specification, appears to require anything more than

58a
off-the-shelf, conventional, computer, storage,
network, and display technology for collecting the
data related to the check register, and displaying the
data to the users. The Federal Circuit has repeatedly
held that such invocations of computers and networks
that are not even arguably inventive are “insufficient
to pass the test of an inventive concept in the
application” of an abstract idea. buySAFE, Inc. v.
Google, Inc., 765 F.3d 1350, 1353 (Fed. Cir. 2014); see,
e.g., FairWarning, 839 F.3d 1089, 1096 (Fed. Cir.
2016)
(holding
that
an
“interface”
and
“microprocessor” are generic computer elements that
do not transform an otherwise abstract idea into
patent-eligible subject matter); Mortgage Grader, 811
F.3d at 1324–25 (holding that generic computer
components, such as an “interface,” “network,” and
“database,” fail to satisfy the inventive concept
requirement); Intellectual Ventures I, 792 F.3d at
1368 (“The recited elements, e.g., a database, a user
profile . . . and a communication medium, are all
generic computer elements.”); Content Extraction, 776
F.3d at 1347–48. Second, even limiting the claims to
the particular technological environment of check
processing, without more, would appear to be
insufficient to transform the claims into patenteligible applications of the abstract idea. See Electric
Power, 830 F.3d at 1354 (“[L]imiting the claims to the
particular technological environment of power-grid
monitoring is, without more, insufficient to transform
them into patent-eligible applications of the abstract
idea at their core.”) (citing Alice, 134 S. Ct. at 2358;
Mayo, 566 U.S. at 71–72; Bilski, 561 U.S. at 610–11;

59a
Diamond v. Diehr, 450 U.S. 175, 191 (1981);
buySAFE, 765 F.3d at 1355).
The specification acknowledges that the elements
are well known. See Ex. 1001, 4:53–64; see also Ex.
1004 ¶¶ 40–52 (explaining how the technologies are
conventional and generic).
Patent Owner offers no arguments in its Patent
Owner Response, but instead, tries to incorporate by
reference its arguments from the related proceeding
in CBM2017-00036. PO Resp. 7. Our rules do not
allow such incorporation by reference. See 37 C.F.R.
§ 42.6(a)(3); see also Cisco Sys., Inc., at 10 (declining
to consider arguments incorporated by reference from
one document into another). Moreover, even if we did
consider them, Patent Owner’s arguments are
directed to the claims of the ’840 patent, not the claims
of the ’640 patent. Patent Owner has not provided any
explanation of how the arguments related to the
claims of the ’840 patent can correlate to the claims of
the ’640 patent. Thus, we do not consider these
arguments to be persuasive. In addition, as we
explained in our final written decision in CBM201700036, those arguments are not persuasive because
the elements recited in the claims are insufficient to
provide an inventive concept that would transform the
claims from merely an abstract idea. Based on our
review, the reasoning from CBM2017-00036 applies
to these claims as well, so we adopt it here.
In view of the foregoing, we determine that, when
considered individually and “as an ordered
combination,” the claim elements appear to do no

60a
more than apply the abstract concept of collecting,
displaying, and analyzing information to reconcile
check information against a ledger, and do not appear
to recite anything in a manner sufficient to transform
that abstract idea into a patent-eligible invention. See
Alice, 134 S. Ct. at 2359–60 (citing Mayo, 132 S. Ct. at
1297–98). This weighs in favor of finding claims 1–26
are a patent-ineligible abstract idea.
4. Conclusion
Having considered all the evidence and arguments
in the record, we determine that Petitioner has
shown, by a preponderance of the evidence, that
claims 1–26 are directed to patent-ineligible subject
matter under 35 U.S.C. § 101.
D. Asserted Ground Based on § 112 ¶¶ 2 & 6
Petitioner contends that the challenged patent
fails to disclose adequate structure under 35 U.S.C. §
112 ¶ 6 for the means-plus-function limitations in
claims 1–20, 25, and 26 and, therefore, these claims
are unpatentable as indefinite under 35 U.S.C. § 112
¶ 2. Petitioner supports its contentions with citations
to the Declaration of Dr. Conte (Ex. 1004). Pet. 33–60.
In its Patent Owner Response, Patent Owner merely
states “Patent Owner relies on Ex. 1001 — the ’640
Patent to show that the Patent is valid under Section
112.” PO Resp. 7. In its Reply to the Patent Owner
Response, Petitioner argues that Patent Owner’s
“vague and conclusory reference to the ’640 Patent
violates 37 C.F.R. § 42.23 . . . [and] amounts to an
improper incorporation by reference.” Pet. Reply 11.

61a
Therefore, Petitioner argues that we “should refuse to
entertain them.” Id.
1. Principles of Law
Under 35 U.S.C. § 112 ¶ 6, “[a]n element in a claim
for a combination may be expressed as a means . . . for
performing a specified function without the recital of
structure, material, or acts in support thereof, and
such claim shall be construed to cover the
corresponding structure, material, or acts described in
the specification and equivalents thereof.” 35 U.S.C.
§ 112 ¶ 6. Using the term “means” in a “means for”
context creates a rebuttable presumption that 35
U.S.C. § 112 ¶ 6 applies. See Williamson v. Citrix
Online, LLC, 792 F.3d 1339, 1348, 1349 (Fed. Cir.
2015) (en banc in relevant part) (“use of the word
‘means’ creates a presumption that § 112, ¶ 6
applies”). In determining whether a claim element
falls within the ambit of § 112 ¶ 6, “[t]he standard is
whether the words of the claim are understood by
persons of ordinary skill in the art to have a
sufficiently definite meaning as the name for
structure.” Id. at 1349 (quoting Greenberg v. Ethicon
Endo–Surgery, Inc., 91 F.3d 1580, 1583 (Fed. Cir.
1996)). “When a claim term lacks the word ‘means,’
the presumption can be overcome and § 112, para. 6
will apply if the challenger demonstrates that the
claim term fails to ‘recite sufficiently definite
structure’ or else recites ‘function without reciting
sufficient structure for performing that function.’” Id.
(quoting Watts v. XL Sys., Inc., 232 F.3d 877, 880 (Fed.
Cir. 2000)).

62a
Once a claim limitation falls under 35 U.S.C. § 112
¶ 6, the construction of such a limitation involves two
steps: (1) identifying the claimed function and (2)
identifying in the specification the corresponding
structure that performs the claimed function. See
Noah Sys., Inc. v. Intuit Inc., 675 F.3d 1302, 1311
(Fed. Cir. 2012). In the event the specification does not
identify sufficient structure to perform the claimed
functions, “the claim limitation would lack specificity,
rendering the claim as a whole invalid for
indefiniteness under 35 U.S.C. § 112 ¶ 2.” Aristocrat
Techs. Austl. Pty Ltd. v. Int’l Game Tech., 521 F.3d
1328, 1331 (Fed. Cir. 2008) (citing In re Donaldson, 16
F.3d 1189, 1195 (Fed. Cir. 1994) (en banc)).
2. Analysis
We determine that Petitioner has shown, by a
preponderance of the evidence, that the limitations of
claims 1–20, 25, and 26 that recite “means for” are
governed by § 112 ¶ 6. See Ex. 1004 ¶¶ 63–68;
Williamson, 792 F.3d at 1349. Furthermore, as claim
1 recites, all of the “instruction means for” limitations
are “web-based computer program code” executed and
stored on a server having a processor, an area of main
memory, a storage device, and a bus connecting the
processor, main memory, and storage device. See
Ex. 1001, 16:61–17:4. In other words, the “instruction
means for” limitations are all special purpose
computer code executed on a general purpose
computer. See Ex. 1004 ¶¶ 64–66.
As for the first step of construing these meansplus-function limitations, we further agree with

63a
Petitioner and determine that the corresponding
functions for the following limitations are what is
shown in the table below.
Term

Function

first instruction means
for permitting a payer
who executes a check
for payment to enter
and
store
check
register
information
relating to the executed
check in said database,
the
check
register
information including
a check number, a date
issued, a payee, a
routing number, and
an account number
(claim 1)

permitting a payer who
executes a check for
payment to enter and
store
check
register
information relating to
the executed check in said
database,
the
check
register
information
including a check number,
a date issued, a payee, a
routing number, and an
account number

second
instruction
means for providing a
web
site
on
the
Internet accessible to
the payer who executed
the check, a payee of
the executed check, a
payee bank, a drawee
bank, and banking
institutions
intermediate the payee

providing a web site on
the Internet accessible to
the payer who executed
the check, a payee of the
executed check, a payee
bank, a drawee bank, and
banking
institutions
intermediate the payee
bank and the drawee bank

64a
bank and the drawee
bank (claim 1)
third
instruction
means for enabling the
payer who executed the
check, the payee of the
executed check, the
payee bank, the drawee
bank, and banking
institutions
intermediate the payee
bank and the drawee
bank to access check
register information of
the executed check at
every point along a
check clearing process
in order to determine
correspondence
between check register
information stored in
said database and the
executed
check
presented for payment
(claim 1)

enabling the payer who
executed the check, the
payee of the executed
check, the payee bank, the
drawee bank, and banking
institutions intermediate
the payee bank and the
drawee bank to access
check register information
of the executed check at
every point along a check
clearing process in order
to
determine
correspondence between
check register information
stored in said database
and the executed check
presented for payment

fourth
instruction
means for enabling the
payer who executed the
check, the payee of the

enabling the payer who
executed the check, the
payee of the executed
check, the payee bank, the

65a
executed check, the
payee bank, the drawee
bank, and banking
institutions
intermediate the payee
bank and the drawee
bank to determine
whether tampering or
altering has occurred
to the executed check
at every point along a
check clearing process
(claim 1)

drawee bank, and banking
institutions intermediate
the payee bank and the
drawee bank to determine
whether tampering or
altering has occurred to
the executed check at
every point along a check
clearing process

fifth instruction means
for
searching
and
capturing
check
register information for
abandoned
property
subject
to
escheat
(claim 2)

searching and capturing
check register information
for abandoned property
subject to escheat

sixth
instruction
means
for
automatically polling
check
register
information for storage
on said database (claim
3)

automatically
polling
check register information
for storage on said
database

seventh
instruction
means for performing a
reconciliation of check
registration

performing
a
reconciliation of check
registration information

66a
information for payers
who executed checks
(claim 4)

for payers who executed
checks

eighth
instruction
means for locating lost,
stolen, misplaced items
and
items
not
presented and that
remain
outstanding
(claim 5)

locating
lost,
stolen,
misplaced
items
and
items not presented and
that remain outstanding

ninth
instruction
means for archiving
and
storing
check
register,
matching
data, verification data
and
authentication
data for up to a period
of seven years (claim 6)

archiving and storing
check register, matching
data, verification data and
authentication data for up
to a period of seven years

eleventh
instruction
means for making a
credit
history
compilation for a payer
who executes checks
based
upon
check
register
information
(claim 19)

making a credit history
compilation for a payer
who
executes
checks
based upon check register
information

twelfth
instruction
means for compiling a
behavior matrix for

compiling
a
behavior
matrix for payers who

67a
payers who execute
checks based upon
check
register
information (claim 20)

execute checks based upon
check register information

fourteenth instruction
means for enabling
payers who execute
checks to view their
check
register
information in realtime (claim 26)

enabling
payers
who
execute checks to view
their
check
register
information in real-time

means
for
demodulating
check
register
information
from
a
telephone
carrier signal (claim 9)

demodulating
check
register information from
a telephone carrier signal

Pet. 26–32.
As for the second step of identifying the
corresponding structure, we agree with Petitioner
that the specification of the ’640 patent fails to provide
adequate corresponding structure for performing
these functions. See Pet. 36–60. “A patent applicant
who employs means-plus-function language ‘must set
forth in the specification an adequate disclosure
showing what is meant by that language.’” Net
MoneyIN, Inc. v. VeriSign, Inc., 545 F.3d 1359, 1367
(Fed. Cir. 2008) (quoting In re Donaldson, 16 F.3d at
1195). In cases such as this one, which involve a
computer-implemented
means-plus-function

68a
limitation, courts have required “that the structure
disclosed in the specification be more than simply a
general purpose computer or microprocessor.”
Aristocrat, 521 F.3d at 1333. The specification must
“disclose an algorithm for performing the claimed
function.” Net MoneyIN, 545 F.3d at 1367. The
specification can express the algorithm “in any
understandable terms including as a mathematical
formula, in prose, or as a flow chart, or in any other
manner that provides sufficient structure.” Finisar
Corp. v. DirecTV Grp., Inc., 523 F.3d 1323, 1340 (Fed.
Cir. 2008) (internal citation omitted). Simply
disclosing software, however, “without providing some
detail about the means to accomplish the function[,] is
not enough.” Id. at 1340–41 (citation omitted).
As claim 1 makes clear, the “instruction means for”
limitations are “web-based computer program code”
executed on the processor in the server. See Ex. 1001,
16:61–17:4. Because the “instruction means for” are
software running on a processor, the specification
must also disclose an algorithm.3 Net MoneyIN, 545
F.3d at 1367.

Because the ’640 patent requires a server computer
specifically programmed to carry out the recited functions
associated with the various “instruction means for,” we
determine that the exception to the algorithm requirement, set
forth in In re Katz Interactive Call Processing Patent Litig., 639
F.3d 1303, 1316 (Fed. Cir. 2011), for situations involving
functions that can be accomplished by “any general purpose
computer without special programming,” does not apply.
3

69a
We agree with Petitioner that the specification of
the ’640 patent fails to provide an adequate algorithm
for the “instruction means for” limitations identified
above. For example, with respect to the “first
instruction means for permitting a payer who
executes a check for payment to enter and store check
register information relating to the executed check in
said database,” we agree with Petitioner that there
does not appear to be a step-by-step explanation, in
any way shape or form, of how the web-based code
would both allow a person to enter and store the
recited information. See Pet. 36–39; Ex. 1004 ¶¶ 72–
79. Instead, we agree with Petitioner that all that
appears is a generalized recitation of the function, and
an indication that the software can perform it. See Ex.
1001, 6:9–15, 10:1–9, 10:16–26. As Petitioner notes,
the fact that a person of ordinary skill might
understand how to write code to perform these
functions is not relevant. See Blackboard, Inc. v.
Desire2Learn, Inc., 574 F.3d 1371, 1385 (Fed. Cir.
2009) (“A patentee cannot avoid providing specificity
as to structure simply because someone of ordinary
skill in the art would be able to devise a means to
perform the claimed function.”).
Patent Owner’s reliance on the ’640 patent as a
whole, without any particular citation or argument, is
not persuasive to the contrary. We agree with
Petitioner that Patent Owner’s vague and conclusory
reference to the entirety of the ’640 patent violates 37
C.F.R § 42.23, which requires a party’s briefing to
provide “[a] full statement of the reasons for the relief
requested, including a detailed explanation of the

70a
significance of the evidence including material facts,
and the governing law, rules, and precedent.” We
further determine that this vague reference also
amounts to an improper incorporation by reference.
See 37 C.F.R § 42.6(a)(3). Accordingly, we determine
Patent Owner’s arguments are insufficient to
overcome the significant and persuasive evidence that
Petitioner has submitted establishing that the meansplus-function elements lack corresponding structure.
See Tobii Tech. AB v. Eye Tribe APS, No. C 13-05877SBA, 2016 WL 269890, at *4 (N.D. Cal. Jan. 22, 2016)
(finding plaintiff’s vague reference to prior art article
incorporated by reference in patent as “ineffectual” to
provide corresponding structure).
We also agree with Petitioner that it has shown,
by a preponderance of the evidence, that the other
“means for” limitations of claims 1–9, 19, 20, and 26
identified in the Petition similarly contain limitations
that lack adequate corresponding structure in the
specification. See Pet. 39–60; Ex. 1004 ¶¶ 80–164. As
for claims 10–18 and 25, those claims depend from at
least one claim that contains a limitation that has
been shown to lack adequate corresponding structure.
Accordingly, based on the foregoing discussion, we
agree that Petitioner has shown, by a preponderance
of the evidence, that claims 1–20, 25, and 26 are
unpatentable as indefinite under 35 U.S.C. § 112 ¶ 2
because the ’640 patent fails to disclose adequate
structure under 35 U.S.C. § 112 ¶ 6 for the meansplus-function limitations in those claims.

71a
III. CONCLUSION
We have reviewed the information in the Petition
as well as Patent Owner’s arguments and evidence.
With the record now developed fully, we have
determined that Petitioner has shown by a
preponderance of the evidence that (i) claims 1–26 are
directed to patent-ineligible subject matter, and (ii)
claims 1–20, 25, and 26 are indefinite for failing to
disclose adequate structure.
IV. ORDER
For the foregoing reasons, it is
ORDERED that, based on a preponderance of the
evidence, claims 1–26 of the ’640 patent are held
unpatentable; and
FURTHER ORDERED that, because this is a
Final Written Decision, parties to this proceeding
seeking judicial review of it must comply with the
notice and service requirements of 37 C.F.R. § 90.2.

72a
For PETITIONER:
Natasha H. Moffitt
Holmes J. Hawkins III
Abby L. Parsons
KING & SPALDING LLP
nmoffitt@kslaw.com
hhawkins@kslaw.com
aparsons@kslaw.com
For PATENT OWNER:
John W. Goldschmidt, Jr.
Thomas J. Maiorino
FERENCE AND ASSOCIATES
jgoldschmidt@ferencelaw.com
tmaiorinolaw@comcast.net

73a
APPENDIX C
Trials@uspto.gov
571-272-7822

Paper 38
Entered: July 23, 2018

UNITED STATES PATENT
AND TRADEMARK OFFICE
_________________
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
_________________
FEDERAL RESERVE BANK OF ATLANTA,
FEDERAL RESERVE BANK OF BOSTON,
FEDERAL RESERVE BANK OF CHICAGO,
FEDERAL RESERVE BANK OF CLEVELAND,
FEDERAL RESERVE BANK OF DALLAS,
FEDERAL RESERVE BANK OF KANSAS CITY,
FEDERAL RESERVE BANK OF MINNEAPOLIS,
FEDERAL RESERVE BANK OF NEW YORK,
FEDERAL RESERVE BANK OF PHILADELPHIA,
FEDERAL RESERVE BANK OF RICHMOND,
FEDERAL RESERVE BANK OF SAN FRANCISCO,
and FEDERAL RESERVE BANK OF ST. LOUIS,
Petitioner,
v.
BOZEMAN FINANCIAL LLC,
Patent Owner.
_________________

74a
Case CBM2017-00036
Patent 8,768,840 B2
_________________
Before MICHAEL W. KIM, WILLIAM V. SAINDON,
and KEVIN W. CHERRY, Administrative Patent
Judges.
CHERRY, Administrative Patent Judge.
FINAL WRITTEN DECISION
35 U.S.C. § 328(a) and 37 C.F.R. § 42.73
I. INTRODUCTION
Federal Reserve Bank of Atlanta, Federal Reserve
Bank of Boston, Federal Reserve Bank of Chicago,
Federal Reserve Bank of Cleveland, Federal Reserve
Bank of Dallas, Federal Reserve Bank of Kansas City,
Federal Reserve Bank of Minneapolis, Federal
Reserve Bank of New York, Federal Reserve Bank of
Philadelphia, Federal Reserve Bank of Richmond,
Federal Reserve Bank of San Francisco, and Federal
Reserve Bank of St. Louis (“Petitioner”) filed a
Petition (Paper 1, “Pet.”) seeking a covered business
method patent review of claims 1–20 of U.S. Patent
No. 8,768,840 B2 (Ex. 1001, “the ’840 patent” or the
“challenged patent”) under Section 18 of the LeahySmith America Invents Act, Pub. L. No. 112–29, 125
Stat. 284, 331 (2011) (“AIA”). Petitioner supports its
contentions that the claims are unpatentable with the
Declaration of Thomas M. Conte, Ph.D. (Ex. 1007),

75a
and its contentions that it was charged with
infringement with the Declaration of Richard M.
Fraher (Ex. 1008). Patent Owner, Bozeman Financial
LLC, filed a Preliminary Response (Paper 5, “Prelim.
Resp.”). Patent Owner submitted the Declaration of
William O. Bozeman, III with its Preliminary
Response. Paper 6 (“First Bozeman Decl.”).
On May 19, 2017, pursuant to our authorization,
Petitioner filed a Reply to Patent Owner’s Preliminary
Response on the limited issue of whether Petitioner
has standing to bring this proceeding. Paper 8
(“Reply”). With its Reply, Petitioner provided a second
Declaration of Richard M. Fraher (Ex. 1023). On May
26, 2017, also pursuant to our authorization, Patent
Owner filed a Sur-Reply on the limited issue of
standing. Paper 12 (“Sur-Reply”). Patent Owner
submitted a second Declaration of William O.
Bozeman, III in support of its Sur-Reply. Paper 13
(“Second Bozeman Decl.”).
Pursuant to 35 U.S.C. § 324, in our Decision to
Institute, we instituted this proceeding as to claims 1–
20 on all asserted grounds. Paper 22 (“Dec.”).
After the Decision to Institute, Patent Owner filed
a Patent Owner Response (Paper 24, “PO Resp.”), and
Petitioner filed a Reply to the Patent Owner Response
(Paper 27, “Pet. Reply”). Patent Owner supported its
Response with a third Declaration of William O.
Bozeman, III (Ex. 2003) (“Third Bozeman Decl.”).
Patent Owner also filed a Contingent Motion to
Amend. Paper 25 (“Mot.”). Petitioner filed an
Opposition to the Motion to Amend. Paper 29 (“Opp.”).

76a
Patent Owner filed a Reply in Support of its Motion to
Amend. Paper 31 (“PO Reply”). Pursuant to our
authorization, Petitioner filed a Sur-Reply to Patent
Owner’s Motion to Amend. Paper 33 (“Pet. SurReply”).
An oral hearing was held on April 5, 2018. Paper
37 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6(b). This
Decision is a Final Written Decision under 35 U.S.C.
§ 328(a) as to the patentability of the challenged
claims. Based on the complete record, we determine
Petitioner has demonstrated, by a preponderance of
the evidence, that claims 1–20 are unpatentable. We
further deny Patent Owner’s Motion to Amend.
A. Related Matters
Petitioner and Patent Owner represent that
Petitioner has filed a covered business method patent
review, CBM2017-00035, against a related patent,
U.S. Patent No. 6,754,640 B2 (“the ’640 patent,” Ex.
1006). Pet. 6–7; Paper 7, 1. Petitioner has also filed a
declaratory judgment action of non-infringement of
both the ’640 patent and the ’840 patent—Federal
Reserve Bank of Atlanta et al. v. Bozeman Financial
LLC, Case No. 1:17-cv-00389 (N.D. Ga.). Paper 7, 2.
B. Standing to File a Petition
for Covered Business Method Patent Review
A petition for covered business method review
must set forth the petitioner’s grounds for standing.
37 C.F.R. § 42.304(a). Rule 42.304(a) states it is
Petitioner’s burden to “demonstrate that the patent

77a
for which review is sought is a covered business
method patent, and that the petitioner meets the
eligibility requirements of § 42.302.” Id. One of those
eligibility requirements is that only persons (or their
privies) who have been sued or charged with
infringement under a patent are permitted to file a
petition seeking a covered business method patent
review of that patent. AIA § 18(a)(1)(B); 37 C.F.R. §
42.302(a). Under our rules, “[c]harged with
infringement means a real and substantial
controversy regarding infringement of a covered
business method patent exists such that the petitioner
would have standing to bring a declaratory judgment
action in Federal court.” 37 C.F.R. § 42.302(a).
The Declaratory Judgment Act provides that “[i]n
a case of actual controversy within its jurisdiction, ...
any court of the United States, upon the filing of an
appropriate pleading, may declare the rights and
other legal relations of any interested party seeking
such declaration.” 28 U.S.C. § 2201(a). In
MedImmune, Inc. v. Genentech, Inc., the Supreme
Court stated that the test for whether an “actual
controversy” exists is “whether the facts alleged,
under all the circumstances, show that there is a
substantial controversy, between parties having
adverse legal interests, of sufficient immediacy and
reality to warrant the issuance of a declaratory
judgment.” 549 U.S. 118, 127 (2007) (internal
quotation marks omitted).
Although it relaxed the test for establishing
jurisdiction, MedImmune “did not change the bedrock
rule that a case or controversy must be based on a real

78a
and immediate injury or threat of future injury that is
caused by the defendants—an objective standard that
cannot be met by a purely subjective or speculative
fear of future harm.” Prasco, LLC v. Medicis Pharm.
Corp., 537 F.3d 1329, 1339 (Fed. Cir. 2008). Thus,
courts have explained post-MedImmune that
“jurisdiction generally will not arise merely on the
basis that a party learns of the existence of a patent
owned by another or even perceives such a patent to
pose a risk of infringement, without some affirmative
act by the patentee.” SanDisk Corp. v. STMicroelecs.,
Inc., 480 F.3d 1372, 1381 (Fed. Cir. 2007). Instead,
courts have required “conduct that can be reasonably
inferred as demonstrating intent to enforce a patent.”
Hewlett-Packard Co. v. Acceleron LLC, 587 F.3d 1358,
1363 (Fed. Cir. 2009).
In this case, Patent Owner has not sued Petitioner
for infringement. Instead, Petitioner contends that
Patent Owner charged it with infringing the ’840
patent. Pet. 37–40. Petitioner submits, supported by
the testimony of Mr. Fraher, that Patent Owner
contacted Petitioner by telephone, in January 2016,
and contended that Petitioner was infringing the ’640
and ’840 patents. Id. at 38 (citing Ex. 1008 ¶¶ 2, 4, 5).
Petitioner also asserts that Patent Owner indicated
that it intended to seek fees for the alleged
infringement. Id. Petitioner argues that Patent
Owner continued to contact it about potentially
licensing the ’640 and ’840 patents. Id. Petitioner also
provides an infringement claim chart Patent Owner
sent Petitioner, mapping Petitioner’s conduct to the

79a
claims of the ’840 patent. Id. at 38–39 (citing Ex. 1022,
000001-5).
In its Patent Owner Response, Patent Owner
contends “Petitioner’s unclean hands and deceptive
actions, along with the fact the only controversy
regarding infringement was created and induced by
the Petitioner’s own bad faith, should bar it from this
forum.” PO Resp. 17. To support this contention,
Patent Owner argues that it “had a 15 year
relationship with the Petitioner.” Id. at 13. Patent
Owner claims that its discussions with Petitioner
have only been about a “cooperative business
arrangement” with Petitioner. Id. Patent Owner
argues that it only discussed infringement at
Petitioner’s “urging” and that it never had any
interest in litigation. Id. at 13–14. Patent Owner
asserts that Petitioner had no fear that it infringed
the ’840 patent. Id. at 14–15. Patent Owner further
argues that Petitioner “misled” it, because Petitioner
never informed Patent Owner that Petitioner thought
that the ’840 patent was invalid, and Petitioner never
informed Patent Owner that it intended to file these
proceedings. Id. at 15–16. Patent Owner asserts that
“[t]hese lack of disclosures, along with the inducement
of Patent Owner to present infringement allegations,”
were because “Petitioner was entrapping the Patent
Owner to present such allegations as to the ’840
Patent . . . in order to gain standing.” Id. at 16.
In its Reply, Petitioner disputes Patent Owner’s
characterization of the events that took place in their
negotiations in 2016 and early 2017. Reply 1–5.
Petitioner points to the testimony of Mr. Fraher about

80a
the details of the discussions that took place before the
parties signed their NDA, including confidential
discussions that took place between the parties, and
detailing Patent Owner’s actions through the course
of those discussions. Id. (citing Ex. 1023 ¶¶ 1–14).
We have reviewed Petitioner’s and Patent
Owner’s submissions and supporting evidence, and we
determine that Petitioner has established sufficiently
the facts, taken together, demonstrate that it has
standing to bring this covered business method
review. Here, it is undisputed that Patent Owner
contacted Petitioner in October 2014 and the parties
entered into lengthy discussions regarding the
potential licensing of the ’840 patent. See Ex. 1008 ¶¶
4–8; Ex. 1023 ¶¶ 3–7; First Bozeman Decl. ¶¶ 7–14.
In April 2016, Patent Owner sent Petitioner a claim
chart mapping existing services offered by Petitioner
to claims of the ’840 patent. See Ex. 1022, 1 (seeking
licensing discussions), 2–5 (claim chart of ’840 patent).
Although Patent Owner attempts to characterize
these communications as an effort to reach a business
partnership (PO Resp. 14), the email’s statement that
Patent Owner sought a “commercially reasonable
treatment” and mapped existing products to claim 1 of
the ’840 patent suggest otherwise (Ex. 1022, 1–5),
and, in any case, is, at a minimum, “conduct that can
be reasonably inferred as demonstrating intent to
enforce a patent.” Hewlett-Packard Co., 587 F.3d at
1363.
Furthermore, the April 2016 communication and
claim chart, Patent Owner’s September 29, 2016
communication and Memorandum and Proposal

81a
repeatedly references the “Bozeman patents”
collectively (including both the ’640 and ’840 patents),
and threaten litigation. See, e.g., Ex. 10241, 1. For
example, in the September 29, 2016 email from Patent
Owner’s counsel to Mr. Fraher, Patent Owner’s
counsel states:
Pursuant to our ongoing discussions regarding
the Bozeman patent dispute with the [Federal
Reserve Banks (“FRB”)] and in the interest of
attempting to move this process along at a more
rapid pace we provide the attached Proposal,
Memorandum,
Appendix
and
revised
preliminary Claim Chart for consideration by
the Federal Reserve in addressing the current
divide on past usage and rents due by the
FRB. . . . As we have been going at this since
late 2014 and as the Bozeman patents useful
life continues to tick away, we are respectfully
requesting that the FRB use best efforts to
review the attached and to set up a follow-up
meeting or conference session in the near
future. If we cannot get to that point, it may
leave [Mr. Bozeman] with little alternate but to
begin to head down an enforcement path that
would most likely be very disruptive. . . . We
remain very flexible in discussing alternative
approaches but do want to point out the time

Patent Owner has filed a redacted version of Exhibit 1024
as Exhibit 2011 in the PTAB E2E System.
1

82a
sensitivities involved
opening proposal.

in

[Mr.

Bozeman’s]

Ex. 1024, 1 (emphasis added).
Attached to this email is Patent Owner’s
Memorandum and Proposal of Bozeman Financial
LLC to the Federal Reserve Bank (“FRB”)
(“Memorandum”). Id. at 2. The Memorandum
repeatedly alludes to, and openly discusses, the
parties’ dispute regarding whether Petitioner’s
systems infringe the Bozeman patents. See, e.g., id. at
9 (alleging “when Bozeman first made known his IP to
the FRB, that the FRB was in the process of updating
its systems from its dated legacy methods to those
anticipated by the Bozeman I.P.,” and noting, with
respect to the “Bozeman patents,” that the parties
have “differing views of its applicability to the current
and past FRB systems and service offerings”), 9–10
(noting “Bozeman[ ] asserts that a relatively basic
reading of the Bozeman patents readily shows that . . .
[Petitioner’s] systems . . . fit well within the
inventions of the Bozeman IP”), 10 (asserting
Petitioner’s “argument and its related technical
analysis have not persuaded Bozeman and his
advisors that the Bozeman interpretation of the
patents is not the more likely outcome to be upheld if
infringement litigation were to be undertaken”), 12
(discussing “the Bozeman interpretation of the
patents;” noting that “[w]e believe that Bozeman and
the FRB are at a critical crossroad in determining if
they can reach an agreement recognizing that each
side believes it has valid and determinative
arguments and analysis to defeat the other’s claims;”

83a
and arguing that “with the stakes so high the relevant
question is it more practical to compromise and reach
a fair accord, or is it in the best interest of either party
to litigate these issues on multiple fronts over the next
1–5 years”), 16–18 (discussing “settlement criteria
which would substantially discount the totals from
traditional patent damages”).
We note that the context for these statements
significantly enhances their weight in our analysis.
This Memorandum was sent at the culmination of
almost two years of talks between the parties,
including numerous calls and a technical presentation
by Petitioner on how its systems operated, and why
they did not infringe. See Ex. 1005 ¶¶ 4–6 (discussing
early talks between the parties); Ex. 1014 ¶¶ 7–11
(discussing the parties’ meetings and discussions
leading up to the Memorandum). Rather than back
down from its previous assertions, Patent Owner
repeatedly asserts, in the Memorandum, that
Petitioner’s systems are covered by (i.e., infringe) the
Bozeman patents. Moreover, the email and
Memorandum make clear that the time for Petitioner
to license the Bozeman patents was running short,
and that if Petitioner did not take a license that
Patent Owner would begin to “head down an
enforcement path” (Ex. 1024, 1), which could involve
“litigat[ing] these issues on multiple fronts over the
next 1–5 years,” id. at 12.
Mr. Bozeman’s efforts to re-characterize these
actions in his Declarations (see, e.g., Second Bozeman
Decl. ¶¶ 4, 18; Third Bozeman Decl. ¶ 11), are
inconsistent with the Memorandum and other written

84a
communications he sent to Petitioner, and is
contradicted by the testimony of Mr. Fraher. In view
of
the
Memorandum
and
other
written
communications, we find Mr. Bozeman’s assertions, in
his Declarations, that he never threatened to sue not
to be credible, and give that testimony little weight.
“[A] specific threat of infringement litigation by
the patentee is not required to establish jurisdiction,
and a ‘declaratory judgment action cannot be defeated
simply by the stratagem of a correspondence that
avoids magic words such as ‘litigation’ or
‘infringement.’’” ABB Inc. v. Cooper Indus., LLC, 635
F.3d 1345, 1348 (Fed. Cir. 2011) (quoting Hewlett–
Packard, 587 F.3d at 1362). But, of course, if “a party
has actually been charged with infringement of the
patent, there is, necessarily, a case or controversy
adequate to support [declaratory judgment]
jurisdiction.” Cardinal Chem. Co. v. Morton Int’l, Inc.,
508 U.S. 83, 96 (1993). Here, we find the statements
in the Memorandum actually charge Petitioner with
infringement of the ’840 patent, which is sufficient to
give rise to declaratory judgment jurisdiction. Id.
We are unpersuaded by Patent Owner’s
arguments regarding the subjective understanding of
the parties. PO Resp. 13–15. Most importantly, it is
irrelevant whether Patent Owner subjectively
believed Petitioner was infringing or actually
intended to sue. “‘The test [for declaratory judgment
jurisdiction in patent cases], however stated, is
objective. . . .’” Hewlett-Packard, 587 F.3d at 1364
(quoting Arrowhead Indus. Water, Inc. v. Ecolochem,
Inc., 846 F.2d 731, 736 (Fed. Cir. 1988)). “Indeed, it is

85a
the objective words and actions of the patentee that
are controlling.” BP Chems. v. Union Carbide Corp., 4
F.3d 975, 979 (Fed. Cir. 1993). Thus, conduct that can
be reasonably inferred as demonstrating intent to
enforce a patent can create declaratory judgment
jurisdiction. Hewlett-Packard, 587 F.3d at 1364. Here,
when Patent Owner’s statements, demands, and
actions are considered collectively, it is difficult to
reasonably infer any conclusion other than Patent
Owner was demonstrating an intent to enforce its
patents. Moreover, Patent Owner’s contentions that it
was only seeking a forward-looking agreement, see PO
Resp. 13–14, are not supported by the record. The
Memorandum
repeatedly
refers
to
seeking
compensation for past use of the Bozeman patents.
See Ex. 1024, 18 (“This option allows for a one-time
payment to cover all of the past rents due. . . .”).
As for Patent Owner’s argument that it was
somehow entrapped by Petitioner, we note that (a) all
through its negotiations with Petitioner, Patent
Owner was represented by counsel (see First Bozeman
Decl. ¶ 6; Ex. 1022, 1; Ex. 1024, 1), (b) Patent Owner’s
head, Mr. Bozeman, appears to be a sophisticated
businessman (First Bozeman Decl. ¶¶ 2, 3; Ex. 1024,
4–5), and (c) there is no credible evidence showing
that it was coerced into making the statements it
made in the Memorandum. Moreover, the law was
clear at the time the statements were made that they
could give rise to declaratory judgment jurisdiction.
See Hewlett-Packard, 587 F.3d at 1362 (“But it is
implausible (especially after MedImmune and several
post MedImmune decisions from this court) to expect

86a
that a competent lawyer drafting such correspondence
for a patent owner would identify specific claims,
present claim charts, and explicitly allege
infringement.”). In addition, Patent Owner fails to
explain why Petitioner had any legal obligation to
reveal to Patent Owner that it believed the ’840 patent
was invalid or that it planned to file these CBM
proceedings. See, e.g., Nat’l Westminster Bank, U.S.A.
v. Ross, 130 B.R. 656, 679 (S.D.N.Y. 1991) (“Where
parties deal at arms length in a commercial
transaction, no relation of confidence or trust
sufficient to find the existence of a fiduciary
relationship will arise absent extraordinary
circumstances.”); see also Williams v. Dresser Indus.,
Inc., 120 F.3d 1163, 1167–68 (11th Cir. 1997) (no
general duty to disclose in commercial transactions
under Georgia law).
Accordingly, we conclude that Petitioner has
demonstrated that it has standing to bring this
covered business method review.
C. The Challenged Patent
The ’840 patent, titled “Universal Positive Pay
Match, Authentication, Authorization, Settlement,
and Clearing System,” describes a universal positive
pay match database to reduce financial transaction
fraud. Ex. 1001, [54], Abstract. The ’840 patent
explains that check fraud is a significant problem in
the financial system, and although many solutions
have been proposed, “[o]ne area where [the solutions]
all fall short is in the elimination of check fraud.” Id.
at 1:64–65.

87a
The patent acknowledges the existence of
numerous prior art systems aimed at verifying
financial transactions and combatting checking fraud:
“[m]any techniques have been developed to inhibit
check fraud, such as Positive Pay [and] different forms
of electronic check verification and electronic check
presentment.” Id. at 1:57–60. The ’840 patent explains
that positive pay services “have been available from
individual banks” for a number of years, and are
“recognized as an effective service to fight against
check fraud.” Id. at 13:11–12, 13:22–23. According to
the patent, a
check generating customer [using a prior art
positive pay service] generally uploads a file of
transaction records associated with financial
transactions daily to the bank of all checks
written that day. When checks drawn on the
customers[’] accounts are presented to the
bank, their database is queried. If the
transaction record for a check has been
tampered with or if transaction record includes
an unauthorized check number, the transaction
record will be rejected.
Id. at 13:14–21.
The patent explains that “[t]he existing positive
pay services are bank specific,” meaning that “only a
bank’s own account holders can utilize it and take
advantage of it.” Id. at 13:30–32. The patent suggests
that it will overcome this perceived problem by
offering a “universal” positive pay system that “can be
used by both account holder members and non-

88a
members,” and “accessed by customers, payers,
payees, payee banks, drawee banks, and banking
institutions intermediate the payee banks and the
drawee banks for issuing and tracking transaction
records associated with financial transactions at
every point along the financial transaction clearing
process.” Id. at 13:32–39. Figure 5A of the ’840 patent
is reproduced below.

Figure 5A illustrates a flow diagram of the
universal positive pay database method for checking
accounts according to the claimed invention. Id. at
7:10–11. Figure 5A shows that “each participant in
the check clearing process (payer customer 30, payee
100, payee bank 110, Federal Reserve 80, clearing
bank 70, or payor bank 120), participates in a
[universal positive pay database (“UPPD”)] method
130 used by a payer (customer) 30 for maintaining

89a
check payment control and preventing check fraud.”
Id. at 17:56–61. According to the ’840 patent,
[t]he UPPD method 130 includes a series of
steps in which payer 30 uploads check
information to the UPPD system 10, payee 100
deposits check in payee bank 110, payee bank
110 checks the check against the UPPD
database 20 in the UPPD system 10, check is
deposited in Federal Reserve 80 or clearing
bank 70, which checks it against the UPPD
database 20, payer bank 120 receives check and
checks it against the UPPD database 20 and
reports back to the UPPD system 10 that the
check has been debited from payer’s 30 account.
Id. at 17:61–18:3.
D. Illustrative Claim
Petitioner challenges all twenty claims of the
challenged patent. Claims 1, 8, and 15 are
independent claims. Claim 1 is illustrative of the
claimed subject matter:
1. A computer implemented method for
detecting fraud in financial transactions during
a payment clearing process, said method
comprising:
receiving through one of a payer bank and a
third party, a first record of an electronic
financial transaction from at least one of the
following group: a payer, a point-of-sale
terminal, an online account and a portable
electronic device;

90a
storing in a database accessible by each party
to said payment clearing process of said
electronic financial transaction, said first
record of said electronic financial transaction,
said first record comprising more than one
parameter;
receiving at said database at least a second
record of said electronic financial transaction
from one or more of a payee bank and any other
party to said payment clearing process as said
transaction moves along said payment clearing
process, wherein said second record comprises
at least one parameter which is the same as
said more than one parameter of said first
record;
each of said first and second records received at
said database comprise at least two of the same
said more than one parameters;
determining by a computer when there is a
match between at least two of said parameters
of said second record of said first financial
transaction received at said database and the
same parameters of said first record of said
financial transaction stored in said database,
and wherein any party to said payment clearing
process is capable of verifying said parameters
at each point along said financial transaction
payment clearing process;
sending a notification to said payee bank
participant with authorization to process said

91a
electronic financial transaction when said
parameters match; and
sending a notification to said payee bank
participant to not process said electronic
financial transaction when said parameters do
not match.
Ex. 1001, 28:39–29:8.
E. Instituted Ground of Unpatentability
We have instituted review on the sole asserted
ground—that claims 1–20 are unpatentable as
directed to patent-ineligible subject matter under 35
U.S.C. § 101.
II. DISCUSSION
A. Claim Construction
In a covered business method patent review, a
claim term in an unexpired patent shall be given its
broadest reasonable construction in light of the
specification of the patent in which it appears. 37
C.F.R. § 42.300(b); Cuozzo Speed Techs., LLC v. Lee,
136 S. Ct. 2131, 2144 (2016); Versata Dev. Grp., Inc. v.
SAP Am., Inc., 793 F.3d 1306, 1328 (Fed. Cir. 2015).
We construe the challenged claims according to
these principles. Petitioner proposes constructions
only for the term “behavior matrix.” Pet. 41–43.
However, we determine that no terms require express
construction for this Decision.

92a
B. Covered Business Method Patent
The AIA defines a “covered business method
patent” as “a patent that claims a method or
corresponding apparatus for performing data
processing or other operations used in the practice,
administration, or management of a financial product
or service . . . .” AIA § 18(d)(1); see 37 C.F.R. §
42.301(a). Congress provided a specific exception to
this definition of a covered business method patent—
“the term does not include patents for technological
inventions.” Id. To determine whether a patent is
eligible for a covered business method patent review,
the focus is on the claims. See Unwired Planet, LLC v.
Google Inc., 841 F.3d 1376, 1381 (Fed. Cir. 2016).
For the reasons set forth below, we conclude that
the challenged patent meets the definition of a
covered business method patent.
1. Financial Product or Service
One requirement of a covered business method
patent is for the patent to “claim[ ] a method or
corresponding apparatus for performing data
processing or other operations used in the practice,
administration, or management of a financial product
or service.” AIA § 18(d)(1); 37 C.F.R. § 42.301(a).
Petitioner contends the challenged patent meets
the financial product or service requirement, because
the patent claims computer-implemented methods for
detecting fraud or errors in financial transactions.
Pet. 27–30.

93a
Patent Owner does not dispute Petitioner’s
assertions.
We agree with Petitioner that the ’840 patent
meets the financial product or service requirement.
For example, claim 1 and its dependents are generally
directed to “[a] computer implemented method for
detecting fraud in financial transactions during a
payment clearing process,” comprising: (a) receiving a
first record relating to a financial transaction; (b)
storing that record in a database accessible to each
party to the payment clearing process; (c) receiving a
second record relating to the same financial
transaction; (d) determining whether there is a match
between the first and second records; and (e) sending
a notification based on the outcome of that
determination. Pet. 28. We agree with Petitioner that
the detecting fraud in financial transactions during a
payment clearing process meets the financial product
or service requirement of Section 18 of the AIA. See,
e.g., Jack Henry & Assocs., Inc. v. DataTreasury Corp.,
Case CBM2014-00056, slip op. 8 (PTAB July 10, 2014)
(Paper 17) (method and system for storage and
verification of checks financial in nature).
Accordingly, the financial product or service
requirement is satisfied.
2. Exclusion for Technological Inventions
Section 18 of the AIA states that the term “covered
business method patent” does not include patents for
“technological inventions.” AIA § 18(d)(1); see 37
C.F.R. § 42.301(a). To determine whether a patent is
for a technological invention, we consider “whether

94a
the claimed subject matter as a whole recites a
technological feature that is novel and unobvious over
the prior art; and solves a technical problem using a
technical solution.” 37 C.F.R. § 42.301(b). The
following claim drafting techniques, for example,
typically do not render a patent a “technological
invention”:
(a) Mere recitation of known technologies, such
as computer hardware, communication or
computer
networks,
software,
memory,
computer-readable storage medium, scanners,
display devices or databases, or specialized
machines, such as an ATM or point of sale
device.
(b) Reciting the use of known prior art
technology to accomplish a process or method,
even if that process or method is novel and nonobvious.
(c) Combining prior art structures to achieve
the normal, expected, or predictable result of
that combination.
Office Patent Trial Practice Guide, 77 Fed. Reg.
48,756, 48,764 (Aug. 14, 2012).
Petitioner submits that no “technological feature”
of any of independent claims 1, 8, or 15 is novel and
non-obvious. Pet. 31. Petitioner argues that the only
technological features recited in claim 1 are a
database, a computer, a point-of-sale terminal, a
portable electronic device, and a notification. Id.
Petitioner also submits that the only technological

95a
features recited in claim 8 are a computer having a
database, a network interface, and an electronic
notification. Id. Petitioner further argues that the
only technological features recited in claim 15 are a
computer having a processor, an area of main
memory, and a storage device having a database; a
point of sale terminal; a portable electronic device;
and a notification. Id. Petitioner asserts that “[t]hese
technological features are not novel or non-obvious —
they are generic, conventional computer technologies
that were well known at the time the provisional
application was filed in October 2000.” Id. (citing Ex.
1007 ¶¶ 32–38).
Petitioner further contends that the ’840 patent
does not provide a technical solution to a technical
problem. Id. at 34–37. Petitioner argues that the ’840
patent addresses the problem of reducing financial
transaction fraud and verifying checks and other
financial instruments and documents, which are
business problems, not technical problems. Id. at 34–
35. Further, Petitioner contends that solution,
providing multiple users with access to a positive pay
system at every point along the check clearing
process, is not a technical solution to this problem. Id.
at 35.
Patent Owner argues that its claimed invention
qualifies as a technological invention because “[t]he
core of the claimed invention of the ’840 Patent is the
specific configuration of the UPPD system, files and
tools which solve the technical problems with the
timing and fraud related to clearing paper checks.” PO
Resp. 7–8. Patent Owner contends that “this novel

96a
system for reducing check fraud is wholly based in
technology in nature and ahead of its time.” Id. at 8.
Patent Owner argues that, even if transaction fraud
is a business problem, “that does not negate the
technological problems solved by the claimed
invention.” Id. Patent Owner asserts that, in our
Institution Decision, we “confuse[d] the use of the
invention and effect of the problem with the actual
problem—namely, accurate and faster check clearing
which also eradicates check fraud by configuration
and utilization of the underlying technology.” Id.
Patent Owner contends that the claims of the ’840
patent solve “a technological problem, that being the
failure of the prior art to accurately match,
authenticate, authorize, settle and clear a check in
real-time in order to eradicate paper check fraud prior
to the conclusion of the clearing process, while also
speeding up the accuracy and settlement of check
payments, a technological goal admitted as much by
the Petitioner in expressing its own desire to assist in
developing such a system.” Id. at 9. Patent Owner
points to statements related to various payment
systems developed by Petitioner to contend that the
claimed inventions are technological. Id. at 9–11.
Patent Owner argues that the fact that its system is
implemented on a conventional computer is
irrelevant, because the system overall is novel. Id. at
11–13.
We determine that the technological features of
the claimed steps are directed to using known
technologies. See Office Trial Practice Guide, 77 Fed.
Reg. at 48,764 (indicating use of known technologies

97a
does not render a patent a technological invention).
For example, independent claim 1 recites only “a
database,” “a computer,” “a point-of-sale terminal,” “a
portable electronic device,” and “a notification” (Ex.
1001, 28:39–29:8), and none of these components are
used a non-conventional manner. We agree with
Petitioner that the subject matter of independent
claim 1, as a whole, does not require any specific,
unconventional software, computer equipment,
processing capabilities, or other technological features
to produce the required functional result. See Ex. 1007
¶¶ 32–38.
We also agree with Petitioner that the challenged
patent addresses the business problem of fraud by
providing multiple users access to a positive pay
system at every point along the financial transaction
process, which is not a technical solution to a technical
problem. See Nautilus Hyosung Inc. v. Diebold, Inc.,
Case CBM2016-00034, slip op. 11–14 (PTAB Aug. 22,
2016) (Paper 9) (characterizing “reducing the risk of
[check] fraud” as a “business problem”).
Patent Owner’s arguments do not persuade us
otherwise, because they are not commensurate with
the scope of claim 1. In particular, Patent Owner’s
arguments about the “specific configuration” of the
“UPPD system,” “files,” and “tools” do not reflect the
actual limitations of claim 1. Claim 1 does not require
any specific configuration for the “system,” other than
a database on a computer connected to a network that
can receive data. As for the “files,” the only limitation
recited in the claim is that the files have at least two
of the same parameters. We agree with Petitioner that

98a
these are extremely conventional arrangements for a
database system, and do not amount to “specific
configuration,” as Patent Owner argues. See Ex. 1007
¶¶ 33–41. This use of generic computer components in
a conventional way does not render a patent a
technological invention. See Office Trial Practice
Guide, 77 Fed. Reg. at 48,764.
As for Patent Owner’s contentions about problems
with clearing paper checks, claim 1 is not limited to
paper checks and involves financial transactions
generally. Thus, claim 1 does not reflect any specific
solution to technological problems in the clearing of
paper checks, as Patent Owner contends. As for
Patent Owner’s argument that we confuse the use of
the invention and effect with the “actual” problem, we
disagree. The ’840 patent is clear that financial
transaction fraud is business problem that costs
participants a great deal of money. See Ex. 1001, 1:27–
52. Moreover, we agree with Petitioner that even if
reducing financial transaction fraud were a
technological problem, the ’840 patent does not offer a
technological solution. Pet. Reply 5. Instead, it merely
uses a conventional database that is accessible to
multiple users along the transaction process. This
does not qualify as a technological solution to a
technological problem. See Monster Worldwide Inc. v.
Career Destination Dev., LLC, Case No. CBM201400077 (PTAB Aug. 20, 2014) (Paper 9) (finding that
“creating a centralized location for all employers and
candidates to search” did not involve a technical
solution to a technical problem).

99a
Accordingly, we conclude that the subject matter
of at least independent claim 1 does not have a
technological feature that solves a technical problem
using a technical solution, and is, therefore, not a
technological invention. See Blue Calypso LLC v.
Groupon, Inc., 815 F.3d 1331, 1341 (Fed. Cir. 2016)
(finding that using general computer components to
carry out the claimed process does not “rise[ ] above
the general and conventional” and “cannot change the
fundamental character of [patent owner’s] claims”).
3. Eligible for Covered Business Method
Patent Review
Having determined that the challenged patent
claims a method or corresponding apparatus for
performing data processing or other operations used
in the practice, administration, or management of a
financial product or service and does not fall within
the exception for technological inventions, we
determine that the challenged patent is eligible for a
covered business method patent review
C. Asserted Ground that Claims 1–20 Are
Unpatentable Under § 101
Petitioner asserts each of claims 1–20 is
unpatentable for being directed to patent-ineligible
subject matter under 35 U.S.C. § 101. Pet. 43–67.
Petitioner supports its contentions with citations to
the Declaration of Dr. Conte (Ex. 1007).
1. Principles of Law
A patent may be obtained for “any new and useful
process, machine, manufacture, or composition of

100a
matter, or any new and useful improvement thereof.”
35 U.S.C. § 101. The Supreme Court has held that this
statutory provision contains an important implicit
exception: laws of nature, natural phenomena, and
abstract ideas are not patentable. Alice Corp. Pty. Ltd.
v. CLS Bank Int’l, 134 S. Ct. 2347, 2354 (2014);
Gottschalk v. Benson, 409 U.S. 63, 67 (1972)
(“Phenomena of nature, though just discovered,
mental processes, and abstract intellectual concepts
are not patentable, as they are the basic tools of
scientific and technological work.”). Notwithstanding
that a law of nature or an abstract idea, by itself, is
not patentable, the practical application of these
concepts may be deserving of patent protection. Mayo
Collaborative Servs. v. Prometheus Labs., Inc., 566
U.S. 66, 72 (2012).
In Alice, the Supreme Court reaffirmed the
framework set forth previously in Mayo “for
distinguishing patents that claim laws of nature,
natural phenomena, and abstract ideas from those
that claim patent-eligible applications of those
concepts.” Alice, 134 S. Ct. at 2355. The first step in
the analysis is to “determine whether the claims at
issue are directed to one of those patent-ineligible
concepts.” Id. If the claims are directed to a patentineligible concept, the second step in the analysis is to
consider the elements of the claims “individually and
‘as an ordered combination’ to determine whether the
additional elements [that] ‘transform the nature of
the claim’ into a patent-eligible application.” Id.
(quoting Mayo, 566 U.S. at 77). In other words, the
second step is to “search for an ‘inventive concept’—

101a
i.e., an element or combination of elements that is
‘sufficient to ensure that the patent in practice
amounts to significantly more than a patent upon the
[ineligible concept] itself.’” Id. (quoting Mayo, 566 U.S.
at 71–72) (alterations in original).
Noting that the two stages involve “overlapping
scrutiny of the content of the claims,” the Federal
Circuit has described “the first-stage inquiry as
looking at the ‘focus’ of the claims, their ‘character as
a whole,’ and the second-stage inquiry (where
reached) as looking more precisely at what the claim
elements add—specifically, whether, in the Supreme
Court’s terms, they identify an ‘inventive concept’ in
the application of the ineligible matter to which (by
assumption at stage two) the claim is directed.”
Electric Power Grp, LLC v. Alstom S.A., 830 F.3d
1350, 1353 (Fed. Cir. 2016).
Furthermore, the prohibition against patenting
an abstract idea “cannot be circumvented by
attempting to limit the use of the formula to a
particular technological environment or adding
insignificant postsolution activity.” Bilski v. Kappos,
561 U.S. 593, 610–11 (2010) (citation and internal
quotation marks omitted); see Electric Power, 830 F.3d
at 1355 (“[L]imiting the claims to the particular
technological environment of power-grid monitoring
is, without more, insufficient to transform them into
patent-eligible applications of the abstract idea at
their core.”).

102a
2. Step 1 — Whether the Claims Are Directed to an
Abstract Idea
In determining whether a method or process claim
recites an abstract idea, we must examine the claim
as a whole. Alice, 134 S. Ct. at 2355 n.3. Petitioner
submits that claim 1 is representative. Pet. 46. More
specifically, Petitioner asserts that claim 1, as a
whole, recites steps directed to collecting and storing
financial transaction information, comparing received
financial transaction information against the stored
information, and notifying the parties of any matches
or mismatches between the sets of financial
transaction information. Id. (citing Ex. 1001, 28:39–
29:8 (claim 1)). Petitioner contends that independent
claims 8 and 15 recite substantially identical
corresponding limitations, but add the step of
providing a computer having a database. Id.
Petitioner further asserts that the claims are
“directed towards the abstract idea of financial
transaction fraud or error detection, a fundamental
economic practice,” for “the abstract idea of collecting
and analyzing information and presenting the
results—simple steps that can be performed in the
human mind or by a human using a pen and paper.”
Id. at 45.
We agree with Petitioner that claims 1–20 are
drawn to an abstract idea. Specifically, we agree with
Petitioner that the claims of the challenged patent are
directed to collecting and analyzing information for
financial transaction fraud or error detection. We note
that Patent Owner does not dispute that claim 1 is
representative or offer arguments directed specifically

103a
at claims 8 or 15. We agree with Petitioner that claim
1 is representative, and treat it as such.
For example, beginning with independent claim 1,
the only specific items recited are a computer, a
database, a point of sale terminal, and a portable
electronic device. Ex. 1001, 28:39–29:8. The
remainder of the claim is simply a method of collecting
and analyzing information. As discussed above, the
claimed method steps include (i) “receiving . . . a first
record,” (ii) “storing in a database ... said first record
. . .,” (iii) “receiving . . . a second record . . .,” (iv) where
each of the first and second records have at least two
parameters in common, (v) “determining . . . when
there is a match” between at least two of the
parameters in the first and second records, (vi)
“sending a notification to said payee bank . . . with
authorization to process said electronic financial
transaction when said parameters match,” and (vii)
“sending a notification to said payee bank . . . to not
process said electronic financial transaction when
said parameters do not match.” Id. at 28:40–29:8.
Thus, besides providing conventional computer
technology in the form of computer, a database, a
point of sale terminal, and a portable electronic
device—all performing nothing more than their
typical ordinary functions, the method consists of
collecting, storing, analyzing, and transmitting
information. We agree with Petitioner that claims 8
and 15 have similar limitations.
The specification reinforces the focus of claims 1,
8, and 15 on collecting and analyzing information:
“The present invention relates to a Universal Positive

104a
Pay Database method, system, and/or computer
useable medium to reduce check fraud and verify
checks, other financial instruments and documents.”
Ex. 1001, 1:22–25. According to the specification,
“[t]he present invention” includes a “UPPD database
. . . configured to store thereon transaction records
associated with financial transactions associated with
customers of the UPPD database.” Id. at 5:29–34.
Moreover, the specification explains that “[a]
particular financial transaction is initiated between a
payer and a payee by providing parameters associated
with the particular financial transaction to the UPPD
database.” Id. at 5:36–38. In addition, the
specification states that “[a] correspondence
determination is made between the parameters
associated with the particular financial transaction
. . . and the parameters associated with the particular
financial transaction provided to the UPPD database
to initiate the particular financial transaction.” Id. at
5:43–48. The participants in the financial transaction
clearing process “are able to access the
correspondence determination at every point along a
financial transaction clearing process.” Id. at 5:51–53.
Moreover, we are persuaded that the idea of
reconciling transaction information is a well-known,
routine economic practice commonplace in the
financial services industry and is fundamentally
abstract. Indeed, the specification further explains
that the idea of reconciling financial information was
a well-known, routine business practice commonplace
in the financial industry. See, e.g., id. at 1:57–60, 2:4–
14, 3:34–42, 3:47–58, 3:59–65.

105a
We find this case indistinguishable from a number
of cases that have found storing, displaying, and
analyzing data, such as for loan application
processing and fraud detection, to be abstract ideas.
See Credit Acceptance Corp. v. Westlake Servs., 859
F.3d 1044, 1054–57 (Fed. Cir. 2017) (holding “system
for maintaining a database of information about the
items in a dealer’s inventory, obtaining financial
information about a customer from a user, combining
these two sources of information to create a financing
package for each of the inventoried items, and
presenting the financing packages to the user” to be
abstract); Intellectual Ventures I LLC v. Capital One
Fin. Corp., 850 F.3d 1332, 1340 (Fed. Cir. 2017)
(finding claimed invention is directed to the abstract
concept of collecting, displaying, and manipulating
data of particular documents not patent eligible);
FairWarning IP, LLC v. Iatric Sys., Inc., 839 F.3d
1089, 1093–94 (Fed. Cir. 2016) (holding that claims
directed to “collecting and analyzing information to
detect misuse and notifying a user when misuse is
detected” are abstract); Electric Power, 830 F.3d at
1354 (“[M]erely presenting the results of abstract
processes of collecting and analyzing information,
without more (such as identifying a particular tool for
presentation), is abstract as an ancillary part of such
collection and analysis.”); Mortg. Grader, Inc. v. First
Choice Loan Servs. Inc., 811 F.3d 1314, 1324 (Fed. Cir.
2016) (holding that claims are abstract where they
“recite nothing more than the collection of information
to generate a ‘credit grading’ and to facilitate
anonymous loan shopping”); Content Extraction &
Transmission LLC v. Wells Fargo Bank, Nat’l Ass’n,

106a
776 F.3d 1343, 1347 (Fed. Cir. 2014) (identifying “the
abstract idea of 1) collecting data, 2) recognizing
certain data within the collected data set, and 3)
storing that recognized data in a memory”);
Intellectual Ventures I LLC v. Capital One Bank
(USA), 792 F.3d 1363, 1367–69 (Fed. Cir. 2015)
(determining claims adding generic computer
components to financial budgeting not patent
eligible); Accenture Global Servs., GmbH v. Guidewire
Software, Inc., 728 F.3d 1336, 1346 (Fed. Cir. 2013)
(generating tasks in an insurance organization);
Dealertrack, Inc. v. Huber, 674 F.3d 1315, 1333–34
(Fed. Cir. 2012) (holding that a “computer-aided”
method for “processing information through a
clearinghouse” for car loan applications is patent
ineligible).
Patent Owner’s arguments to the contrary do not
persuade us otherwise. Patent Owner argues that we
missed “key components of the invention,” including
“the timing, speed and accuracy of the universal
matching of data, the authentication and settlement
of the transaction and the notification mechanisms
which are significant in the patented invention.” PO
Resp. 17. However, we do not discern any limitations
in the claims, nor does Patent Owner identify them,
related to timing, speed, or accuracy or even a
particular “mechanism” for notification. To the extent
Patent Owner contends that computerized methods
are faster and more accurate and capable of sending
notifications, the same is true of any computerized
method, which has been clearly held not sufficient to

107a
take an otherwise abstract method out of the realm of
abstract ideas.
Patent Owner attempts to argue that this case is
similar to recent Federal Circuit cases finding claims
related to improvements in computer functionality to
be patent eligible, such as, Enfish, LLC v. Microsoft
Corp., 822 F.3d 1327 (Fed. Cir. 2016), Trading
Technologies International, Inc. v. CQG, Inc., 675 F.
App’x 1001 (Fed. Cir. 2017) (non-precedential), McRO,
Inc. v. Bandai, Namco Games America Inc., 837 F.3d
1299 (Fed. Cir. 2016), and Amdocs (Israel) Ltd. v.
Openet Telecom, Inc., 841 F.3d 1288 (Fed. Cir. 2016).
Specifically, Patent Owner contends that “the ’840
patent discloses a technical solution which embodies
a new and unique system” for various entities “to
present a checking-account payment to a 3rd party
through a universal system which vastly improves the
accuracy and efficiency of a payment clearing
process.” PO Resp. 18. As the court explained in
Electric Power Group, Enfish
relied on the distinction made in Alice between,
on
one
hand,
computer-functionality
improvements, and, on the other, uses of
existing computers as tools in aid of processes
focused on “abstract ideas” (in Alice, as in so
many other § 101 cases, the abstract ideas
being the creation and manipulation of legal
obligations such as contracts involved in
fundamental economic practices).
Elec. Power Grp., 830 F.3d at 1354. The court in
Electric Power Group went on to explain that in

108a
Enfish, “the claims at issue focused not on asserted
advances in uses to which existing computer
capabilities could be put, but on a specific
improvement—a particular database technique—in
how computers could carry out one of their basic
functions of storage and retrieval of data.” Id. With
those distinctions in mind, it becomes apparent that
the claims of the ’840 patent fall on the abstract side
of divide of using a computer as a tool exemplified by
Electric Power Group, and not the non-abstract
improvement in computer functionality exemplified
by Enfish. In this case, there is no improvement in the
operation of the computer. Instead, the computer is
used as a tool to automate and improve an existing
process—financial transaction clearing. The cases
cited by Patent Owner—McRO, Amdocs, and Trading
Technologies—are similar to Enfish, and suggest a
similar result.
In McRO, the claims were directed to an
“improvement . . . allowing computers to produce
‘accurate and realistic lip synchronization and facial
expressions in animated characters’ that previously
could only be produced by human animators.” 837
F.3d at 1313. The invention realized this
improvement “through ‘the use of rules, rather than
artists, to set the morph weights and transitions
between phonemes.’” Id. The claims were deemed
patent eligible because “the automation goes beyond
merely ‘organizing [existing] information into a new
form’ or carrying out a fundamental economic
practice”; “[t]he claimed process uses a combined
order of specific rules that renders information into a

109a
specific format that is then used and applied to create
desired results: a sequence of synchronized, animated
characters.” Id. at 1315. In contrast, the claims here
do not employ a specific set of rules, but instead recite
a series of conventional steps—collecting, storing,
analyzing, and sending information—to be performed
in using conventional computer technologies. But
“[c]laims directed to generalized steps to be performed
on a computer using conventional computer activity
are not patent eligible.” Two-Way Media Ltd. v.
Comcast Cable Commc’ns, LLC, 874 F.3d 1329, 1337
(Fed. Cir. 2017) (citing Internet Patents Corp. v. Active
Network, Inc., 790 F.3d 1343, 1348–49 (Fed. Cir.
2015)).
As for Amdocs, Patent Owner quotes extensively
from Judge Reyna’s dissenting opinion, but the
majority opinion is of no help to Patent Owner. The
majority opinion based its finding of on Step 2 of Alice.
Amdocs, 841 F.3d at 1300. Thus, it is not a basis for
finding the claims not directed to an abstract idea.
With respect to Trading Technologies, again, the
court found the claims there, which were directed to
improvements in existing graphical user interfaces,
required “a specific, structured graphical user
interface paired with a prescribed functionality
directly related to the graphical user interface’s
structure that is addressed to and resolves a
specifically identified problem in the prior state of the
art.” 675 F. App’x at 1004. No such specific
improvement in computer functionality is present
here.

110a
Finally, Patent Owner argues that the claims at
issue here are similar to claims in U.S. Bancorp v.
Solutran, Inc., Case CBM2014-00076, slip op. at 13
(PTAB Aug. 7, 2014) (Paper 16), where the Board
denied institution of a covered business method
review. PO Resp. 22–25. We disagree. In Solutran, the
Board denied institution concluding that the
Petitioner had not shown that claims directed to a
physical process of processing paper checks was not
abstract. See Solutran, at 13. “It was significant to the
Board’s § 101 analysis in Solutran that the claim was
for ‘a method of processing paper checks, which is
more akin to a physical process than an abstract
idea.’” Care N’ Care Ins. Co., Inc. v. Integrated Claims
Sys., LLC, Case CBM2015-00064, slip op. at 20 (PTAB
June 21, 2016) (Paper 24). Here, in contrast, the ’840
patent claims are directed to a computer-implemented
method for detecting fraud in financial transactions—
an electronic process, not a physical process. Thus, the
reasoning of Solutran does not apply here.
The dependent claims specify: (1) what financial
information may be stored in a database (claims 2, 4,
10, and 17), (2) various well-known financial
transaction-types that may be used with method
(claims 3, 9, and 16), and (3) variations of the
processing steps recited in the independent claims
(claims 5–7, 11–14, and 18–20). Petitioner asserts,
and we agree, that none of these dependent claims add
anything that would change the conclusion that the
claims are directed to an abstract idea. See Pet. 49–
51.

111a
In view of the foregoing, we determine that
Petitioner has shown, by a preponderance of the
evidence, that claims 1–20 of the challenged patent
are directed to a patent-ineligible abstract idea.
3. Step 2 — Whether the Challenged Claims
Include Limitations that Represent
Inventive Concepts
We turn to the second step of the Alice inquiry “and
scrutinize the claim elements more microscopically”
for additional elements that can “transform the
nature of the claim” into a patent-eligible application
of an abstract idea. Electric Power, 830 F.3d at 1353–
54. That is, we determine whether the claims include
an “inventive concept,” i.e., an element or combination
of elements sufficient to ensure that the patent in
practice amounts to significantly more than a patent
on the abstract idea itself. Alice, 134 S. Ct. at 2357.
The relevant inquiry here is whether “additional
substantive limitations . . . narrow, confine, or
otherwise tie down the claim so that, in practical
terms, it does not cover the full abstract idea itself.”
Accenture, 728 F.3d at 1341 (internal quotations and
citation omitted).
Further scrutinizing the recited system and
method, Petitioner asserts, and we agree, there is
nothing that appears to transform the nature of the
claims into patent-eligible applications of an abstract
idea. Pet. 57–65.
Patent Owner argues that the claims satisfy Step
2 of the Alice inquiry, because “[c]learing, processing
and settling a check payment generally is much more

112a
than the concept of storing information and
presenting it as it involves many factors and steps for
the start to finish process.” PO Resp. 29. Patent
Owner asserts that it “involves the transfer of
currency in commerce,” and that this result “does not
just happen by the retrieval, collection and storage of
data.” Id. Patent Owner contends that the ’840 patent
is directed to a “unique system” that uses “disparate
databases accessible from multiple data entry points”
and “computerized systems with multi-factor
authentication to gain a more efficient, more accurate
system and with the result being faster, more secure
payments by utilizing these systems.” Id. at 30.
Patent Owner argues that Petitioner failed to analyze
the claims as an “an ordered combination,” as
required. Id. at 31. In particular, Patent Owner
asserts that considered as a whole, “the claims are
directed to particular methods through the use of
process to produce a more accurate and timely
financial transaction clearing process and settlement,
and therefore meets the tests for inventive concept
under Step 2 of the Alice tests by providing limitations
that represent such inventive concepts.” Id. at 31–32.
Patent Owner asserts that “the Claim limitations of
the ’840 Patent go well beyond a mere technological
environment, but actually combine to create a
technological improvement to financial transaction
and paper check methods of the prior art.” Id. at 32.
Patent Owner further cites various portions of the
specification that it contends provide examples of
“certain non-abstract, inventive concepts which are
directed to technological improvements.” Id. at 32–35

113a
(citing Ex. 1001, 20:41–58, 22:30–67, 23:1–11, Figs.
13, 14, 26E).
Patent Owner further responds that Petitioner
merely cites references to “disparate and unrelated
elements,” but none of the references taken
individually or in combination teach or suggest all of
the limitations claimed in the ’840 patent. PO Resp.
38–39. In other words, Patent Owner argues that the
claims ’840 patent satisfy Step 2 of the Alice inquiry
because they are novel and non-obvious. Id. at 35–37,
39.
We agree with Petitioner that the challenged
claims fail to recite sufficient inventive concept to
satisfy Step 2 of the Alice inquiry. First, the only
recited technology in the claims of the ’840 patent is a
“computer,” a “database,” a “processor,” an “area of
main memory,” a “storage device,” a “network device,”
a “point-of-sale terminal,” a “portable electronic
device,” and a “notification.” Nothing in the claims,
understood in light of the specification, appears to
require
anything
more
than
off-the-shelf,
conventional computer, storage, network, and display
technology for collecting the data related to financial
transactions, and displaying the data to the users.
The Federal Circuit has repeatedly held that such
invocations of computers and networks that are not
even arguably inventive are “insufficient to pass the
test of an inventive concept in the application” of an
abstract idea. buySAFE, Inc. v. Google, Inc., 765 F.3d
1350, 1353 (Fed. Cir. 2014); see, e.g., FairWarning,
839 F.3d at 1096 (holding that an “interface” and
“microprocessor” are generic computer elements that

114a
do not transform an otherwise abstract idea into
patent-eligible subject matter); Mortgage Grader, Inc.
v. First Choice Loan Servs. Inc., 811 F.3d 1314, 1324–
25 (Fed. Cir. 2016) (holding that generic computer
components, such as an “interface,” “network,” and
“database,” fail to satisfy the inventive concept
requirement); Intellectual Ventures I, 792 F.3d at
1368 (“The recited elements, e.g., a database, a user
profile . . . and a communication medium, are all
generic computer elements.”); Content Extraction, 776
F.3d at 1347–48.
Second, even limiting the claims to the particular
technological environment of financial transaction
processing, without more, would appear to be
insufficient to transform the claims into patenteligible applications of the abstract idea. See Electric
Power, 830 F.3d at 1354 (“[L]imiting the claims to the
particular technological environment of power-grid
monitoring is, without more, insufficient to transform
them into patent-eligible applications of the abstract
idea at their core.”) (citing Alice, 134 S. Ct. at 2358;
Mayo, 566 U.S. at 71–72; Bilski, 561 U.S. at 610–11;
Diamond v. Diehr, 450 U.S. 175, 191 (1981);
buySAFE, 765 F.3d at 1355).
The specification acknowledges that the elements
are well known. See Ex. 1001, 9:30–47; see also Ex.
1007 ¶¶ 39–41 (explaining how the technologies are
conventional and generic).
Patent Owner’s arguments do not persuade us
otherwise. To begin with, claim 1, which is the only
claim that Patent Owner argues, does not recite all

115a
the steps of the check clearing process, nor does it
recite the transfer of currency. Thus, Patent Owner’s
arguments regarding the complexity of the check
clearing and currency transfer process have
insufficient grounding in the claims, and, thus, are not
persuasive. Instead, as we discussed above in our Step
1 analysis, the claims are merely directed to
collecting, storing, analyzing, and outputting data.
We also are unpersuaded that the ’840 patent system
are directed to “disparate databases” and “multifactor authentication” to achieve “a more efficient,
more accurate system” or “faster, more secure
payments.” PO Resp. 30. In particular, we determine
not only Patent Owner has failed to point to where
these concepts exist in the challenged claims, but, as
best as we can ascertain, none of these concepts are
recited anywhere in the claims. See RecogniCorp, LLC
v. Nintendo Co., 855 F.3d 1322, 1327 (Fed. Cir. 2017)
(“To save a patent at step two, an inventive concept
must be evident in the claims.”). Patent Owner’s
citations to the specification (PO Resp. 32–37), suffer
from the same problem. Namely, the problem that
“the claim—as opposed to something purportedly
described in the specification—is missing an inventive
concept.” Two-Way Media, Ltd. v. Comcast Cable
Commc’ns, LLC, 874 F.3d 1329, 1338 (Fed. Cir. 2017);
see also Secured Mail Sols. LLC v. Universal Wilde,
Inc., 873 F.3d 905, 912 (Fed. Cir. 2017) (finding
“sender-generated identifier” was not an “inventive
concept” because “[t]he claim language does not
provide any specific showing of what is inventive
about the identifier or about the technology used to
generate and process it”).

116a
As for Patent Owner’s argument that Petitioner
failed consider the claims as an ordered combination,
we disagree. Instead, we agree with Petitioner that
the claims only recite a logical sequence of steps for
receiving and storing information, analyzing that
information, and sending a notification upon
completion of that analysis. At most, the claims
require that these processes be executed on a generic
computer, but this is insufficient. See FairWarning,
839 F.3d at 1097. Indeed, Patent Owner does not
identify any particular inventive concept in the
ordered combination, and we fail to discern any. See
Credit Acceptance, 859 F.3d at 1057.
Finally, as for Patent Owner’s contention that the
claims are novel and non-obvious, that is not the same
as saying that they have inventive concept. See
Synopsys, Inc. v. Mentor Graphics Corp., 839 F.3d
1138, 1151 (Fed. Cir. 2016) (explaining that, although
some overlap occurs, the analysis under § 101 differs
from that under the other patent-validity statutes).
Thus, the fact that the claims may be novel or nonobvious does not necessarily render them patent
eligible. See Bilski, 561 U.S. at 610–11. As we explain
above, we determine that there is nothing in the
claims that elevates the claims beyond an abstract
idea, so we are not persuaded by Patent Owner’s
argument that the method as whole may be novel or
non-obvious.
Based on our review, we further determine that
the dependent claims add nothing that would
transform the claims into patent-eligible subject
matter either. See Pet. 65–67.

117a
In view of the foregoing, based on the record before
us, we determine that, when considered individually
and “as an ordered combination,” the claim elements
appear to do no more than apply the abstract concept
of collecting, storing, analyzing, and communicating
information to reconcile financial information, and do
not appear to recite anything in a manner sufficient
to transform that abstract idea into a patent-eligible
invention. See Alice, 134 S. Ct. at 2359–60 (citing
Mayo, 566 U.S. at 77–79). This weighs in favor of
finding claims 1–20 are a patent-ineligible abstract
idea.
4. Conclusion
Having considered the information and arguments
of record, we determine that Petitioner has
demonstrated, by a preponderance of the evidence,
that claims 1–20 are directed to patent-ineligible
subject matter under 35 U.S.C. § 101.
III. PATENT OWNER’S CONTINGENT
MOTION TO AMEND
In a covered business method review, amended
claims are not added to a patent as of right, but rather
must be proposed as a part of a motion to amend. 35
U.S.C. § 326(d). We must assess the patentability of
the proposed substitute claims “without placing the
burden of persuasion on the patent owner.” Aqua
Prods., Inc. v. Matal, 872 F.3d 1290, 1296 (Fed. Cir.
2017); see also W. Digital Corp. v. SPEX Techs., Inc.,
Case IPR2018-00082, slip op. at 3–4 (PTAB Apr. 25,
2018) (Paper 13) (informative). Thus, we determine
whether the preponderance of the evidence based on

118a
the entirety of the record shows that the substitute
claims are unpatentable. Patent Owner’s proposed
substitute claims still must meet the statutory
requirements of 35 U.S.C. § 326(d) and the regulatory
requirements of 37 C.F.R. § 42.221. See “Guidance on
Motions to Amend in view of Aqua Products” (Nov. 21,
2017).2 Accordingly, Patent Owner must demonstrate
(1) the amendment responds to a ground of
unpatentability involved in the review; (2) the
amendment does not seek to enlarge the scope of the
claims of the patent or introduce new subject matter;
(3) the amendment proposes a reasonable number of
substitute claims; and (4) the original disclosure sets
forth written description support for each proposed
claim. See 35 U.S.C. § 326(d)(2), (3); 37 C.F.R. §
42.221.
A. Illustrative Proposed Amended Claims
Patent Owner proposes amended claims 21–40,
which correspond to original claims 1–20. Patent
Owner proposes amending independent claims 1, 8,
and 15, and then correcting the corresponding
dependencies for dependent claims 2–7, 9–14, and 16–
20, which depend from claims 1, 8, and 15,
respectively. In particular, claims 21, 28, and 35 are
the amended versions of claims 1, 8, and 15,
respectively. Claims 21, 28, and 35 are representative
of the proposed amended claims, and are reproduced

The guidance memorandum is publicly available at
https://www.uspto.gov/sites/default/files/documents/guidance_o
n_motions_to_amend_11_2017.pdf
2

119a
below (showing deletions and additions to the original
claims).
21. A computer implemented method for
detecting fraud in an electronic financial
transaction at intermediate points during a
payment clearing process of said electronic
financial transactions transaction, comprising
a computerized system which comprises a
Universal Positive Pay Database, said method
comprising:
receiving through one of a payer, a payer bank,
an online account, and a third party, a first
record of an electronic financial transaction in
Positive Pay File Format from at least one of
the following group:
a payer, a point-of-sale terminal, an online
account, and a portable electronic device;
storing on a computer usable medium in a
database said Universal Positive Pay Database
a first record in Issue File Format which is
converted from and coincides with said Positive
Pay File Format, said Universal Positive Pay
Database contemporaneously accessible upon
such storage to each party to said payment
clearing process of said electronic financial
transaction, said first record of said electronic
financial transaction, said first record
comprising more than one parameter;
receiving at said database Universal Positive

120a
Pay Database in a file format coinciding with
said Issue File Format at least a second record
of said electronic financial transaction from one
or more of a payee bank and any other party to
said payment clearing process as said electronic
transaction moves along said payment clearing
process, wherein said second record comprises
at least one parameter which is the same as
said more than one parameter of said first
record;
each of said first and second records received at
said Universal Positive Pay Database comprise
at least two of the same said more than one
parameters;
automatically determining by a said computer
when there is a match between at least two of
said parameters of said second record of said
first financial transaction received at said
database and the same parameters of said first
record of said financial transaction stored in
said database, and wherein any party to said
payment clearing process is capable of verifying
said parameters at each point along said
financial transaction payment clearing process;
dynamically sending via at least one of said a
point-of-sale terminal and said portable
electronic device a notification to said payee
bank participant with authorization to process
said electronic financial transaction when said
parameters match; and

121a
dynamically sending via at least one of said a
point-of-sale terminal and said portable
electronic device a notification to said payee
bank participant to not process said electronic
financial transaction when said parameters do
not match; and3
in response to said notification, either
dynamically
or
selectively
via
said
computerized system permitting or disallowing
said transaction to proceed through said
payment clearance process.
Mot. 4–5.
28. A computer implemented method for
detecting fraud in a check clearing process an
electronic
check
clearing
process,
at
intermediate points during said check clearing
process of said electronic financial transaction,
comprising a computerized system which
comprises a Universal Positive Pay Database,
said method comprising:
providing a computer having a access to said
Universal Positive Pay Database accessible by
each participant to said check clearing process;
receiving at said computer computerized
system a first record of a check in Positive Pay
There is no “and” following this clause in original claim 1,
so it is unclear what Patent Owner intends. We reproduce it
exactly as Patent Owner has written it in the Motion.
3

122a
File Format from a payer including check
register information;
storing in said database storing in said
Universal Positive Pay Database in Issue File
Format, which coincides with said Positive Pay
File Format, said first record of said check
received by said payer, said first record
comprising at least two of the following
parameters:
a check number, a date issued, a payee, a
routing number, an account number, and an
amount;
providing a network interface to said Universal
Positive Pay Database accessed by one or more
participants in said check clearing process
selected from the group comprising:
a payee of said check, a payee bank, a payer
bank, banking institutions intermediate said
payee bank and said payer bank, a clearing
bank, a Federal Reserve Bank, and a third
party processor;
enabling said one or more participants in said
check clearing process to electronically
communicate separately with said Universal
Positive Pay Database via said network
interface as said check moves along said check
clearing process;
receiving at said Universal Positive Pay

123a
Database from said at least one or more
participants in said check clearing process a
second record in a file format coinciding with
said Issue File Format of said check, said
second record comprising at least two of the
following parameters:
a check number, a date issued, a payee, a
routing number, an account number, and an
amount, and wherein any participant in said
check clearing process is capable of verifying
said parameters at each point along said check
clearing process;
determining by said computer computerized
system
correspondence
between
said
parameters of said first record and said
parameters of said second record of said check;
providing an a dynamic electronic notification
to said participant via said interface, wherein
said notification includes results of said
correspondence determination;
wherein said notification informs said
participant via said interface to process said
financial transaction when said first and
second records correspond; and
wherein said notification informs said
participant via said interface to not process said
financial transaction when said first and
second records do not correspond; and

124a
in response to said notification, either
dynamically
or
selectively
via
said
computerized system permitting or disallowing
said transaction to proceed through said
payment clearance process.
Mot. 6-8.
35. A computer implemented method for
detecting errors in processing electronic
financial transactions at intermediate points
during a payment clearing process of said
electronic financial transactions, comprising a
computerized system which comprises a
Universal Positive Pay Database, said method
comprising:
providing at least one computer computerized
system comprising said Universal Positive Pay
Database having a processor, an area of main
memory, and a storage device having a
database, wherein said database is accessible
by each participant involved in said processing
of said financial transactions;
storing in said database in Issue File Format
which coincides with a Positive Pay File Format
records of said financial transactions relating to
payments, comprising wherein each financial
transaction comprises at least a first record of
a first said financial transaction received from
at least one participant to said processing of
said financial transaction in said Positive Pay
File Format, said first record received from a

125a
source selected from the following group:
a payer, a point of sale terminal, an online
account, and a portable electronic device, each
financial transaction record including more
than one parameter;
receiving at said computer computerized
system a second record of said first financial
transaction in a format coinciding with said
Issue File Format from a bank of first deposit
as said first financial transaction moves
through said error detection process, said
second record including at least some of said
more than one parameters that are in said first
record of said first financial transaction;
determining by said computer computerized
system whether there is a match between at
least one of said parameters of said second
record of said first financial transaction
received at said computer and one of the same
parameters in said first record of said first
financial transaction stored in said database,
and wherein any participant in said processing
of said financial transaction is capable of
verifying said parameters at each point along
said error detection process;
providing a dynamic notification to said bank of
first deposit with results from said matching of
said parameters of said second record with said
parameters of said first record; and

126a
providing a dynamic notification to said payer
with results from said matching; and
in response to said notification. either
dynamically
or
selectively
via
said
computerized system permitting or disallowing
said transaction to proceed through said
payment clearance process.
Mot. 9–10.
B. Compliance with
the Motion to Amend Requirements
As we explained above, a Motion to Amend must
meet four requirements: (1) the amendment must
respond to a ground of unpatentability involved in the
review; (2) the amendment must not seek to enlarge
the scope of the claims of the patent or introduce new
subject matter; (3) the amendment must propose a
reasonable number of substitute claims; and (4) the
original disclosure must set forth written description
support for each proposed claim. Petitioner does not
dispute, and we agree, that there are a reasonable
number of substitute claims. Petitioner, however,
disputes whether Patent Owner has complied with
the remaining three requirements. Opp. 4–10; Pet.
Sur-Reply 1–3.
We agree with Petitioner that Patent Owner’s
proposed amendment should fail, at least, because it
seeks to introduce new matter. Petitioner identifies
several limitations that it contends are not supported
by the original specification of the ’840 patent. We

127a
agree with Petitioner that these limitations introduce
new matter.
1. “dynamically sending . . . a notification”/“dynamic
electronic notification”/“dynamic notification”
Proposed amended claim 21 recites the step of
“dynamically sending . . . a notification.” Mot. 5.
Proposed amended claims 28 and 35 require
“providing a dynamic notification.” Mot. 8, 10.
Petitioner argues that the addition of the terms
“dynamically” and “dynamic” to the claims introduces
new matter. Opp. 6–8. In response, Patent Owner
argues that “to the extent that ‘new matter’ as the
term is traditionally understood, can be introduced in
an amendment to a claim, Patent Owner has not
introduced any such ‘new matter’ in the contingent
amendments to the original claims.” PO Reply 6.
Instead, Patent Owner asserts that “the contingent
amended claims do not exceed the scope of the original
claims, and in fact, recast without broadening or, at
worst, limit the scope of the original claims.” Id.
Patent Owner contends that “the proposed amended
claims further clarify, narrow and/or limit but, by no
reasonable reading, broaden the claims presented and
therefore do not attempt to add ‘new matter,’
regardless of the definition used for that term.” Id.
Patent Owner argues that “Petitioner attempts to
shift this burden to the Patent Owner,” and that the
amendments only include “additional clarifying
language.” Id. Patent Owner argues that the
amendments “further clarify the novel and nonobvious aspects of the database and file formats of the

128a
financial records which are transformed during the
payment clearing process of the invention.” Id.
Patent Owner misses the point of the “new matter”
objection to these amended claims. As our cases make
clear, “[i]n determining whether claims introduce new
matter, we look to whether the original application
provides adequate written description support for the
claims.” Kapsch TrafficCom IVHS Inc. v. Neology,
Inc., Case IPR2016-01763, slip op. at 47 (PTAB Mar.
20, 2018) (Paper 60). The test for determining
compliance with the written description requirement
is “whether the disclosure of the application [as
originally filed] reasonably conveys to those skilled in
the art that the inventor had possession of the claimed
subject matter as of the filing date.” Ariad Pharms.,
Inc. v. Eli Lilly & Co., 598 F.3d 1336, 1351 (Fed. Cir.
2010) (en banc). Because possession of the claimed
invention is required, “a description that merely
renders the invention obvious does not satisfy the
requirement.” Id. at 1352. Thus, “[i]t is not necessary
that the application describe the claim limitations
exactly, but only so clearly that persons of ordinary
skill in the art will recognize from the disclosure that
appellants invented processes including those
limitations.” In re Wertheim, 541 F.2d 257, 262 (CCPA
1976) (citation omitted).
Going back to the specific claim language, which
consists of various permutations of “dynamic
notification,” the specification of the ’840 patent does
not use the term “dynamically,” and references
“dynamic” only in the context of computer memory.
See Ex. 1001, 9:16–17 (“volatile medium (e.g.,

129a
dynamic RAM (DRAM) . . .)”). Patent Owner cites Ex.
1001, 5:29–6:62 and 22:61–23:4 as supporting these
amendments. However, none of the cited portions
refer to a notification, let alone a notification sent
“dynamically” or a “dynamic notification.” When we
asked Patent Owner’s counsel at the oral hearing
what was meant by “dynamically,” he stated:
MR. GOLDSCHMIDT: And then dynamically
does actually -- it was intended to refer back to
this dynamic RAM that’s supposed to be there
which is it’s merely -- dynamic RAM is
supposed to be – it’s a type of physical memory
which is constantly being refreshed. And so in
order to have a memory that actually is
constantly refreshed, it means that the
information that’s flowing in and out of it, it’s
in and of itself dynamic. So that was the intent
and the reasoning behind that.
JUDGE SAINDON: I guess then what is
dynamically sending? So, I mean, if it had said
automatically, I’d understand.
MR. GOLDSCHMIDT: I don’t disagree with the
reading that way. Yes, it very well could be
automatically also.
JUDGE CHERRY: So there’s more than one
construction? So it could mean -MR. GOLDSCHMIDT: In other words, I believe
you could -- automatically is probably less
restrictive than dynamic. Because if dynamic
changing of a memory cell is something that’s

130a
being constantly refreshed, you could still
automatically refresh a memory, but not
constantly. Okay. It could be longer durations
and things like that and so we very well could
and wouldn’t be opposed to changing that term
to automatically also, but dynamically would be
in this context a more limiting term.
Tr. 67:12–68:5.
We do not agree that the mere disclosure of the
word “dynamic” in the context of a computer memory
provides adequate disclosure to support the concept of
“dynamically” sending notifications or a “dynamic
notification.” Although there is no requirement to set
out the limitations in haec verba, we neither can
discern from the cited passages, nor does Patent
Owner explain, how a person of ordinary skill in the
art would have recognized “dynamically sending” or
“dynamic notifications” from these passages. Indeed,
in the context of the proposed amended claims, it is
unclear what “dynamically” or “dynamic” would
mean. For example, in claim 21, the limitation already
provided sending a notification when the parameters
matched. It is not clear to us how “dynamically” or,
accepting Patent Owner’s proposed construction,
“constantly,” would change that. As for claims 28 and
35, it is the notification itself that is “dynamic,” not
the sending, as in claim 21. There is no disclosure,
either in the cited portions or based on our review of
the remainder of the specification, that the
notification itself would “constantly” change, as
opposed to new notifications being sent.

131a
Given the lack of disclosure, either expressly or
implicitly, in the cited portions of the specification of
“dynamically sending” or “dynamic notifications,” we
agree with Petitioner that Patent Owner has failed to
meet its burden of showing that the proposed
amended claims do not introduce new matter.
2. “in response to said notification, either dynamically
or selectively . . . permitting or disallowing said
transaction to proceed”
In addition to the issues with “dynamically
sending” and “dynamic notification[s]” discussed
above, claims 21, 28, and 35 all require the step of “in
response to said notification, either dynamically or
selectively via said computerized system permitting
or disallowing said transaction to proceed through
said payment clearance process.” Mot. 5, 8, 10. We
agree with Petitioner that there is no written
description support for this limitation. Opp. 6–7. In
particular, there is no support for the limitation that
the permitting or disallowing occur “dynamically or
selectively.” As with the “dynamically sending”
limitation discussed above, there is no disclosure in
the specification of the ’840 patent regarding any
process occurring “dynamically.” As for the term
“selectively,” it does not appear in the specification.
When we asked Patent Owner at the oral hearing
what this term meant, Patent Owner stated:
So, again, we talked about dynamics, so let’s
talk about selective. The selective portion is
allowing — it’s allowing the transaction to be —
to proceed or not to proceed and it can be done

132a
in a selective manner and so —as opposed to
dynamically which would be that it would be
automatically or more routinely done without
any particular selective process.
Tr. 68:9–17. However, the portions of the specification
cited, Ex. 1001, 5:29–6:62 and 22:61–23:4, do not
discuss notifications, they do not discuss permitting or
disallowing a transaction to proceed in response to the
notification, let alone doing so “in a selective manner.”
Thus, for this additional reason, we agree with
Petitioner that Patent Owner has failed to carry its
burden of showing that the claims do not introduce
new matter.
3. Summary
Based on the above and the entirety of the record
before us, we determine that the amendments
proposed in proposed substitute claims 21, 28, and 35
and proposed substitute claims 22–27, 29–34, and 36–
40 depending therefrom, introduce new matter
prohibited under 35 U.S.C. § 326(d) and 37 C.F.R. §
42.221(a)(2)(ii). Patent Owner has not shown, and we
do not find, written description support in the original
disclosure of the ’840 patent for proposed substitute
claims 21, 28, and 35, or proposed substitute claims
22–27, 29–34, and 36–40 depending therefrom.
C. Unpatentability of the Amended Claims
In addition to its failure to meet requirements for
a motion to amend, we determine that Patent Owner’s
Motion to Amend should be denied because Petitioner
has shown by a preponderance of the evidence that the

133a
proposed amended claims are unpatentable as
directed to patent-ineligible subject matter under §
101.
1. Step 1— Whether the Amended Claims Are
Directed to an Abstract Idea
We agree with Petitioner that, like the original
claims, the amended claims are directed to the
abstract idea of financial transaction fraud or error
detection, a fundamental economic practice that is not
patent-eligible under Section 101. See Mot. 4 (“A
computer implemented method for detecting fraud in
an electronic financial transaction at intermediate
points during a payment clearing process of said
electronic financial transaction . . .”); 6 (“A computer
implemented method for detecting fraud in an
electronic check clearing process, at intermediate
points during said check clearing process of said
electronic financial transaction . . .”); 9 (“A computer
implemented method for detecting errors in
processing electronic financial transactions at
intermediate points during a payment clearing
process of said electronic financial transactions . . .”).
We agree with Petitioner that proposed amended
claim 21 is representative and merely recites steps
directed to collecting and storing financial transaction
information (collecting information), comparing
received financial transaction information against the
stored information (analyzing information), notifying
interested parties of any matches or mismatches
between the sets of financial transaction information
(presenting information), and making a decision
whether to proceed based on that determination

134a
(analyzing information). Mot. 4–5. Claims 28 and 35
recite
substantively-identical
corresponding
limitations, adding only the step of providing, or
providing access to, a “Universal Positive Pay
Database.” See Opp. App. A, Claim 28 (“providing
access to said Universal Positive Pay Database”),
Claim 35 (“providing at least one computerized
system comprising said Universal Positive Pay
Database”). Claim 28 also adds a network interface to
the “Universal Positive Pay Database.” See id. at
Claim 28 (“providing a network interface to said
Universal Positive Pay Database”).
As we set out in detail above in our analysis of the
original claims, claims directed to collecting,
analyzing, and presenting information fall “into a
familiar class of claims” that courts have routinely
rejected as being “‘directed to’ a patent-ineligible
concept.” See Elec. Power, 830 F.3d at 1353–54. Patent
Owner’s new limitation directed to “permitting or
disallowing said transaction to proceed through said
payment clearing process” is also abstract, as it
simply recites yet another analysis step. Patent
Owner’s other proposed amendments do not save the
original claims from abstractness. We agree with
Petitioner that clarifying that the financial
transaction is “electronic” is unnecessary, as the
preambles make clear that the claims are directed to
computer-implemented methods.
As for Patent Owner’s addition of Positive Pay File
formats, Issue File formats, and a conversion between
the two, to the extent we understand these
limitations, we determine that converting electronic

135a
data from one format to another is abstract, and the
specification provides no substantive details
concerning these formats that suggest they are
inventive. See Digitech Image Techs., LLC v. Elecs. for
Imaging, Inc., 758 F.3d 1344, 1351 (Fed. Cir. 2014)
(finding that a process of transforming electronic data
into another form is not patent eligible). As for the
limitations
of
“automatically
determining,”
“dynamically sending,” and “dynamic notification,” we
agree with Petitioner that simply automating steps or
making them more efficient does not make a claim
less abstract. See OIP Techs., Inc. v. Amazon.com,
Inc., 788 F.3d 1359, 1363 (Fed. Cir. 2015) (“relying on
a computer to perform routine tasks more quickly or
more accurately is insufficient to render a claim
patent eligible”). Patent Owner’s addition of certain
generic computer components—a Universal Positive
Pay Database, a point-of-sale terminal, and a portable
electronic device (some of which were found in the
dependent claims considered above)—do not make the
claims any less abstract. Moreover, these components
are only recited at the highest level of generality,
without any description or explanation of how the
particular functions are performed. See, e.g., Ex. 1001,
5:29–34 (“[t]he present invention” includes a “UPPD
database . . . configured to store thereon transaction
records associated with financial transactions
associated with customers of the UPPD database”);
9:4–29 (“While the UPPD database 20 is illustrated as
a single database, the UPPD database 20 may be
configured as a plurality of separate or disparate
databases interconnected through a network system
via any number of switches, such as a local area

136a
network (LAN), a wide area network (WAN), an
intranet, an extranet, the Internet, etc. The UPPD
system 10 includes a computer useable medium and a
computer device with a processor . . .”); 10:20–25 (“A
‘transaction instrument’ . . . means . . . a point of sale
(POS) terminal . . .”); 14:53–54 (“These include
computerized devices such as personal computers,
portable laptops and palmtops . . .”); see also Ex. 1007
¶¶ 33–41.
We agree with Petitioner that while the ’840
patent appears to maintain that the claimed system is
an advance over prior art systems, because it
purportedly provides every participant in the
payment clearing process access to the claimed
Universal Positive Pay Database, the ’840 patent does
not recite or disclose any novel way of providing such
“universal” access. Instead, it merely describes that
functionality without any explanation of how to
technologically achieve it. See Ex. 1001, 5:49–53 (“The
customer, payer, payee, payee bank, drawee bank,
and banking institutions intermediate the payee bank
and the drawee bank are able to access the
correspondence determination at every point along a
financial transaction clearing process.”),13:34–41
(“system 10 may be accessed by customers, payers,
payees, payee banks, drawee banks, and banking
institutions intermediate the payee banks and the
drawee banks for issuing and tracking transaction
records associated with financial transactions at
every point along the financial transaction clearing
process . . .), 15:42–45 (“This may be done by logging
onto a web site associated with the UPPD system 10

137a
over the Internet and simply accessing the desired
transaction record in the UPPD database 20.”), 28:24–
26 (“[T]he UPPD system can be accessed . . .”). This is
insufficient to save the claims from abstractness. See
Credit Acceptance, 859 F.3d at 1057 (“Significantly,
the claims do not provide details as to any
nonconventional software for enhancing the financing
process.”); Dealertrack, 674 F.3d at 1333 (finding
claims abstract because the patent did “not specify
how the computer hardware and database are
specially programmed to perform the steps claimed in
the patent”).
Patent Owner merely offers the exact same
arguments, nearly verbatim, that were made in the
Patent Owner Response for the original claims. For
the reasons explained in detail above, we are
unpersuaded by these arguments. Aside from these
changes we have discussed to the independent claims,
Patent Owner has made no substantive changes to the
dependent claims. For the reasons discussed above,
we determine that the limitations of these dependent
claims do not alter this conclusion. In view of the
foregoing, we determine that Petitioner has shown by
a preponderance of the evidence that proposed
amended claims 21–40 are directed to the abstract
idea of collecting and analyzing information for
financial transaction fraud or error detection.
2. Step 2 — Whether the Amended Claims Include
Limitations that Represent Inventive Concepts
We agree with Petitioner that the proposed
amended claims lack sufficient “inventive concept” to

138a
transform the nature of the amended claims into a
patent-eligible application of the abstract idea. The
amended claims’ invocation of a computerized system,
a “Universal Positive Pay Database,” a payer bank, an
online account, a “Positive Pay File Format,” an “Issue
File Format,” a computer usable medium, a point-ofsale terminal, a portable electronic device, and a
dynamic notification adds no inventive concept to the
generally claimed abstract idea of collecting and
analyzing information and presenting the results. See
Intellectual Ventures I, 792 F.3d at 1368 (“The recited
elements, e.g., a database, a user profile . . . and a
communication medium, are all generic computer
elements.”); FairWarning, 839 F.3d at 1096 (holding
that an “interface” and “microprocessor” are generic
computer elements that do not transform an
otherwise abstract idea into patent-eligible subject
matter); Mortgage Grader, Inc., 811 F.3d at 1324–25
(holding that generic computer components, such as
an “interface,” “network,” and “database,” fail to
satisfy the inventive concept requirement). Here, the
claims are merely directed to implementing the
abstract idea on a conventional computer using
conventional computing technologies. See Mot. 4,
Claim 21 (“A computer implemented method for
detecting fraud in an electronic financial . . .
transaction . . .”); id. at 6, Claim 28 (“A computer
implemented method for detecting fraud in . . . an
electronic check clearing process . . .”); id. at 9, Claim
35 (“A computer implemented method for detecting
errors in processing electronic financial transactions
...”). The specification confirms that the claimed
computer device may be any type of computer device

139a
with a processor. See Ex. 1001, 9:30–47. We agree
with Petitioner and its Declarant, Dr. Conte, that the
specification does not provide any substantive
technical details about the computer, beyond that it
may include a processor, an area of main memory for
executing code, a storage device for storing data and
program code, and a bus connecting the processor,
area of main memory, and storage device. See id.; see
also Ex. 1007 ¶ 40. We also agree with Petitioner that
the specification also fails to disclose any
unconventional technical details about the design or
configuration of the “Universal Positive Pay
Database,” Issue File format, or Positive Pay File
format. See Ex. 1001, 5:29–34, 9:4–29, 10:20–25,
14:53–54, 27:27–41; Ex. 1007 ¶¶ 39–41.
We also agree with Petitioner that the
functionality recited in the amended claims is equally
conventional and generic: a computer receives and
stores information in a database, determines whether
there is a match between two records of received
information, provides a notification of its
determination, and makes a decision based on that
determination. See Claims 21, 28, 35. Claim 28 also
recites the computer enables access to the UPPD
database via the network interface. See id. at Claim
28. We agree with Petitioner that there is nothing
inventive about a computer receiving information,
storing information, providing access to information,
analyzing the information to determine whether there
is a match between records, sending a notification of
its determination, and making further decisions based
on that determination. See buySAFE, 765 F.3d at

140a
1355 (“That a computer receives and sends the
information over a network–with no further
specification—is not even arguably inventive.”); see
also Elec. Power, 830 F.3d at 1355 (“Nothing in the
claims, understood in light of the specification,
requires
anything
other
than
off-the-shelf,
conventional computer, network, and display
technology for gathering, sending, and presenting the
desired information.”).
Thus, we agree with Petitioner that the amended
claims recite generic computer elements for
performing generic computer tasks; the claims
“consist[ ] of nothing more tha[n] the entry of data into
a computer database, the breakdown and
organization of that entered data according to some
criteria, . . . and the transmission of information
derived from that entered data to a computer user, all
through the use of conventional computer
components, such as a database and processors,
operating in a conventional manner.” Intellectual
Ventures I, 792 F.3d at 1371 (quoting district court).
“These elements do not confer patent eligibility.” Id.
Nor does the ordered combination of the steps of
collecting and analyzing information and presenting
the results similarly does not present an inventive
concept. Here, we agree with Petitioner that the
amended claims recite the most logical sequence of
steps for receiving and storing information, analyzing
that information, sending a notification upon
completion of that analysis, and making further
decisions based on that notification. This is
insufficient to confer patent eligibility. See TDE

141a
Petroleum Data Sols., Inc. v. AKM Enter., Inc., 657 F.
App’x 991, 992–93 (Fed. Cir. 2016) (non-precedential)
(finding that the ordered combination of storing state
values, receiving sensor data, validating data, and
determining the state of the oil well using that
information was “the most ordinary of steps in data
analysis and [that they] are recited in the ordinary
order”).
Patent Owner merely offers the exact same
arguments, nearly verbatim, that were made in the
Patent Owner Response regarding the original claims.
For the reasons explained in detail above, we do not
find those arguments persuasive. Aside from the
changes we have discussed to the independent claims,
Patent Owner has made no substantive changes to the
dependent claims. For the reasons discussed above,
we determine that the limitations of these dependent
claims do not alter this conclusion. In view of the
foregoing, we determine that Petitioner has shown by
a preponderance of the evidence that proposed
amended claims 21–40 do not recite any inventive
concept sufficient to transform the nature of the
proposed amended claims into a patent eligible
invention.
3. Summary
Having considered the information and arguments
of record, we determine that Petitioner has
demonstrated, by a preponderance of the evidence,
that proposed amended claims 21–40 are directed to
patent-ineligible subject matter under 35 U.S.C. §
101.

142a
IV. CONCLUSION
We have reviewed the information in the Petition
as well as Patent Owner’s arguments and evidence.
With the record now developed fully, we have
determined that Petitioner has shown by a
preponderance of the evidence that claims 1–20 are
directed to patent-ineligible subject matter. We
further deny Patent Owner’s Motion to Amend
because the proposed amended claims add new
matter, and because Petitioner has shown, by a
preponderance of the evidence, that the proposed
amended claims are unpatentable.
V. ORDER
For the foregoing reasons, it is
ORDERED that, based on a preponderance of the
evidence, claims 1–20 of the ’840 patent are held
unpatentable;
FURTHER ORDERED that Patent Owner’s
Motion to Amend is denied; and
FURTHER ORDERED that, because this is a
Final Written Decision, parties to this proceeding
seeking judicial review of it must comply with the
notice and service requirements of 37 C.F.R. § 90.2.

143a

For PETITIONER:
Natasha H. Moffitt
Holmes J. Hawkins III
Abby L. Parsons
KING & SPALDING LLP
nmoffitt@kslaw.com
hhawkins@kslaw.com
aparsons@kslaw.com
For PATENT OWNER:
John W. Goldschmidt, Jr.
Thomas J. Maiorino
FERENCE AND ASSOCIATES
jgoldschmidt@ferencelaw.com
tmaiorinolaw@comcast.net

144a
APPENDIX D
Trials@uspto.gov
571-272-7822

Paper 22
Entered: August 29, 2017

UNITED STATES
PATENT AND TRADEMARK OFFICE
BEFORE THE PATENT TRIAL
AND APPEAL BOARD

FEDERAL RESERVE BANK OF ATLANTA,
FEDERAL RESERVE BANK OF BOSTON,
FEDERAL RESERVE BANK OF CHICAGO,
FEDERAL RESERVE BANK OF CLEVELAND,
FEDERAL RESERVE BANK OF DALLAS,
FEDERAL RESERVE BANK OF KANSAS CITY,
FEDERAL RESERVE BANK OF MINNEAPOLIS,
FEDERAL RESERVE BANK OF NEW YORK,
FEDERAL RESERVE BANK OF PHILADELPHIA,
FEDERAL RESERVE BANK OF RICHMOND,
FEDERAL RESERVE BANK OF SAN FRANCISCO,
and FEDERAL RESERVE BANK OF ST. LOUIS,
Petitioner,
v.
BOZEMAN FINANCIAL LLC,
Patent Owner.
______________
Case CBM2017-00036 Patent 8,768,840 B2

145a

Before MICHAEL W. KIM, WILLIAM V. SAINDON,
and KEVIN W. CHERRY, Administrative Patent
Judges.
CHERRY, Administrative Patent Judge.
DECISION
Granting Institution of Covered Business Method
Patent Review
37 C.F.R. § 42.208
I.

INTRODUCTION

Federal Reserve Bank of Atlanta, Federal Reserve
Bank of Boston, Federal Reserve Bank of Chicago,
Federal Reserve Bank of Cleveland, Federal Reserve
Bank of Dallas, Federal Reserve Bank of Kansas City,
Federal Reserve Bank of Minneapolis, Federal
Reserve Bank of New York, Federal Reserve Bank of
Philadelphia, Federal Reserve Bank of Richmond,
Federal Reserve Bank of San Francisco, and Federal
Reserve Bank of St. Louis (“Petitioner”) filed a
Petition (Paper 1, “Pet.”) seeking a covered business
method patent review of claims 1–20 of U.S. Patent
No. 8,768,840 B2 (Ex. 1001, “the ’840 patent” or the
“challenged patent”) under section 18 of the LeahySmith America Invents Act, Pub. L. No. 112–29, 125

146a
Stat. 284, 331 (2011) (“AIA”). Petitioner supports its
contentions that the claims are unpatentable with the
Declaration of Thomas M. Conte, Ph.D. (Ex. 1007),
and its contentions that it was charged with
infringement with the Declaration of Richard M.
Fraher (Ex. 1008). Patent Owner, Bozeman Financial
LLC, filed a Preliminary Response (Paper 5, “Prelim.
Resp.”). Patent Owner submits the Declaration of
William O. Bozeman, III with its Preliminary
Response. Paper 6 (“First Bozeman Decl.”).
On May 19, 2017, pursuant to our authorization,
Petitioner filed a Reply to Patent Owner’s Preliminary
Response on the limited issue of whether Petitioner
has standing to bring this proceeding. Paper 8
(“Reply”). With its Reply, Petitioner provided a second
Declaration of Richard M. Fraher (Ex. 1023). On May
26, 2017, also pursuant to our authorization, Patent
Owner filed a Sur-Reply on the limited issue of
standing. Paper 12 (“Sur-Reply”). Patent Owner
submitted a second Declaration of William O.
Bozeman, III in support of its Sur-Reply. Paper 13
(“Second Bozeman Decl.”).
Under 35 U.S.C. § 324(a),1 a covered business
method patent review may not be instituted “unless .
. . the information presented in the petition . . ., if
such information is not rebutted, would demonstrate
that it is more likely than not that at least 1 of the
claims challenged in the petition is unpatentable.” 35
U.S.C. § 324(a); see 37 C.F.R. § 42.208.

1

See 37 C.F.R. § 42.300(a).

147a
For reasons that follow, we determine that the
challenged patent qualifies as a covered business
method patent. We further determine, after taking
into account Patent Owner’s Preliminary Response
and Sur-Reply, that the information presented in the
Petition sufficiently demonstrates on the present
record that Petitioner has standing to bring this
proceeding and at least one of the challenged claims is
unpatentable. Accordingly, we institute a covered
business method patent review of the challenged
claims.
A.

Related Matters

Petitioner and Patent Owner represent that
Petitioner has filed a covered business method patent
review, CBM2017-00035, against a related patent,
U.S. Patent No. 6,754,640 B2 (“the ’640 patent,” Ex.
1006). Pet. 6–7; Paper 7, 1. Petitioner has also filed a
declaratory judgment action of noninfringement of
both the ’640 patent and ’840 patent—Federal Reserve
Bank of Atlanta et al. v. Bozeman Financial LLC, Case
No. 1:17-cv- 00389 (N.D. Ga.). Id. at 2.
B.

Standing to File a Petition for Covered
Business Method Patent Review

A petition for covered business method review
must set forth the petitioner’s grounds for standing.
37 C.F.R. § 42.304(a). Rule 42.304(a) states it is
Petitioner’s burden to “demonstrate that the patent
for which review is sought is a covered business
method patent, and that the petitioner meets the
eligibility requirements of § 42.302.” Id. One of those
eligibility requirements is that only persons (or their
privies) who have been sued or charged with

148a
infringement under a patent are permitted to file a
petition seeking a covered business method patent
review of that patent. AIA § 18(a)(1)(B); 37 C.F.R. §
42.302(a). Under our rules, “[c]harged with
infringement means a real and substantial
controversy regarding infringement of a covered
business method patent exists such that the petitioner
would have standing to bring a declaratory judgment
action in Federal court.” 37 C.F.R. § 42.302(a).
The Declaratory Judgment Act provides that “[i]n
a case of actual controversy within its jurisdiction, . .
. any court of the United States, upon the filing of an
appropriate pleading, may declare the rights and
other legal relations of any interested party seeking
such declaration.” 28 U.S.C. § 2201(a). In
MedImmune, Inc. v. Genentech, Inc., the Supreme
Court stated that the test for whether an “actual
controversy” exists is “whether the facts alleged,
under all the circumstances, show that there is a
substantial controversy, between parties having
adverse legal interests, of sufficient immediacy and
reality to warrant the issuance of a declaratory
judgment.” 549 U.S. 118, 127 (2007) (internal
quotation marks omitted).
Although it relaxed the test for establishing
jurisdiction, MedImmune “did not change the bedrock
rule that a case or controversy must be based on a real
and immediate injury or threat of future injury that is
caused by the defendants—an objective standard that
cannot be met by a purely subjective or speculative
fear of future harm.” Prasco, LLC v. Medicis Pharm.
Corp., 537 F.3d 1329, 1339 (Fed. Cir. 2008). Thus,
courts have explained post- MedImmune that

149a
“jurisdiction generally will not arise merely on the
basis that a party learns of the existence of a patent
owned by another or even perceives such a patent to
pose a risk of infringement, without some affirmative
act by the patentee.” SanDisk Corp. v. STMicroelecs.,
Inc., 480 F.3d 1372, 1381 (Fed. Cir. 2007). Instead,
courts have required “conduct that can be reasonably
inferred as demonstrating intent to enforce a patent.”
Hewlett-Packard Co. v. Acceleron LLC, 587 F.3d 1358,
1363 (Fed. Cir. 2009).
In this case, Patent Owner has not sued Petitioner
for infringement. Instead, Petitioner contends that
Patent Owner charged it with infringing the ’840
patent. Pet. 37–40. Petitioner submits, supported by
the testimony of Mr. Fraher, that Patent Owner
contacted Petitioner by telephone in January 2016
and contended that Petitioner was infringing the ’640
patent and ’840 patents. Id. at 38 (citing Ex. 1008 ¶¶
2, 4, 5). Petitioner also asserts that Patent Owner
indicated that it intended to seek fees for the alleged
infringement. Id. Petitioner argues that Patent
Owner continued to contact it about potentially
licensing the ’640 and ’840 patents. Id. Petitioner also
provides an infringement claim chart Patent Owner
sent Petitioner, mapping Petitioner’s conduct to the
claims of the ’840 patent. Id. at 38–39 (citing Ex.
1022, 000001-5).
In its Preliminary Response, Patent Owner
contends that one of its principals, Mr. Bozeman, has
“had a long relationship with the Federal Reserve in
regard to [Mr. Bozeman’s] inventions in this field
since on or about the early 2000’s when the ’640
patent was filed.” Prelim. Resp. 6. Patent Owner

150a
claims that its discussions with Petitioner have only
been about a “business collaboration” with Petitioner.
Id. Patent Owner acknowledges that it contacted
Petitioner and entered into a non-disclosure
agreement (“NDA”) and held talks. Id. Patent Owner
also acknowledges that it sent the infringement claim
chart to Petitioner, but asserts that the claim chart
was prepared at the request of Petitioner, and Patent
Owner contends that Mr. Bozeman “made it clear that
he had no intention of bringing infringement
litigation and was primarily interested in the current
and future payment systems and modernizations that
[Petitioner] had recently announced.” Id. Patent
Owner argues that not only did it have no intention of
bringing infringement litigation, but “if [Mr.
Bozeman] ever did contemplate any such
infringement litigation that he would provide
[Petitioner] with an ample opportunity to resolve any
such issues before [Mr. Bozeman] would file an action
with any court.” Id. at 7.
In its Reply, Petitioner disputes Patent Owner’s
characterization of the events that took place in their
negotiations in 2016 and early 2017. Reply 1–5.
Petitioner submits additional testimony from Mr.
Fraher about the details of the discussions that took
place before the parties signed their NDA. Ex. 1023
¶¶ 2–7. Petitioner also submits testimony from Mr.
Fraher regarding the confidential discussions that
took place between the parties, and detailing Patent
Owner’s actions through the course of those
discussions. Reply 1–5 (citing Ex. 1023 ¶¶ 8–14).
In its Sur-Reply, Patent Owner argues that “any
discussion of infringement” was “only provided in

151a
response to the solicitation by [Petitioner] in order to
further evaluate a business agreement centered
around future licensing and royalties and not past
infringement.” Sur- Reply 2. Patent Owner asserts
that “[b]ecause Bozeman was seeking only a future
looking agreement, and . . . since any discussion of
potential infringement claims was instituted only
upon the request of [Petitioner] in evaluating a
licensing and/or royalty arrangement,” Petitioner
lacks standing to sue. Id.
We have reviewed Petitioner’s and Patent Owner’s
submissions and supporting evidence, and we
determine that, on this record, Petitioner has
established sufficiently the facts taken together
demonstrate that it has standing to bring this covered
business method review. Here, it is undisputed that
Patent Owner contacted Petitioner and the parties
entered into lengthy discussions regarding the
potential licensing of the ’640 and ’840 patent. See Ex.
1008 ¶¶ 4–8; Ex. 1023 ¶¶ 3–7; First Bozeman Decl. ¶¶
7–14. Patent Owner sent Petitioner a claim chart
mapping existing services offered by Petitioner to
claims of the ’840 patent. See Ex. 1022, 1 (seeking
licensing discussions), 2–5 (claim chart of ’840 patent).
Although Patent Owner attempts to characterize
these communications as an effort to reach a business
partnership (Prelim. Resp. 6–7; Sur-Reply 2–5), the
email’s statement that Patent Owner sought a
“commercially reasonable treatment” and mapped
existing products to claim 1 of the ’840 patent suggest
otherwise (Ex. 1022, 1–5), and, in any case, is, at a
minimum, “conduct that can be reasonably inferred as
demonstrating intent to enforce a patent.” Hewlett-

152a
Packard Co., 587 F.3d at 1363. Moreover, Mr. Fraher
has consistently testified that various representatives
of Patent Owner contended that Petitioner was
infringing the ’640 and ’840 patents and expected to
receive licensing fees for this alleged infringement.
Ex. 1008 ¶¶ 4–8; Ex. 1023 ¶¶ 3–7. Although Mr.
Bozeman disputes Mr. Fraher’s recollection of these
telephone calls, we must, at this stage, resolve such
factual disputes in favor of Petitioner.2 See 37 C.F.R.
§ 42.208(c).
As for Patent Owner’s arguments that the parties
had a longstanding relationship, we do not find this
materially changes our analysis. Based on the
evidence presented, we are persuaded that, even
assuming some sort of previous non-adversarial
relationship did exist, it does not change the objective
import of the documented interactions beginning in
Although we do not need to reach the negotiations that
occurred after the parties entered into their NDA because we
determine the pre-NDA conduct of Patent Owner sufficient to confer
standing, we note Patent Owner’s objections, see Sur-Reply 3–4, that
these post-NDA discussions were ostensibly subject to Federal
Rule of Evidence 408 and cannot be relied on is without merit.
See Rhoades v. Avon Prods., Inc., 504 F.3d 1151, 1160–62 (9th Cir.
2007) (“Here, DermaNew does not rely on the threats in an
attempt to prove whose trademark is valid, or to impeach Avon.
Instead, it uses the threats to satisfy the jurisdictional
requirements of an action for declaratory relief. This is perfectly
acceptable under Rule 408.” (footnote omitted)). As Petitioner
establishes, the post-NDA conduct unambiguously show that
Patent Owner objectively threated to sue Petitioner for patent
infringement under the ’640 and ’840 patents, if Patent Owner’s demand
for a license was not met. See Ex. 1024, 1–28 (detailing demands
and threatening to sue).
2

153a
January 2016. Thus, we determine that these
statements and actions, when considered objectively,
and even when taking into consideration any past
relationships, are more than sufficient to establish
that there was a substantial controversy between the
parties sufficient to establish standing under relevant
case law. See SanDisk, 480 F.3d at 1382 (holding that
demand for license fees and identification of specific
allegedly
infringing
activity
sufficient
for
jurisdiction); see also Hewlett-Packard Co., 587 F.3d
at 1364 (finding jurisdiction where patentee took
affirmative step of twice contacting alleged infringer
and made implied assertion of right against particular
product).
C.

The Challenged Patent

The ’840 patent, titled “Universal Positive Pay
Match, Authentication, Authorization, Settlement,
and Clearing System,” describes a universal positive
pay match database to reduce financial transaction
fraud. Ex. 1001, [54], Abstract. The ’840 patent
explains that check fraud is a significant problem in
the financial system, and although many solutions
have been proposed “[o]ne area where [the solutions]
all fall short is in the elimination of check fraud.” Id.
at 1:64–65.
The patent acknowledges the existence of
numerous prior art systems aimed at verifying
financial transactions and combatting checking fraud:
“[m]any techniques have been developed to inhibit
check fraud, such as Positive Pay [and] different forms
of electronic check verification and electronic check
presentment.”
Id. at 1:57–60. The ’840 patent

154a
explains that positive pay services “have been
available from individual banks” for a number of
years, and are “recognized as an effective service to
fight against check fraud.” Id. at 13:11–12, 13:22–23.
According to the patent, a
check generating customer [using a prior art
positive pay service] generally uploads a file of
transaction records associated with financial
transactions daily to the bank of all checks written
that day. When checks drawn on the customers[’]
accounts are presented to the bank, their database
is queried. If the transaction record for a check has
been tampered with or if transaction record
includes an unauthorized check number, the
transaction record will be rejected.
Id. at 13:14–21.
The patent explains that “[t]he existing positive
pay services are bank specific,” meaning that “only a
bank’s own account holders can utilize it and take
advantage of it.” Id. at 13:30–32. The patent suggests
that it will overcome this perceived problem by
offering a “universal” positive pay system that “can be
used by both account holder members and nonmembers” and “accessed by customers, payers,
payees, payee banks, drawee banks, and banking
institutions intermediate the payee banks and the
drawee banks for issuing and tracking transaction
records associated with financial transactions at
every point along the financial transaction clearing
process.” Id. at 13:32–39. Figure 5A of the ’840 patent
is reproduced below.

155a

Figure 5A illustrates a flow diagram of the
universal positive pay database method for checking
accounts according to the claimed invention. Id. at
7:10–11. Figure 5A shows that “each participant in
the check clearing process (payer customer 30, payee
100, payee bank 110, Federal Reserve 80, clearing
bank 70, or payor bank 120), participates in a
[universal positive pay database (“UPPD”)] method
130 used by a payer (customer) 30 for maintaining
check payment control and preventing check fraud.”
Id. at 17:56–61. According to the ’840 patent,
The UPPD method 130 includes a series of steps in
which payer 30 uploads check information to the
UPPD system 10, payee 100 deposits check in
payee bank 110, payee bank 110 checks the check
against the UPPD database 20 in the UPPD
system 10, check is deposited in Federal Reserve
80 or clearing bank 70, which checks it against the
UPPD database 20, payer bank 120 receives check
and checks it against the UPPD database 20 and

156a
reports back to the UPPD system 10 that the check
has been debited from payer’s 30 account.
Id. at 17:61–18:3.
D.

Illustrative Claim

Petitioner challenges all twenty claims of the
challenged patent. Claims 1, 8, and 15 are
independent claims. Claim 1 is illustrative of the
claimed subject matter:
1. A computer implemented method for detecting
fraud in financial transactions during a payment
clearing process, said method comprising:
receiving through one of a payer bank and a third
party, a first record of an electronic financial
transaction from at least one of the following
group: a payer, a point-of-sale terminal, an
online account and a portable electronic device;
storing in a database accessible by each party to
said payment clearing process of said electronic
financial transaction, said first record of said
electronic financial transaction, said first record
comprising more than one parameter;
receiving at said database at least a second record
of said electronic financial transaction from one
or more of a payee bank and any other party to
said payment clearing process as said
transaction moves along said payment clearing
process, wherein said second record comprises
at least one parameter which is the same as said
more than one parameter of said first record;

157a
each of said first and second records received at said
database comprise at least two of the same said
more than one parameters;
determining by a computer when there is a match
between at least two of said parameters of said
second record of said first financial transaction
received at said database and the same
parameters of said first record of said financial
transaction stored in said database, and
wherein any party to said payment clearing
process is capable of verifying said parameters
at each point along said financial transaction
payment clearing process;
sending a notification to said payee bank
participant with authorization to process said
electronic financial transaction when said
parameters match; and
sending a notification to said payee bank
participant to not process said electronic
financial transaction when said parameters do
not match.
Ex. 1001, 28:39–29:8.
E. Asserted Ground of Unpatentability
Petitioner asserts that claims 1–20 are
unpatentable as directed to patent-ineligible subject
matter under 35 U.S.C. § 101.
II.
A.

DISCUSSION
Claim Construction

In a covered business method patent review, a claim
term in an unexpired patent shall be given its

158a
broadest reasonable construction in light of the
specification of the patent in which it appears. 37
C.F.R. § 42.300(b); Cuozzo Speed Techs., LLC, v. Lee,
136 S. Ct. 2131, 2144 (2016); Versata Dev. Grp., Inc. v.
SAP Am., Inc., 793 F.3d 1306, 1328 (2015). Under the
broadest reasonable construction standard, claim
terms are generally presumed to be given their
ordinary and customary meaning, as would be
understood by one of ordinary skill in the art in the
context of the entire disclosure. In re Translogic Tech.,
Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007). To rebut
this presumption by acting as a lexicographer, the
patentee must give the term a particular meaning in
the
specification
with
“reasonable
clarity,
deliberateness, and precision.” In re Paulsen, 30 F.3d
1475, 1480 (Fed. Cir. 1994).
We construe the challenged claims according to
these principles. Petitioner proposes constructions
only for the term “behavior matrix.” Pet. 41–43.
However, we determine that no terms require express
construction for this Decision.
B.

Covered Business Method Patent

The AIA defines a “covered business method patent”
as “a patent that claims a method or corresponding
apparatus for performing data processing or other
operations used in the practice, administration, or
management of a financial product or service . . . .”
AIA § 18(d)(1); see 37 C.F.R. § 42.301(a). Congress
provided a specific exception to this definition of a
covered business method patent—“the term does not
include patents for technological inventions.” Id.

159a
To determine whether a patent is eligible for a
covered business method patent review, the focus is
on the claims. Secure Axcess, LLC v. PNC Bank N.A.,
848 F.3d 1370, 1379 (Fed. Cir. 2017) (“It is the claims,
in the traditional patent law sense, properly
understood in light of the written description, that
identifies a CBM patent.”). One claim directed to a
covered business method is sufficient to render the
patent eligible for CBM patent review. See id. at 1381
(“[T]he statutory definition of a CBM patent requires
that the patent have a claim that contains, however
phrased, a financial activity element.”).
For the reasons set forth below, we conclude that the
challenged patent meets the definition of a covered
business method patent.
1. Financial Product or Service
One requirement of a covered business method
patent is for the patent to “claim[ ] a method or
corresponding apparatus for performing data
processing or other operations used in the practice,
administration, or management of a financial product
or service.” AIA § 18(d)(1); 37 C.F.R. § 42.301(a).
Petitioner contends the challenged patent meets the
financial product or service requirement because the
patent claims computer-implemented methods for
detecting fraud or errors in financial transactions.
Pet. 27–30.
At this time, Patent Owner does not dispute
Petitioner’s assertions.
We agree with Petitioner that the ’840 patent meets
the financial product or service requirement. For

160a
example, claim 1 and its dependents are generally
directed to “[a] computer implemented method for
detecting fraud in financial transactions during a
payment clearing process,” comprising: (a) receiving a
first record relating to a financial transaction; (b)
storing that record in a database accessible to each
party to the payment clearing process; (c) receiving a
second record relating to the same financial
transaction; (d) determining whether there is a match
between the first and second records; and (e) sending
a notification based on the outcome of that
determination. Pet. 28. On this record, we agree with
Petitioner that the detecting fraud in financial
transactions during a payment clearing process meets
the financial product or service requirement of Section
18 of the AIA. See, e.g., U.S. Bancorp v. Solutran, Inc.,
Case CBM2014-00076, slip op. 6 (PTAB Aug. 7, 2014)
(Paper 16) (method of processing paper checks for
payment); Jack Henry & Assocs., Inc. v. DataTreasury
Corp., Case CBM2014-00056, slip op. 8 (PTAB July
10, 2014) (Paper 17) (method and system for storage
and verification of checks financial in nature).
Accordingly, the financial product or service
requirement is satisfied.
2. Exclusion for Technological Inventions
Section 18 of the AIA states that the term “covered
business method patent” does not include patents for
“technological inventions.” AIA § 18(d)(1); see 37
C.F.R. § 42.301(a). To determine whether a patent is
for a technological invention, we consider “whether
the claimed subject matter as a whole recites a
technological feature that is novel and unobvious over

161a
the prior art; and solves a technical problem using a
technical solution.” 37 C.F.R. § 42.301(b). The
following claim drafting techniques, for example,
typically do not render a patent a “technological
invention”:
(a) Mere recitation of known technologies,
such as computer hardware, communication or
computer networks, software, memory, computerreadable storage medium, scanners, display
devices or databases, or specialized machines,
such as an ATM or point of sale device.
(b) Reciting the use of known prior art
technology to accomplish a process or method,
even if that process or method is novel and nonobvious.
(c) Combining prior art structures to
achieve the normal, expected, or predictable
result of that combination.
Office Patent Trial Practice Guide, 77 Fed. Reg.
48,756, 48,764 (Aug. 14, 2012).
Petitioner submits that no “technological feature” of
claims 1, 8, or 15 is novel and non-obvious. Pet. 31.
Petitioner argues that the only technological features
recited in claim 1 are a database, a computer, a pointof-sale terminal, a portable electronic device, and a
notification. Id. Petitioner also submits that the only
technological features recited in claim 8 are a
computer having a database, a network interface, and
an electronic notification. Id. Petitioner further
argues that the only technological features recited in
claim 15 are a computer having a processor, an area

162a
of main memory, and a storage device having a
database; a point of sale terminal; a portable
electronic device; and a notification. Id. Petitioner
asserts that “[t]hese technological features are not
novel or non-obvious — they are generic, conventional
computer technologies that were well known at the
time the provisional application was filed in October
2000.” Id. (citing Ex. 1007 ¶¶ 32–38).
Petitioner further contends that the ’840 patent
does not provide a technical solution to a technical
problem. Id. at 34–37. Petitioner argues that the ’840
patent addresses the problem of reducing financial
transaction fraud and verifying checks and other
financial instruments and documents, which are
business problems, not technical problems. Id. at 34–
35. Further, Petitioner contends that solution,
providing multiple users with access to a positive pay
system at every point along the check clearing
process, is not a technical solution to this problem. Id.
at 35.
At this stage, Patent Owner does not dispute
Petitioner’s assertions.
We determine, based on the record before us, that
the technological features of the claimed steps are
directed to using known technologies. See 77 Fed.
Reg. at 48,764 (indicating use of known technologies
does not render a patent a technological invention).
For example, independent claim 1 recites only “a
database,” “a computer,” “a point-of-sale terminal,” “a
portable electronic device,” and “a notification” (Ex.
1001, 28:39–29:8), and we do not discern that any of
these components are used a non-conventional

163a
manner. At this stage, we agree with Petitioner that
the subject matter of independent claim 1, as a whole,
does not require any specific, unconventional
software,
computer
equipment,
processing
capabilities, or other technological features to produce
the required functional result. See Ex. 1007 ¶¶ 32–38.
We also agree, on this record, with Petitioner that
the challenged patent addresses the business problem
of fraud by providing multiple users access to a
positive pay system at every point along the financial
transaction process, which is not a technical solution
to a technical problem. See Nautilus Hyosung Inc. v.
Diebold, Inc., Case CBM2016-00034, slip op. 11– 14
(PTAB Aug. 22, 2016) (Paper 9) (characterizing
“reducing the risk of [check] fraud” as a “business
problem”).
Accordingly, we conclude that the subject matter of
at least independent claim 1 does not have a
technological feature that solves a technical problem
using a technical solution, and is, therefore, not a
technological invention. See Blue Calypso LLC v.
Groupon, Inc., 815 F.3d 1331, 1341 (Fed. Cir. 2016)
(finding that using general computer components to
carry out the claimed process does not “rise[ ] above
the general and conventional” and “cannot change the
fundamental character of [patent owner’s] claims”).
3.

Eligible for Covered Business Method Patent
Review

Having determined that the challenged patent
claims a method or corresponding apparatus for
performing data processing or other operations used
in the practice, administration, or management of a

164a
financial product or service and does not fall within
the exception for technological inventions, we
determine that the challenged patent is eligible for a
covered business method patent review
C.

Asserted Ground that Claims 1–20 Are
Unpatentable Under § 101

Petitioner asserts each of claims 1–20 is
unpatentable for being directed to patent-ineligible
subject matter under 35 U.S.C. § 101. Pet. 43–67.
Petitioner supports its contentions with citations to
the Declaration of Dr. Conte (Ex. 1007).
1.

Principles of Law

A patent may be obtained for “any new and useful
process, machine, manufacture, or composition of
matter, or any new and useful improvement thereof.”
35 U.S.C. § 101. The Supreme Court has held that this
statutory provision contains an important implicit
exception: laws of nature, natural phenomena, and
abstract ideas are not patentable. Alice Corp. Pty.
Ltd. v. CLS Bank Int’l, 134 S. Ct. 2347, 2354 (2014);
Gottschalk v. Benson, 409 U.S. 63, 67 (1972)
(“Phenomena of nature, though just discovered,
mental processes, and abstract intellectual concepts
are not patentable, as they are the basic tools of
scientific and technological work.”). Notwithstanding
that a law of nature or an abstract idea, by itself, is
not patentable, the practical application of these
concepts may be deserving of patent protection. Mayo
Collaborative Servs. v. Prometheus Labs., Inc., 132 S.
Ct. 1289, 1293–94 (2012).

165a
In Alice, the Supreme Court reaffirmed the
framework set forth previously in Mayo “for
distinguishing patents that claim laws of nature,
natural phenomena, and abstract ideas from those
that claim patent-eligible applications of those
concepts.” Alice, 134 S. Ct. at 2355. The first step in
the analysis is to “determine whether the claims at
issue are directed to one of those patent-ineligible
concepts.” Id. If the claims are directed to a patentineligible concept, the second step in the analysis is to
consider the elements of the claims “individually and
‘as an ordered combination’ to determine whether the
additional elements [that] ‘transform the nature of
the claim’ into a patent-eligible application.” Id.
(quoting Mayo, 132 S. Ct. at 1289, 1297). In other
words, the second step is to “search for an ‘inventive
concept’—i.e., an element or combination of elements
that is ‘sufficient to ensure that the patent in practice
amounts to significantly more than a patent upon the
[ineligible concept] itself.’” Id. (quoting Mayo, 132 S.
Ct. at 1294) (alterations in original).
Noting that the two stages involve “overlapping
scrutiny of the content of the claims,” the Federal
Circuit has described “the first-stage inquiry as
looking at the ‘focus’ of the claims, their ‘character as
a whole,’ and the second-stage inquiry (where
reached) as looking more precisely at what the claim
elements add—specifically, whether, in the Supreme
Court’s terms, they identify an ‘inventive concept’ in
the application of the ineligible matter to which (by
assumption at stage two) the claim is directed.”
Electric Power Grp, LLC v. Alstom S.A., 830 F.3d
1350, 1353 (Fed. Cir. 2016).

166a
Furthermore, the prohibition against patenting an
abstract idea “cannot be circumvented by attempting
to limit the use of the formula to a particular
technological environment or adding insignificant
postsolution activity.” Bilski v. Kappos, 561 U.S. 593,
610–11 (2010) (citation and internal quotation marks
omitted); see Electric Power, 830 F.3d at 1355
(“[L]imiting the claims to the particular technological
environment of power-grid monitoring is, without
more, insufficient to transform them into patenteligible applications of the abstract idea at their
core.”).
2. Step 1 — Whether the Claims Are Directed to an
Abstract Idea
In determining whether a method or process claim
recites an abstract idea, we must examine the claim
as a whole. Alice, 134 S. Ct. at 2355 n. 3. Petitioner
submits that claim 1 is representative. Pet. 46. More
specifically, Petitioner asserts that claim 1, as a
whole, recites steps directed to collecting and storing
financial transaction information, comparing received
financial transaction information against the stored
information, and notifying the parties of any matches
or mismatches between the sets of financial
transaction information. Id. (citing Ex. 1001, 28:39–
29:8 (claim 1)). Petitioner contends that independent
claims 8 and 15 recite substantially identical
corresponding limitations, but add the step of
providing a computer having a database.
Id.
Petitioner further asserts that the claims are
“directed towards the abstract idea of financial
transaction fraud or error detection, a fundamental
economic practice,” for “the abstract idea of collecting

167a
and analyzing information and presenting the
results—simple steps that can be performed in the
human mind or by a human using a pen and paper.”
Id. At 45. At this time, Patent Owner does not dispute
Petitioner’s assertions.
We agree with Petitioner that, on this record, it has
shown sufficiently that claims 1–20 are drawn to an
abstract idea. Specifically, we agree with Petitioner
that the claims of the challenged patent are directed
to collecting and analyzing information for financial
transaction fraud or error detection.
For example, beginning with independent claim 1,
the only specific items recited are a computer, a
database, a point of sale terminal, and a portable
electronic device. Ex. 1001, 28:39–29:8. The
remainder of the claim is simply a method of collecting
and analyzing information. As discussed above, the
claimed method steps include (i) “receiving . . . a first
record,” (ii) “storing in a database . . . said first record
. . .,” (iii) “receiving . . . a second record . . .,” (iv) where
each of the first and second records have at least two
parameters in common, (v) “determining . . . when
there is a match” between at least two of the
parameters in the first and second records, (vi)
“sending a notification to said payee bank . . . with
authorization to process said electronic financial
transaction when said parameters match,” and (vii)
“sending a notification to said payee bank . . . to not
process said electronic financial transaction when
said parameters do not match.” Id. at 28:40–29:8.
Thus, besides providing conventional computer
technology in the form of computer, a database, a
point of sale terminal, and a portable electronic

168a
device, the method consists of collecting, storing,
analyzing, and transmitting information.
The Specification reinforces the focus of claim 1, 8,
and 15 on collecting and analyzing information: “The
present invention relates to a Universal Positive Pay
Database method, system, and/or computer useable
medium to reduce check fraud and verify checks, other
financial instruments and documents.” According to
the Specification, “[t]he present invention” includes a
“UPPD database [] configured to store thereon
transaction records associated with financial
transactions associated with customers of the UPPD
database.” Id. at 5:29–34. Moreover, the Specification
explains that “[a] particular financial transaction is
initiated between a payer and a payee by providing
parameters associated with the particular financial
transaction to the UPPD database.” Id. at 5:36–38. In
addition, the Specification states that “[a]
correspondence determination is made between the
parameters associated with the particular financial
transaction . . . and the parameters associated with
the particular financial transaction provided to the
UPPD database to initiate the particular financial
transaction.” Id. at 5:43–47. The participants in the
financial transaction clearing process “are able to
access the correspondence determination at every
point along a financial transaction clearing process.”
Id. at 5:51–53.
Moreover, we are persuaded that the idea of
reconciling transaction information is a well-known,
routine economic practice commonplace in the
financial services industry and is fundamentally
abstract. Indeed, the Specification further explains

169a
that the idea of reconciling financial information was
a well-known, routine business practice commonplace
in the financial industry. See, e.g., id. at 1:57–60, 2:4–
14, 3:34–42, 3:47–58, 3:59–65.
On this record, we find this case indistinguishable
from a number of cases that have found storing,
displaying, and analyzing data, such as for loan
application processing and fraud detection, to be
abstract ideas. See Credit Acceptance Corp. v.
Westlake Servs., 859 F.3d 1044, 1054–57 (Fed. Cir.
2017) (holding “system for maintaining a database of
information about the items in a dealer’s inventory,
obtaining financial information about a customer
from a user, combining these two sources of
information to create a financing package for each of
the inventoried items, and presenting the financing
packages to the user” to be abstract); FairWarning IP,
LLC v. Iatric Sys., Inc., 839 F.3d 1089, 1093–94 (Fed.
Cir. 2016) (holding that claims directed to “collecting
and analyzing information to detect misuse and
notifying a user when misuse is detected” are
abstract); Electric Power, 830 F.3d at 1354 (“[M]erely
presenting the results of abstract processes of
collecting and analyzing information, without more
(such as identifying a particular tool for presentation),
is abstract as an ancillary part of such collection and
analysis.”); Mortg. Grader, Inc. v. First Choice Loan
Servs. Inc., 811 F.3d 1314, 1324 (Fed. Cir. 2016)
(holding that claims are abstract where they “recite
nothing more than the collection of information to
generate a ‘credit grading’ and to facilitate
anonymous loan shopping”); Content Extraction &
Transmission LLC v. Wells Fargo Bank, Nat'l Ass’n,

170a
776 F.3d 1343, 1347 (Fed. Cir. 2014) (identifying “the
abstract idea of 1) collecting data, 2) recognizing
certain data within the collected data set, and 3)
storing that recognized data in a memory”);
Intellectual Ventures I LLC v. Capital One Bank
(USA), 792 F.3d 1363, 1367–69 (Fed. Cir. 2015)
(determining claims adding generic computer
components to financial budgeting not patent
eligible); Accenture Global Servs., GmbH v. Guidewire
Software, Inc., 728 F.3d 1336, 1346 (Fed. Cir. 2013)
(generating tasks in an insurance organization);
Dealertrack, Inc. v. Huber, 674 F.3d 1315, 1333–34
(Fed. Cir. 2012) (holding that a “computer-aided”
method for “processing information through a
clearinghouse” for car loan applications is patent
ineligible).
The dependent claims specify: (1) what financial
information may be stored in a database (claims 2, 4,
10, and 17), (2) various well-known financial
transaction-types that may be used with method
(claims 3, 9, and 16), and (3) variations of the
processing steps recited in the independent claims
(claims 5–7, 11–14, and 18–20). Petitioner asserts,
and we agree, that none of these dependent claims add
anything that would change the conclusion that the
claims are directed to an abstract idea. See Pet. 49–
51.
In view of the foregoing, we determine that
Petitioner has demonstrated adequately, at least for
purposes of institution, that claims 1– 20 of the
challenged patent are directed to a patent-ineligible
abstract idea under 35 U.S.C. § 101.

171a
3.
Step 2 — Whether the Challenged Claims
Include Limitations that Represent Inventive
Concepts
We turn to the second step of the Alice inquiry “and
scrutinize the claim elements more microscopically”
for additional elements that can “transform the
nature of the claim” into a patent-eligible application
of an abstract idea. Electric Power, 830 F.3d at 1353.
That is, we determine whether the claims include an
“inventive concept,” i.e., an element or combination of
elements sufficient to ensure that the patent in
practice amounts to significantly more than a patent
on the abstract idea itself. Alice, 134 S. Ct. at 2357.
The relevant inquiry here is whether “additional
substantive limitations . . . narrow, confine, or
otherwise tie down the claim so that, in practical
terms, it does not cover the full abstract idea itself.”
Accenture, 728 F.3d at 1341 (internal quotations and
citation omitted).
Further scrutinizing the recited system and
method, Petitioner asserts, and we agree, there is
nothing that appears to transform the nature of the
claims into patent-eligible applications of an abstract
idea. Pet. 57–65.
First, the only recited technology in the claims of the
’840 patent is a “computer,” a “database,” a
“processor,” an “area of main memory,” a “storage
device,” a “network device,” a “point-of-sale terminal,”
a “portable electronic device,” and a “notification.”
Nothing in the claims, understood in light of the
Specification, appears to require anything more than
off-the- shelf, conventional computer, storage,

172a
network, and display technology for collecting the
data related to financial transactions, and displaying
the data to the users. The Federal Circuit has
repeatedly held that such invocations of computers
and networks that are not even arguably inventive are
“insufficient to pass the test of an inventive concept in
the application” of an abstract idea. buySAFE, Inc. v.
Google, Inc., 765 F.3d 1350, 1353 (Fed. Cir. 2014); see,
e.g., FairWarning, 839 F.3d at 1096 (holding that an
“interface” and “microprocessor” are generic computer
elements that do not transform an otherwise abstract
idea into patent-eligible subject matter); Mortgage
Grader, 811 F.3d at 1324–25 (holding that generic
computer components, such as an “interface,”
“network,” and “database,” fail to satisfy the inventive
concept requirement); Intellectual Ventures I, 792
F.3d at 1368 (“The recited elements, e.g., a database,
a user profile . . . and a communication medium, are
all generic computer elements.”); Content Extraction,
776 F.3d at 1347–48.
Second, even limiting the claims to the particular
technological environment of financial transaction
processing, without more, would appear to be
insufficient to transform the claims into patenteligible applications of the abstract idea. See Electric
Power, 830 F.3d at 1354 (“[L]imiting the claims to the
particular technological environment of power-grid
monitoring is, without more, insufficient to transform
them into patent-eligible applications of the abstract
idea at their core.”) (citing Alice, 134 S. Ct. at 2358;
Mayo, 132 S. Ct. at 1294; Bilski, 561 U.S. at 610–11;
Diamond v. Diehr, 450 U.S. 175, 191 (1981);
buySAFE, 765 F.3d at 1355).

173a
The Specification acknowledges that the elements
are well known. See Ex. 1001, 9:30–47; see also Ex.
1007 ¶¶ 39–41 (explaining how the technologies are
conventional and generic). At this time, Patent Owner
does not dispute Petitioner’s assertions.
The dependent claims add nothing that would
transform the claims into patent-eligible subject
matter either. See Pet. 65–67.
In view of the foregoing, based on the record before
us, we determine that, when considered individually
and “as an ordered combination,” the claim elements
appear to do no more than apply the abstract concept
of collecting, storing, analyzing, and communicating
information to reconcile financial information, and do
not appear to recite anything in a manner sufficient
to transform that abstract idea into a patent-eligible
invention. See Alice, 134 S. Ct. at 2359–60 (citing
Mayo, 132 S. Ct. at 1297–98). This weighs in favor of
finding claims 1–20 are a patent-ineligible abstract
idea.
4. Conclusion
Having considered the information provided in the
Petition and Patent Owner’s Preliminary Response,
we determine that Petitioner has demonstrated that
it is more likely than not that claims 1–20 are directed
to patent-ineligible subject matter under 35 U.S.C. §
101.
III.

CONCLUSION

We have reviewed the information in the Petition as
well as Patent Owner’s arguments and evidence as
currently developed in its Preliminary Response. On

174a
this record and as discussed in this Decision, we have
determined that, more likely than not, claims 1–20
are directed to patent- ineligible subject matter.
Any discussion of facts in this Decision is made only
for the purposes of institution and is not dispositive of
any issue related to any ground on which we institute
review. The Board has not made a final determination
under 35 U.S.C. § 328(a) with respect to the
patentability of the challenged claims. Our final
determination will be based on the record as fully
developed during trial.
IV.

ORDER

For the foregoing reasons, it is
ORDERED that pursuant to 35 U.S.C. § 324(a),
a covered business method patent review is hereby
instituted as to claims 1–20 of U.S. Patent No.
8,768,840 B2 for the following ground:
Whether Claims 1–20 are unpatentable as
being directed to patent- ineligible subject matter
under 35 U.S.C. § 101;
FURTHER ORDERED that pursuant to 35
U.S.C. § 324(d) and 37 C.F.R. § 42.4, notice is hereby
given of the institution of a trial; the trial commencing
on the entry date of this Order; and
FURTHER ORDERED that the trial is limited
to the grounds identified above and no other grounds
set forth in the Petition are authorized.

175a
For PETITIONER:
Natasha H. Moffitt
Holmes J. Hawkins III
Abby L. Parsons
KING & SPALDING LLP
nmoffitt@kslaw.com
hhawkins@kslaw.com
aparsons@kslaw.com
For PATENT OWNER:
John W. Goldschmidt, Jr.
Thomas J. Maiorino
FERENCE AND ASSOCIATES
jgoldschmidt@ferencelaw.com
tmaiorinolaw@comcast.net

176a
APPENDIX E
Trials@uspto.gov
571-272-7822

Paper 23
Entered: August 29, 2017

UNITED STATES PATENT
AND TRADEMARK OFFICE
_________________
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
_________________
FEDERAL RESERVE BANK OF ATLANTA,
FEDERAL RESERVE BANK OF BOSTON,
FEDERAL RESERVE BANK OF CHICAGO,
FEDERAL RESERVE BANK OF CLEVELAND,
FEDERAL RESERVE BANK OF DALLAS,
FEDERAL RESERVE BANK OF KANSAS CITY,
FEDERAL RESERVE BANK OF MINNEAPOLIS,
FEDERAL RESERVE BANK OF NEW YORK,
FEDERAL RESERVE BANK OF PHILADELPHIA,
FEDERAL RESERVE BANK OF RICHMOND,
FEDERAL RESERVE BANK OF SAN FRANCISCO,
and FEDERAL RESERVE BANK OF ST. LOUIS,
Petitioner,
v.
BOZEMAN FINANCIAL LLC,
Patent Owner.

177a
Case CBM2017-00035
Patent 6,754,640 B2

Before MICHAEL W. KIM, WILLIAM V. SAINDON,
and KEVIN W. CHERRY, Administrative Patent
Judges.
CHERRY, Administrative Patent Judge.
DECISION
Granting Institution of Covered Business Method
Patent Review
37 C.F.R. § 42.208
I.

INTRODUCTION

Federal Reserve Bank of Atlanta, Federal Reserve
Bank of Boston, Federal Reserve Bank of Chicago,
Federal Reserve Bank of Cleveland, Federal Reserve
Bank of Dallas, Federal Reserve Bank of Kansas City,
Federal Reserve Bank of Minneapolis, Federal
Reserve Bank of New York, Federal Reserve Bank of
Philadelphia, Federal Reserve Bank of Richmond,
Federal Reserve Bank of San Francisco, and Federal
Reserve Bank of St. Louis (“Petitioner”) filed a
Petition (Paper 1, “Pet.”) seeking a covered business
method patent review of claims 1–26 of U.S. Patent
No. 6,754,640 B2 (Ex. 1001, “the ’640 patent” or the

178a
“challenged patent”) under section 18 of the LeahySmith America Invents Act, Pub. L. No. 112–29, 125
Stat. 284, 331 (2011) (“AIA”). Petitioner supports its
contentions that the claims are unpatentable with the
Declaration of Thomas M. Conte, Ph.D. (Ex. 1004),
and its contentions that it was charged with
infringement with the Declaration of Richard M.
Fraher (Ex. 1005). Patent Owner, Bozeman Financial
LLC, filed a Preliminary Response (Paper 4, “Prelim.
Resp.”).Patent Owner submits the Declaration of
William O. Bozeman, III with its Preliminary
Response. Paper 5 (“First Bozeman Decl.”).
On May 19, 2017, pursuant to our authorization,
Petitioner filed a Reply to Patent Owner’s Preliminary
Response on the limited issue of whether Petitioner
has standing to bring this proceeding. Paper 9
(“Reply”). With its Reply, Petitioner provided a second
Declaration of Richard M. Fraher (Ex. 1014). On May
26, 2017, also pursuant to our authorization, Patent
Owner filed a Sur-Reply on the limited issue of
standing. Paper 13 (“Sur-Reply”). Patent Owner
submitted a second Declaration of William O.
Bozeman, III in support of its Sur-Reply. Paper 15
(“Second Bozeman Decl.”).
Under 35 U.S.C. § 324(a),1 a covered business
method patent review may not be instituted “unless .
. . the information presented in the petition . . ., if such
information is not rebutted, would demonstrate that
it is more likely than not that at least 1 of the claims

1

See 37 C.F.R. § 42.300(a).

179a
challenged in the petition is unpatentable.” 35 U.S.C.
§ 324(a); see 37 C.F.R. § 42.208.
For reasons that follow, we determine that the
challenged patent qualifies as a covered business
method patent. We further determine, after taking
into account Patent Owner’s Preliminary Response
and Sur-Reply, that the information presented in the
Petition sufficiently demonstrates on the present
record that Petitioner has standing to bring this
proceeding and at least one of the challenged claims is
unpatentable. Accordingly, we institute a covered
business method patent review of the challenged
claims.
A. Related Matters
Petitioner and Patent Owner represent that
Petitioner has filed a covered business method patent
review, CBM2017-00036, against a related patent,
U.S. Patent No. 8,768,840 B2 (“the ’840 patent,” Ex.
1003). Pet. 3; Paper 7, 3; Paper 8, 1. Petitioner has
also filed a declaratory judgment action of noninfringement of both the ’640 patent and ’840 patent—
Federal Reserve Bank of Atlanta et al. v. Bozeman
Financial LLC, Case No. 1:17-cv- 00389 (N.D. Ga.). Id.
at 2.
B. Standing to File a Petition for Covered Business
Method Patent Review
A petition for covered business method review must
set forth the petitioner’s grounds for standing. 37
C.F.R. § 42.304(a). Rule 42.304(a) states it is
Petitioner’s burden to “demonstrate that the patent
for which review is sought is a covered business
method patent, and that the petitioner meets the

180a
eligibility requirements of § 42.302.” Id. One of those
eligibility requirements is that only persons (or their
privies) who have been sued or charged with
infringement under a patent are permitted to file a
petition seeking a covered business method patent
review of that patent. AIA § 18(a)(1)(B); 37 C.F.R. §
42.302(a). Under our rules, “[c]harged with
infringement means a real and substantial
controversy regarding infringement of a covered
business method patent exists such that the petitioner
would have standing to bring a declaratory judgment
action in Federal court.” 37 C.F.R. § 42.302(a).
The Declaratory Judgment Act provides that “[i]n a
case of actual controversy within its jurisdiction, . . .
any court of the United States, upon the filing of an
appropriate pleading, may declare the rights and
other legal relations of any interested party seeking
such declaration.” 28 U.S.C. § 2201(a). In
MedImmune, Inc. v. Genentech, Inc., the Supreme
Court stated that the test for whether an “actual
controversy” exists is “whether the facts alleged,
under all the circumstances, show that there is a
substantial controversy, between parties having
adverse legal interests, of sufficient immediacy and
reality to warrant the issuance of a declaratory
judgment.” 549 U.S. 118, 127 (2007) (internal
quotation marks omitted).
Although it relaxed the test for establishing
jurisdiction, MedImmune “did not change the bedrock
rule that a case or controversy must be based on a real
and immediate injury or threat of future injury that is
caused by the defendants—an objective standard that
cannot be met by a purely subjective or speculative

181a
fear of future harm.” Prasco, LLC v. Medicis Pharm.
Corp., 537 F.3d 1329, 1339 (Fed. Cir. 2008). Thus,
courts have explained post- MedImmune that
“jurisdiction generally will not arise merely on the
basis that a party learns of the existence of a patent
owned by another or even perceives such a patent to
pose a risk of infringement, without some affirmative
act by the patentee.” SanDisk Corp. v. STMicroelecs.,
Inc., 480 F.3d 1372, 1381 (Fed. Cir. 2007). Instead,
courts have required “conduct that can be reasonably
inferred as demonstrating intent to enforce a patent.”
Hewlett-Packard Co. v. Acceleron LLC, 587 F.3d 1358,
1363 (Fed. Cir. 2009).
In this case, Patent Owner has not sued Petitioner
for infringement. Instead, Petitioner contends that
Patent Owner charged it with infringing the ’640
patent. Pet. 19–21. Petitioner submits, supported by
the testimony of Mr. Fraher, that Patent Owner
contacted Petitioner by telephone in January 2016
and contended that Petitioner was infringing the ’640
patent and ’840 patents. Id. at 20 (citing Ex. 1005 ¶
5). Petitioner also asserts that Patent Owner
indicated that it intended to seek fees for the alleged
infringement. Id. Petitioner contends that Patent
Owner continued to contact it about potentially
licensing the ’640 and ’840 patents. Id. Petitioner also
provides an infringement claim chart Patent Owner
sent Petitioner, mapping Petitioner’s conduct to the
claims of the ’840 patent, which also mentions the ’640
patent. Id. (citing Ex. 1006, 000001-5).
In its Preliminary Response, Patent Owner
contends that one of its principals, Mr. Bozeman, has
“had a long relationship with the Federal Reserve in

182a
regard to [Mr. Bozeman’s] inventions in this field
since on or about the early 2000’s when the ’640
patent was filed.” Prelim. Resp. 6. Patent Owner
claims that its discussions with Petitioner have only
been about a “business collaboration” with Petitioner.
Id. Patent Owner acknowledges that it contacted
Petitioner, entered into a non-disclosure agreement
(“NDA”), and held talks. Id. Patent Owner also
acknowledges that it sent the claim chart to
Petitioner, but asserts that the claim chart was
prepared at the request of Petitioner, and Patent
Owner contends that Mr Bozeman “made it clear that
he had no intention of bringing infringement
litigation and was primarily interested in the current
and future payment systems and modernizations that
[Petitioner] had recently announced.” Id. Patent
Owner argues that not only did it have no intention of
bringing infringement litigation, but “if [Mr.
Bozeman] ever did contemplate any such
infringement litigation that he would provide
[Petitioner] with an ample opportunity to resolve any
such issues before [Mr. Bozeman] would file an action
with any court.” Id. at 7.
In its Reply, Petitioner disputes Patent Owner’s
characterization of the events that took place in their
negotiations in 2016 and early 2017. Reply 1–5.
Petitioner submits additional testimony from Mr.
Fraher about the details of the discussions that took
place before the parties signed their NDA. Ex. 1014
¶¶ 2–7. Petitioner also submits testimony from Mr.
Fraher regarding the confidential discussions that
took place between the parties, and detailing Patent

183a
Owner’s actions through the course of those
discussions. Reply 1–5 (citing Ex. 1014 ¶¶ 8–14).
In its Sur-Reply, Patent Owner argues that “any
discussion of infringement” was “only provided in
response to the solicitation by [Petitioner] in order to
further evaluate a business agreement centered
around future licensing and royalties and not past
infringement.” Sur- Reply 2. Patent Owner asserts
that “[b]ecause Bozeman was seeking only a future
looking agreement, and . . . since any discussion of
potential infringement claims was instituted only
upon the request of [Petitioner] in evaluating a
licensing and/or royalty arrangement,” Petitioner
lacks standing to sue. Id.
We have reviewed Petitioner’s and Patent Owner’s
submissions and supporting evidence, and we
determine that, on this record, Petitioner has
established sufficiently the facts taken together
demonstrate that it has standing to bring this covered
business method review. Here, it is undisputed that
Patent Owner contacted Petitioner and the parties
entered into lengthy discussions regarding the
potential licensing of the ’640 and ’840 patent. See Ex.
1005 ¶¶ 4–8; Ex. 1014 ¶¶ 3–7; First Bozeman Decl. ¶¶
7–14. Patent Owner sent Petitioner a claim chart
mapping existing services offered by Petitioner to
claims of the ’840 patent and also mentioned the ’640
patent. See Ex. 1006, 1 (mentioning ’640 patent), 2–5
(claim chart of ’840 patent). Although Patent Owner
attempts to characterize these communications as an
effort to reach a business partnership (Prelim. Resp.
6–7; Sur-Reply 2–5), the email’s statement that
Patent Owner sought a “commercially reasonable

184a
treatment” and mapped existing products to claim 1 of
the ’840 patent suggest otherwise (Ex. 1006, 1–5),
and, in any case, is, at a minimum, “conduct that can
be reasonably inferred as demonstrating intent to
enforce a patent.” Hewlett-Packard Co., 587 F.3d at
1363. Moreover, Mr. Fraher has consistently testified
that various representatives of Patent Owner
contended that Petitioner was infringing the ’640 and
’840 patents and expected to receive licensing fees for
this alleged infringement. Ex. 1005 ¶¶ 4–8; Ex. 1014
¶¶ 3–7. Although Mr. Bozeman disputes Mr. Fraher’s
recollection of these telephone calls, we must, at this
stage, resolve such factual disputes in favor of
Petitioner.2 See 37 C.F.R. § 42.208(c).

Although we do not need to reach the negotiations that
occurred after the parties entered into their NDA, because we
determine the pre-NDA conduct of Patent Owner sufficient to
confer standing, we note Patent Owner’s objections, see SurReply 3–4, that these post-NDA discussions are subject to
Federal Rule of Evidence 408 and cannot be relied on is without
merit. See Rhoades v. Avon Prods., Inc., 504 F.3d 1151, 1160–62
(9th Cir. 2007) (“Here, DermaNew does not rely on the threats in
an attempt to prove whose trademark is valid, or to impeach
Avon. Instead, it uses the threats to satisfy the jurisdictional
requirements of an action for declaratory relief. This is perfectly
acceptable under Rule 408.” (footnote omitted)). As Petitioner
establishes, those actions unambiguously show that Patent
Owner objectively threated to sue Petitioner for patent
infringement under the ’640 and ’840 patents, if Patent Owner’s
demand for a license was not met. See Ex. 1015, 1–28 (detailing
demands and threatening to sue).
2

185a
As for Patent Owner’s arguments that the parties
had a longstanding relationship, we do not find this
materially changes our analysis. Based on the
evidence presented, we are persuaded that, even
assuming some sort of previous non-adversarial
relationship did exist, it does not change the objective
import of the documented interactions beginning in
January 2016. Thus, we determine that these
statements and actions, when considered objectively,
and even when taking into consideration any past
relationships, are more than sufficient to establish
that there was a substantial controversy between the
parties sufficient to establish standing under relevant
case law. See SanDisk, 480 F.3d at 1382 (holding that
demand for license fees and identification of specific
allegedly
infringing
activity
sufficient
for
jurisdiction); see also Hewlett-Packard Co., 587 F.3d
at 1364 (finding jurisdiction where patentee took
affirmative step of twice contacting alleged infringer
and made implied assertion of right against particular
product).
C. The Challenged Patent
The ’640 patent, titled “Universal Positive Pay
Match, Authentication, Authorization, Settlement,
and Clearing System,” describes a universal positive
pay match, authentication, authorization clearing and
settlement system to reduce check fraud and verify
checks, other financial instruments and documents.
Ex. 1001, [54], Abstract. The ’640 patent explains that
“[c]heck fraud and verification of checks presented to
merchants and financial institutions have always
been a problem for payers who write checks.” Id. at
1:19–21. According to the ’640 patent, positive pay

186a
services, are services “that a bank sells for a fee to its
account holders whereby only checks that are preapproved are accepted at the bank,” and “have been
available from individual banks for a number of
years.” Id. at 5:8–11.
According to the patent, a
check generating customer [using a prior art
positive pay service] generally uploads a file of
check register information daily to the bank of all
checks written that day. When checks drawn on
the customers’ accounts are presented to the
bank, their database is queried. If the check has
been tampered with or if it is an unauthorized
check number, the check will be rejected.
Id. at 5:11–17.
The patent explains that “[t]he existing positive pay
services are bank specific,” meaning that “only a
bank’s own account holders can utilize it and take
advantage of it.” Id. at 5:25–27. The patent suggests
that it will overcome this perceived problem by

187a
offering a “universal” positive pay system that “can be
used by both account holder members and nonmembers” and “accessed by all banks, depositors and
account holders for issuing and tracking check data,
signatures and matrixes at point of presentment,
point of sale and point of payment of the item.” Id. at
5:27–35. Figure 5A of the ’640 patent is reproduced
below.
Figure 5A illustrates a flow diagram of the
universal positive pay method for checking accounts
according to the claimed invention. Id. at 4:9–11.
Figure 5A shows that “each participant in the check
clearing process (payer customer 30, payee 100, payee
bank 110, Federal Reserve 80, clearing bank 70, or
payor bank 120), participates in a universal positive
pay match, authentication, authorization, clearing
and settlement system method 130 used by a payer
(customer) 30 for maintaining check payment control
and preventing check fraud.” Id. at 9:46–53.
According to the ’640 patent,
The
universal
positive
pay
match,
authentication, authorization, clearing and
settlement system method 130 comprises a series
of steps in which payer 30 uploads check
information to the universal positive pay match,
authentication, authorization, clearing and
settlement system 10, payee 100 deposits check
in payee bank 110, payee bank 110 checks the
check against database 20 in the universal
positive pay match authentication, authorization,
clearing and settlement system 10, check is
deposited in Federal Reserve 80 or clearing bank

188a
70, which checks it against the database 20,
payor bank 120 receives check and checks it
against the database 20 and reports back to the
universal positive pay match authentication,
authorization, clearing and settlement system 10
that the check has been debited from payer’s 30
account.
Id. at 9:53–67.
D. Illustrative Claims
Petitioner challenges all twenty-six claims of the
challenged patent.
Claims 1 and 21 are independent claims. Claims 1
and 21 are illustrative of the claimed subject matter:
1. A universal positive pay match, authentication,
authorization, clearing and settlement system
comprising:
at least one server computer having a processor, an
area of main memory, a storage device, and a bus
connecting the processor, main memory, and the
storage device;
a database stored on said storage device;
a data communications device connected to said
bus for connecting said at least one server
computer to an Internet; and
web-based computer program code stored in said
storage device and executing in said main memory
under direction of said processor, the computer
program code including:

189a
first instruction means for permitting a payer who
executes a check for payment to enter and store
check register information relating to the executed
check in said database, the check register
information including a check number, a date
issued, a payee, a routing number, and an account
number;
second instruction means for providing a web site
on the Internet accessible to the payer who
executed the check, a payee of the executed check,
a payee bank, a drawee bank, and banking
institutions intermediate the payee bank and the
drawee bank;
third instruction means for enabling the payer who
executed the check, the payee of the executed
check, the payee bank, the drawee bank, and
banking institutions intermediate the payee bank
and the drawee bank to access check register
information of the executed check at every point
along a check clearing process in order to
determine correspondence between check register
information stored in said database and the
executed check presented for payment; and
fourth instruction means for enabling the payer
who executed the check, the payee of the executed
check, the payee bank, the drawee bank, and
banking institutions intermediate the payee bank
and the drawee bank to determine whether
tampering or altering has occurred to the executed
check at every point along a check clearing process;
wherein said database stores check register
information for payers who execute checks having

190a
accounted with a plurality of unrelated drawee
banks.
Ex. 1001, 16:59–17:35.
21. A computerized method for a universal positive
pay match, authentication, authorization, clearing
and settlement system, said method comprising:
(a) providing a database;
(b) storing check register information relating to a
check executed by a payer for payment in said
database, the check register information including
a check number, a date issued, a payee, a routing
number, an account number, and an amount;
(c) providing a web site on the Internet accessible
to the payer who executed the check, a payee of the
executed check, a payee bank, a drawee bank, and
banking institutions intermediate the payee bank
and the drawee bank;
(d) enabling the payer who executed the check, the
payee of the executed check, the payee bank, the
drawee
bank,
and
banking
institutions
intermediate the payee bank and the drawee bank
to access the check register information of the
executed check stored in said database via the web
site at every point along a check clearing process
in order to determine correspondence between the
check register information stored in said database
and the executed check presented for payment;
and
(e) enabling the payer who executed the check, the
payee of the executed check, the payee bank, the

191a
drawee
bank,
and
banking
institutions
intermediate the payee bank and the drawee bank
to determine whether tampering or altering has
occurred to the executed check at every point along
a check clearing process.
Id. at 18:62–19:25.
E. Asserted Grounds of Unpatentability
Petitioner asserts that the challenged claims are
unpatentable based on the following grounds:
Basis

Challenged Claims

§ 101

1–26

§ 112, ¶¶ 2, 63

1–20, 25, and 26

II. DISCUSSION
A.

Claim Construction

In a covered business method patent review, a
claim term in an unexpired patent shall be given its

Paragraphs 2 and 6 of 35 U.S.C. § 112 were replaced with
newly designated § 112(b) and § 112(f) by § 4(c) of the AIA, and
AIA § 4(e) makes those changes applicable “to any patent
application that is filed on or after” September 16, 2012. Alcon
Research Ltd. v. Barr Labs., Inc., 745 F.3d 1180, 1183 n.1 (Fed.
Cir. 2014). Because the application resulting in ’640 patent was
filed before that date, we will refer to the pre-AIA-version of §
112.
3

192a
broadest reasonable construction in light of the
specification of the patent in which it appears. 37
C.F.R. § 42.300(b); Cuozzo Speed Techs., LLC, v. Lee,
136 S. Ct. 2131, 2144 (2016); Versata Dev. Grp., Inc. v.
SAP Am., Inc., 793 F.3d 1306, 1328 (2015). Under the
broadest reasonable construction standard, claim
terms are generally presumed to be given their
ordinary and customary meaning, as would be
understood by one of ordinary skill in the art in the
context of the entire disclosure. In re Translogic Tech.,
Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007). To rebut
this presumption by acting as a lexicographer, the
patentee must give the term a particular meaning in
the
specification
with
“reasonable
clarity,
deliberateness, and precision.” In re Paulsen, 30 F.3d
1475, 1480 (Fed. Cir. 1994).
We construe the challenged claims according to
these principles. Petitioner proposes constructions
only for the various means-plus-function terms found
in claim 1–20, 25, and 26. Pet. 23–32. We deal with
the claim construction of the mean-plus-function
terms in the discussion of the ground based on § 112
below. Aside from the means-plus-function terms, we
determine that no other terms require express
construction for this Decision.
B.

Covered Business Method Patent

The AIA defines a “covered business method
patent” as “a patent that claims a method or
corresponding apparatus for performing data
processing or other operations used in the practice,
administration, or management of a financial product
or service . . . .” AIA § 18(d)(1); see 37 C.F.R. §

193a
42.301(a). Congress provided a specific exception to
this definition of a covered business method patent—
“the term does not include patents for technological
inventions.” Id.
To determine whether a patent is eligible for a
covered business method patent review, the focus is
on the claims. Secure Axcess, LLC v. PNC Bank N.A.,
848 F.3d 1370, 1379 (Fed. Cir. 2017) (“It is the claims,
in the traditional patent law sense, properly
understood in light of the written description, that
identifies a CBM patent.”). One claim directed to a
covered business method is sufficient to render the
patent eligible for CBM patent review. See id. at 1381
(“[T]he statutory definition of a CBM patent requires
that the patent have a claim that contains, however
phrased, a financial activity element.”).
For the reasons set forth below, we conclude that
the challenged patent meets the definition of a
covered business method patent.
1.

Financial Product or Service

One requirement of a covered business method
patent is for the patent to “claim[ ] a method or
corresponding apparatus for performing data
processing or other operations used in the practice,
administration, or management of a financial product
or service.” AIA § 18(d)(1); 37 C.F.R. § 42.301(a).
Petitioner contends the challenged patent meets
the financial product or service requirement because
the patent claims methods or systems for allowing
check clearing participants (i.e., payers, payees,
drawee banks, payee banks, and banking institutions

194a
intermediate the payee and drawee banks) to access
stored check register information at every point along
the check clearing process in order to determine
whether a check has been tampered with or altered.
Pet. 12–13.
At this stage, Patent Owner does not dispute
Petitioner’s assertions.
We agree with Petitioner that the ’640 patent
meets the financial product or service requirement.
For example, claim 21 and its dependents are directed
to “[a] computerized method for a universal positive
pay match, authentication, authorization, clearing
and settlement system” that includes the steps of (a)
providing a database; (b) storing check register
information in the database; (c) providing a website
accessible to the check clearing process participants;
(d) enabling the check clearing process participants to
access the stored check register information via the
website at every point along a check clearing process
in order to determine correspondence between the
stored check register information and an executed
check; and enabling the check clearing process
participants to determine whether tampering or
altering has occurred at every point along a check
clearing process. Pet. 13–14. On this record, we agree
with
Petitioner
that
the
processing
and
authentication of checks for payment meets the
financial product or service requirement of Section 18
of the AIA. See, e.g., U.S. Bancorp v. Solutran, Inc.,
Case CBM2014-00076, slip op. 6 (PTAB Aug. 7, 2014)
(Paper 16) (method of processing paper checks for
payment); Jack Henry & Assocs., Inc. v. DataTreasury
Corp., Case CBM2014-00056, slip op. 8 (PTAB July

195a
10, 2014) (Paper 17) (method and system for storage
and verification of checks financial in nature).
Accordingly, the financial product or service
requirement is satisfied.
2.

Exclusion for Technological Inventions

Section 18 of the AIA states that the term “covered
business method patent” does not include patents for
“technological inventions.” AIA § 18(d)(1); see 37
C.F.R. § 42.301(a). To determine whether a patent is
for a technological invention, we consider “whether
the claimed subject matter as a whole recites a
technological feature that is novel and unobvious over
the prior art; and solves a technical problem using a
technical solution.” 37 C.F.R. § 42.301(b). The
following claim drafting techniques, for example,
typically do not render a patent a “technological
invention”:
(a) Mere recitation of known technologies, such as
computer hardware, communication or computer
networks, software, memory, computer-readable
storage medium, scanners, display devices or
databases, or specialized machines, such as an
ATM or point of sale device.
(b) Reciting the use of known prior art technology
to accomplish a process or method, even if that
process or method is novel and non-obvious.
(c) Combining prior art structures to achieve the
normal, expected, or predictable result of that
combination.
Office Patent Trial Practice Guide, 77 Fed. Reg.
48,756, 48,764 (Aug. 14, 2012).

196a
Petitioner submits that no “technological feature”
of claim 21 is novel and non-obvious. Pet. 15.
Petitioner argues that claim 21 is directed to a
computerized method that uses a database for storing
check register information and an Internet website.
Id. Petitioner asserts that “[a] database and Internet
website are not novel or non-obvious — they were
generic, conventional computer technologies wellknown in the art in October 2000.” Id. (citing Ex. 1004
¶¶ 41, 44, 57). Petitioner further contends that the
’640 patent does not provide a technical solution to a
technical problem. Id. at 16–19. Petitioner argues
that the ’640 patent addresses the problem of check
fraud, which is a business problem, not a technical
problem. Id. at 17.
Further, Petitioner contends that solution,
providing multiple users with access to a positive pay
system at every point along the check clearing
process, is not a technical solution to this problem. Id.
At this stage, Patent Owner does not dispute
Petitioner’s assertions.
We determine, based on the record before us, that
the technological features of the claimed steps are
directed to using known technologies. See 77 Fed.
Reg. at 48,764 (indicating use of known technologies
does not render a patent a technological invention).
For example, independent claim 21 requires only “a
database,” and “a web site on the Internet” (Ex. 1001,
18:62–19:24), and we do not discern that either is used
in a non- conventional manner. At this stage, we agree
with Petitioner that the subject matter of independent
claim 21, as a whole, does not require any specific,

197a
unconventional software, computer equipment,
processing capabilities, or other technological features
to produce the required functional result. See Ex. 1004
¶¶ 39–45.
We also agree, on this record, with Petitioner that
the challenged patent addresses the business problem
of check fraud by providing multiple users access to a
positive pay system at every point along the check
clearing process, which is not a technical solution to a
technical problem. See Nautilus Hyosung Inc. v.
Diebold, Inc., Case CBM2016-00034, slip op. 11– 14
(PTAB Aug. 22, 2016) (Paper 9) (characterizing
“reducing the risk of [check] fraud” as a “business
problem”).
Accordingly, we conclude that the subject matter
of at least independent claim 21 does not have a
technological feature that solves a technical problem
using a technical solution, and is, therefore, not a
technological invention. See Blue Calypso, LLC v.
Groupon, Inc., 815 F.3d 1331, 1341 (Fed. Cir. 2016)
(finding that using general computer components to
carry out the claimed process does not “rise[ ] above
the general and conventional” and “cannot change the
fundamental character of [patent owner’s] claims”).
3.

Eligible for Covered Business Method Patent
Review

Having determined that the challenged patent
claims a method or corresponding apparatus for
performing data processing or other operations used
in the practice, administration, or management of a
financial product or service and does not fall within
the exception for technological inventions, we

198a
determine that the challenged patent is eligible for a
covered business method patent review.
C.

Asserted Ground that Claims 1–26 Are
Unpatentable Under § 101

Petitioner asserts each of claims 1–26 is
unpatentable for being directed to patent-ineligible
subject matter under 35 U.S.C. § 101. Pet. 60–83.
Petitioner supports its contentions with citations to
the Declaration of Dr. Conte (Ex. 1004).
1.

Principles of Law

A patent may be obtained for “any new and useful
process, machine, manufacture, or composition of
matter, or any new and useful improvement thereof.”
35 U.S.C. § 101. The Supreme Court has held that this
statutory provision contains an important implicit
exception: laws of nature, natural phenomena, and
abstract ideas are not patentable. Alice Corp. Pty.
Ltd. v. CLS Bank Int’l, 134 S. Ct. 2347, 2354 (2014);
Gottschalk v. Benson, 409 U.S. 63, 67 (1972)
(“Phenomena of nature, though just discovered,
mental processes, and abstract intellectual concepts
are not patentable, as they are the basic tools of
scientific and technological work.”). Notwithstanding
that a law of nature or an abstract idea, by itself, is
not patentable, the practical application of these
concepts may be deserving of patent protection. Mayo
Collaborative Servs. v. Prometheus Labs., Inc., 132 S.
Ct. 1289, 1293–94 (2012).
In Alice, the Supreme Court reaffirmed the
framework set forth previously in Mayo “for
distinguishing patents that claim laws of nature,

199a
natural phenomena, and abstract ideas from those
that claim patent-eligible applications of those
concepts.” Alice, 134 S. Ct. at 2355. The first step in
the analysis is to “determine whether the claims at
issue are directed to one of those patent-ineligible
concepts.” Id. If the claims are directed to a patentineligible concept, the second step in the analysis is to
consider the elements of the claims “individually and
‘as an ordered combination’” to determine whether the
additional elements “‘transform the nature of the
claim’ into a patent-eligible application.” Id. (quoting
Mayo, 132 S. Ct. at 1289, 1297). In other words, the
second step is to “search for an ‘inventive concept’—
i.e., an element or combination of elements that is
‘sufficient to ensure that the patent in practice
amounts to significantly more than a patent upon the
[ineligible concept] itself.’” Id. (quoting Mayo, 132 S.
Ct. at 1294) (alterations in original).
Noting that the two stages involve “overlapping
scrutiny of the content of the claims,” the Federal
Circuit has described “the first-stage inquiry as
looking at the ‘focus’ of the claims, their ‘character as
a whole,’ and the second-stage inquiry (where
reached) as looking more precisely at what the claim
elements add—specifically, whether, in the Supreme
Court’s terms, they identify an ‘inventive concept’ in
the application of the ineligible matter to which (by
assumption at stage two) the claim is directed.”
Electric Power Grp, LLC v. Alstom S.A., 830 F.3d
1350, 1353 (Fed. Cir. 2016).
Furthermore, the prohibition against patenting an
abstract idea “cannot be circumvented by attempting
to limit the use of the formula to a particular

200a
technological environment or adding insignificant
postsolution activity.” Bilski v. Kappos, 561 U.S. 593,
610–11 (2010) (citation and internal quotation marks
omitted); see Electric Power, 830 F.3d at 1355
(“[L]imiting the claims to the particular technological
environment of power-grid monitoring is, without
more, insufficient to transform them into patenteligible applications of the abstract idea at their
core.”).
2.

Step 1 — Whether the Claims Are Directed to
an Abstract Idea

In determining whether a method or process claim
recites an abstract idea, we must examine the claim
as a whole. Alice, 134 S. Ct. at 2355 n.3. Petitioner
submits that claim 21 is representative. Pet. 62. More
specifically, Petitioner asserts that claim 21, as a
whole, relates to “[a] computerized method for a
universal positive pay match, authentication,
authorization, clearing and settlement system,”
comprising steps directed to storing check register
information in an online database, accessing the
stored check register information to determine
correspondence between the stored information and
an executed check, and determining whether
tampering or altering has occurred. Id. (citing Ex.
1001, 18:62–19:24 (claim 21)).
Petitioner asserts that “[c]laim 21 recites nothing
more than a recitation of steps for collecting and
analyzing information” for “the age-old abstract idea
of reconciling check information against a ledger—a
long-standing fundamental economic practice that
can easily be performed using pen and paper….” Id.

201a
At this stage, Patent Owner does not dispute
Petitioner’s assertions.
We agree with Petitioner that, on this record, it
has shown sufficiently that claims 1–26 are drawn to
an abstract idea. Specifically, we agree with
Petitioner that the claims of the challenged patent are
directed to collecting, displaying, and analyzing
information to reconcile check information against a
ledger.
For example, beginning with independent claim
21, no equipment is recited, although the claim
implies a web server, and the only specific items
recited are a database and a website accessible over
the Internet. Ex. 1001, 18:62–19:25. The remainder of
the claim is simply a method of collecting and
displaying information. As discussed above, the
claimed method steps include (i) “providing a
database,” (ii) “storing check register information . . .
in said database,” (iii) “providing a web site on the
Internet…,” (iv) “enabling . . . access [to] the check
register information . . . stored in the database via the
web site . . . in order to determine correspondence
between the check register information stored in said
database and the executed check presented for
payment,” and (v) “enabling . . . [a] determin[ation]
whether tampering or altering has occurred to the
executed check at every point along the check clearing
process.” Id. at 18:62–19:25. Thus, besides providing
conventional computer technology in the form of a
database and website, the method consists of storing,
displaying, and analyzing information. Moreover,
there is nothing in the claim that requires that the
analysis even be automatic, as the claim language is

202a
broad enough such that a person viewing the
information on a website could be the one making the
determination of whether the check is fraudulent or
not. Claim 1 is written as a system and includes
substantially similar functions, written as computer
code, as claim 21.
The specification reinforces the focus of claims 1
and 21 on collecting and analyzing information: “The
present invention relates to a universal positive pay [
] system to reduce check fraud and verify checks, other
financial instruments and documents.” Ex. 1001 at
1:14–17. According to the specification, the customer
“has the flexibility to utilize several means for
inputting current check register information . . .
includ[ing] computerized devices such as personal
computers, portable laptops and palmtops, as well as
mainframe computers and servers[.]” Id. at 6:1–7.
Once the customer’s information is in the claimed
system, the “participating commercial entity . . . may
match and compare the information from the check
with the check register information in the [claimed
system] . . . to verify that the check has not been
altered or tampered with.” Id. at 6:51–61. Moreover,
we are persuaded that the idea of reconciling check
register information is a well-known, routine
economic practice commonplace in the financial
services industry and is fundamentally abstract.
Indeed, the specification states that “[p]ositive pay
services have been available from individual banks for
a number of years.” Id. at 5:8–9.
On this record, we find this case indistinguishable
from a number of cases that have found storing,
displaying, and analyzing data, such as for loan

203a
application processing and fraud detection, to be
abstract ideas. See Credit Acceptance Corp. v.
Westlake Servs., 859 F.3d 1044, 1054–57 (Fed. Cir.
2017) (holding “system for maintaining a database of
information about items in a dealer’s inventory,
obtaining financial information about a customer
from a user, combining these two sources of
information to create a financing package for each of
the inventoried items, and presenting the financing
packages to the user” to be abstract); FairWarning IP,
LLC v. Iatric Sys., Inc., 839 F.3d 1089, 1093–94 (Fed.
Cir. 2016) (holding that claims directed to “collecting
and analyzing information to detect misuse and
notifying a user when misuse is detected” are
abstract); Electric Power, 830 F.3d at 1354 (“[M]erely
presenting the results of abstract processes of
collecting and analyzing information, without more
(such as identifying a particular tool for presentation),
is abstract as an ancillary part of such collection and
analysis.”); Mortg. Grader, Inc. v. First Choice Loan
Servs. Inc., 811 F.3d 1314, 1324 (Fed. Cir. 2016)
(holding that claims are abstract where they “recite
nothing more than the collection of information to
generate a ‘credit grading’ and to facilitate
anonymous loan shopping”); Content Extraction &
Transmission LLC v. Wells Fargo Bank, Nat'l
Ass’n.,776 F.3d 1343, 1347 (Fed. Cir. 2014)
(identifying “the abstract idea of 1) collecting data, 2)
recognizing certain data within the collected data set,
and 3) storing that recognized data in a memory”);
Intellectual Ventures I LLC v. Capital One Bank
(USA), 792 F.3d 1363, 1367–69 (Fed. Cir. 2015)
(determining claims adding generic computer

204a
components to financial budgeting not patent
eligible); Accenture Global Servs., GmbH v. Guidewire
Software, Inc., 728 F.3d 1336, 1346 (Fed. Cir. 2013)
(generating tasks in an insurance organization);
Dealertrack, Inc. v. Huber, 674 F.3d 1315, 1333–34
(Fed. Cir. 2012) (holding that a “computer-aided”
method for “processing information through a
clearinghouse” for car loan applications is patent
ineligible).
The dependent claims either specify additional
data processing steps (claims 2–8, 19, 20, 22–26), or
append one or more instruments or devices to the
claimed system (claims 9–18). Petitioner asserts, and
we agree, that none of these dependent claims appear
to add anything that would change the conclusion that
the claims are directed to an abstract idea. See Pet.
64; Ex. 1004 ¶ 48.
In view of the foregoing, we determine that
Petitioner has demonstrated adequately, at least for
purposes of institution, that claims 1– 26 of the
challenged patent are directed to a patent-ineligible
abstract idea under 35 U.S.C. § 101.
3.
Step 2 — Whether the Challenged Claims
Include Limitations that Represent Inventive
Concepts
We turn to the second step of the Alice inquiry “and
scrutinize the claim elements more microscopically”
for additional elements that can “transform the
nature of the claim” into a patent-eligible application
of an abstract idea. Electric Power, 830 F.3d at 1353.
That is, we determine whether the claims include an
“inventive concept,” i.e., an element or combination of

205a
elements sufficient to ensure that the patent in
practice amounts to significantly more than a patent
on the abstract idea itself. Alice, 134 S. Ct. at 2357.
The relevant inquiry here is whether “additional
substantive limitations . . . narrow, confine, or
otherwise tie down the claim so that, in practical
terms, it does not cover the full abstract idea itself.”
Accenture, 728 F.3d at 1341 (internal quotations and
citation omitted).
Further scrutinizing the recited system and
method, Petitioner asserts, and we agree, there is
nothing that appears to transform the nature of the
claims into patent-eligible applications of an abstract
idea. Pet. 74–83.
First, the only recited technology in claim 21 is a
“database” and “Internet accessible web page.” Claim
1 merely adds a “server computer” with a “processor,”
“main memory,” “storage device,” and “bus connecting
the processor, main memory, and the storage device.”
Nothing in the claims, understood in light of the
specification, appears to require anything more than
off-the-shelf,
conventional
computer,
storage,
network, and display technology for collecting the
data related to the check register, and displaying the
data to the users. The Federal Circuit has repeatedly
held that such invocations of computers and networks
that are not even arguably inventive are “insufficient
to pass the test of an inventive concept in the
application” of an abstract idea. buySAFE, Inc. v.
Google, Inc., 765 F.3d 1350, 1353 (Fed. Cir. 2014); see,
e.g., FairWarning, 839 F.3d 1089, 1096 (Fed. Cir.
2016)
(holding
that
an
“interface”
and
“microprocessor” are generic computer elements that

206a
do not transform an otherwise abstract idea into
patent-eligible subject matter); Mortgage Grader, 811
F.3d at 1324–25 (holding that generic computer
components, such as an “interface,” “network,” and
“database,” fail to satisfy the inventive concept
requirement); Intellectual Ventures I, 792 F.3d at
1368 (“The recited elements, e.g., a database, a user
profile . . . and a communication medium, are all
generic computer elements.”); Content Extraction, 776
F.3d at 1347–48. Second, even limiting the claims to
the particular technological environment of check
processing, without more, would appear to be
insufficient to transform the claims into patenteligible applications of the abstract idea. See Electric
Power, 830 F.3d at 1354 (“[L]imiting the claims to the
particular technological environment of power-grid
monitoring is, without more, insufficient to transform
them into patent-eligible applications of the abstract
idea at their core.”) (citing Alice, 134 S. Ct. at 2358;
Mayo, 132 S. Ct. at 1294; Bilski, 561 U.S. at 610–11;
Diamond v. Diehr, 450 U.S. 175, 191 (1981);
buySAFE, 765 F.3d at 1355).
The specification acknowledges that the elements
are well known. See Ex. 1001, 4:53–64; see also Ex.
1004 ¶¶ 40–52 (explaining how the technologies are
conventional and generic). At this stage, Patent
Owner does not dispute Petitioner’s assertions.
In view of the foregoing, based on the record before
us, we determine that, when considered individually
and “as an ordered combination,” the claim elements
appear to do no more than apply the abstract concept
of collecting, displaying, and analyzing information to
reconcile check information against a ledger, and do

207a
not appear to recite anything in a manner sufficient
to transform that abstract idea into a patent-eligible
invention. See Alice, 134 S. Ct. at 2359–60 (citing
Mayo, 132 S. Ct. at 1297–98). This weighs in favor of
finding claims 1–26 are a patent- ineligible abstract
idea.
4.

Conclusion

Having considered the information provided in the
Petition and Patent Owner’s Preliminary Response,
we determine that Petitioner has demonstrated that
it is more likely than not that claims 1–26 are directed
to patent-ineligible subject matter under 35 U.S.C. §
101.
D.

Asserted Ground Based on § 112 ¶¶ 2 & 6

Petitioner contends that the challenged patent
fails to disclose adequate structure under 35 U.S.C. §
112 ¶ 6 for the means-plus-function limitations in
claims 1–20, 25, and 26 and, therefore, these claims
are unpatentable as indefinite under 35 U.S.C. § 112
¶ 2. Petitioner supports its contentions with citations
to the Declaration of Dr. Conte (Ex. 1004). Pet. 33–60.
At this stage, Patent Owner does not dispute
Petitioner’s assertions.
1.

Principles of Law

Under 35 U.S.C. § 112 ¶ 6, “[a]n element in a claim
for a combination may be expressed as a means . . . for
performing a specified function without the recital of
structure, material, or acts in support thereof, and
such claim shall be construed to cover the
corresponding structure, material, or acts described in

208a
the specification and equivalents thereof.” 35 U.S.C.
§ 112 ¶ 6. Using the term “means” in a “means for”
context creates a rebuttable presumption that 35
U.S.C. § 112 ¶ 6 applies. See Williamson v. Citrix
Online, LLC, 792 F.3d 1339, 1348, 1349 (Fed. Cir.
2015) (en banc in relevant part) (“use of the word
‘means’ creates a presumption that § 112, ¶ 6
applies”). In determining whether a claim element
falls within the ambit of § 112 ¶ 6, “[t]he standard is
whether the words of the claim are understood by
persons of ordinary skill in the art to have a
sufficiently definite meaning as the name for
structure.” Id. at 1349 (quoting Greenberg v. Ethicon
Endo–Surgery, Inc., 91 F.3d 1580, 1583 (Fed. Cir.
1996)). “When a claim term lacks the word ‘means,’
the presumption can be overcome and § 112, para. 6
will apply if the challenger demonstrates that the
claim term fails to ‘recite sufficiently definite
structure’ or else recites ‘function without reciting
sufficient structure for performing that function.’” Id.
(quoting Watts v. XL Sys., Inc., 232 F.3d 877, 880 (Fed.
Cir. 2000)).
Once a claim limitation falls under 35 U.S.C. § 112
¶ 6, the construction of such a limitation involves two
steps: (1) identifying the claimed function and (2)
identifying in the specification the corresponding
structure that performs the claimed function. See
Noah Sys., Inc. v. Intuit Inc., 675 F.3d 1302, 1311
(Fed. Cir. 2012). In the event the specification does not
identify sufficient structure to perform the claimed
functions, “the claim limitation would lack specificity,
rendering the claim as a whole invalid for
indefiniteness under 35 U.S.C. § 112 ¶ 2.” Aristocrat

209a
Techs. Austl. Pty Ltd. v. Int’l Game Tech., 521 F.3d
1328, 1331 (Fed. Cir. 2008) (citing In re Donaldson, 16
F.3d 1189, 1195 (Fed.Cir.1994) (en banc)).
2.

Analysis

Based on the record now before us, we agree that
Petitioner has sufficiently shown that the limitations
of claims 1–20, 25, and 26 that recite “means for” are
governed by § 112 ¶ 6. See Ex. 1004 ¶¶ 63–68;
Williamson, 792 F.3d at 1349. Furthermore, as claim
1 recites, all of the “instruction means for” limitations
are “web-based computer program code” executed and
stored on a server having a processor, an area of main
memory, a storage device, and a bus connecting the
processor, main memory, and storage device. See Ex.
1001, 16:61–17:4. In other words, the “instruction
means for” limitations are all special purpose
computer code executed on a general purpose
computer. See Ex. 1004 ¶¶ 64–66.
As for the first step of construing these meansplus-function limitations, we further agree that
Petitioner has shown adequately that the
corresponding functions for the following limitations
are what is shown in the table below.
Term
first instruction means
for permitting a payer
who executes a check for
payment to enter and
store check register
information relating to

Function
permitting a payer who
executes a check for
payment to enter and
store check register
information relating to
the executed check in

210a
Term

Function

the executed check in
said database, the check
register information
including a check
number, a date issued, a
payee, a routing number,
and an account number
(claim 1)

said database, the check
register information
including a check
number, a date issued, a
payee, a routing number,
and an account number

second instruction means
for providing a web site
on the Internet
accessible to the payer
who executed the check,
a payee of the executed
check, a payee bank, a
drawee bank, and
banking institutions
intermediate the payee
bank and the drawee
bank (claim 1)

providing a web site on
the Internet accessible to
the payer who executed
the check, a payee of the
executed check, a payee
bank, a drawee bank,
and banking institutions
intermediate the payee
bank and the drawee
bank

third instruction means
for enabling the payer
who executed the check,
the payee of the executed
check, the payee bank,
the drawee bank, and
banking institutions
intermediate the payee
bank and the drawee
bank to access check

enabling the payer who
executed the check, the
payee of the executed
check, the payee bank,
the drawee bank, and
banking institutions
intermediate the payee
bank and the drawee
bank to access check
register information of

211a
Term

Function

register information of
the executed check at
every point along a check
clearing process in order
to determine
correspondence between
check register
information stored in
said database and the
executed check presented
for payment (claim 1)

the executed check at
every point along a check
clearing process in order
to determine
correspondence between
check register
information stored in
said database and the
executed check presented
for payment

fourth instruction means
for enabling the payer
who executed the check,
the payee of the executed
check, the payee bank,
the drawee bank, and
banking institutions
intermediate the payee
bank and the drawee
bank to determine
whether tampering or
altering has occurred to
the executed check at
every point along a check
clearing process (claim 1)

enabling the payer who
executed the check, the
payee of the executed
check, the payee bank,
the drawee bank, and
banking institutions
intermediate the payee
bank and the drawee
bank to determine
whether tampering or
altering has occurred to
the executed check at
every point along a check
clearing process

fifth instruction means
for searching and
capturing check register
information for

searching and capturing
check register
information for

212a
Term

Function

abandoned property
subject to escheat (claim
2)

abandoned property
subject to escheat

sixth instruction means
for automatically polling
check register
information for storage
on said database (claim
3)

automatically polling
check register
information for storage
on said database

seventh instruction
means for performing a
reconciliation of check
registration information
for payers who executed
checks (claim 4)

performing a
reconciliation of check
registration information
for payers who executed
checks

eighth instruction means
for locating lost, stolen,
misplaced items and
items not presented and
that remain outstanding
(claim 5)

locating lost, stolen,
misplaced items and
items not presented and
that remain outstanding

ninth instruction means
for archiving and storing
check register, matching
data, verification data
and authentication data
for up to a period of
seven years (claim 6)

archiving and storing
check register, matching
data, verification data
and authentication data
for up to a period of
seven years

213a
Term

Function

eleventh instruction
means for making a
credit history
compilation for a payer
who executes checks
based upon check
register information
(claim 19)

making a credit history
compilation for a payer
who executes checks
based upon check
register information

twelfth instruction
means for compiling a
behavior matrix for
payers who execute
checks based upon check
register information
(claim 20)

compiling a behavior
matrix for payers who
execute checks based
upon check register
information

fourteenth instruction
means for enabling
payers who execute
checks to view their
check register
information in real-time
(claim 26)

enabling payers who
execute checks to view
their check register
information in real-time

means for demodulating
check register
information from a
telephone carrier signal
(claim 9)

demodulating check
register information from
a telephone carrier signal

Pet. 26–32.

214a
As for the second step of identifying the
corresponding structure, we agree with Petitioner
that the specification of the ’640 patent fails to provide
adequate corresponding structure for performing
these functions. See Pet. 36–60. “A patent applicant
who employs means-plus-function language ‘must set
forth in the specification an adequate disclosure
showing what is meant by that language.’” Net
MoneyIN, Inc. v. VeriSign, Inc., 545 F.3d 1359, 1367
(Fed. Cir. 2008) (quoting In re Donaldson, 16 F.3d at
1195). In cases such as this one, which involve
computer-implemented
means-plusfunction
limitation, courts have required “that the structure
disclosed in the specification be more than simply a
general purpose computer or microprocessor.”
Aristocrat., 521 F.3d at 1333. The specification must
“disclose an algorithm for performing the claimed
function.” Net MoneyIN, 545 F.3d at 1367. The
specification can express the algorithm “in any
understandable terms including as a mathematical
formula, in prose, or as a flow chart, or in any other
manner that provides sufficient structure.” Finisar
Corp. v. DirecTV Grp., Inc., 523 F.3d 1323, 1340 (Fed.
Cir. 2008) (internal citation omitted). Simply
disclosing software, however, “without providing some
detail about the means to accomplish the function[,] is
not enough.” Id. at 1340–41 (citation omitted).
As claim 1 makes clear, the “instruction means for”
limitations are “web-based computer program code”
executed on the processor in the server. See Ex. 1001,
16:61–17:4. Because the “instruction means for” are
software running on a processor, the specification

215a
must also disclose an algorithm.4 Net MoneyIN, 545
F.3d at 1367.
On this record, we agree with Petitioner that the
specification of the ’640 patent fails to provide an
adequate algorithm for the “instruction means for”
limitations identified above. For example, with
respect to the “first instruction means for permitting
a payer who executes a check for payment to enter and
store check register information relating to the
executed check in said database,” we agree with
Petitioner that, on this record, there does not appear
to be a step-by-step explanation of how the web-based
code would both allow a person to enter and store the
recited information. See Pet. 36–39; Ex. 1004 ¶¶ 72–
79. Instead, we agree with Petitioner that all that
appears is a generalized recitation of the function and
an indication that the software can perform it. See Ex.
1001, 6:9–15, 10:1–9, 10:16–26. As Petitioner notes,
the fact that a person of ordinary skill might
understand how to write code to perform these
functions is not relevant. See Blackboard, Inc. v.
Desire2Learn, Inc., 574 F.3d 1371, 1385 (Fed. Cir.
Because the ’640 patent requires a server computer
specifically programmed to carry out the recited functions
associated with the various “instruction means for,” we
determine, on this record, that the exception to the algorithm
requirement, set forth in In re Katz Interactive Call Processing
Patent Litig., 639 F.3d 1303, 1316 (Fed. Cir. 2011), for situations
involving functions that can be accomplished by “any general
purpose computer without special programming,” does not apply.
4

216a
2009) (“A patentee cannot avoid providing specificity
as to structure simply because someone of ordinary
skill in the art would be able to devise a means to
perform the claimed function.”).
We also agree with Petitioner that it has shown
sufficiently that the other “means for” limitations of
claims 1–9, 19, 20, and 26 identified in the Petition
similarly contain limitations that lack adequate
corresponding structure in the specification. See Pet.
39–60; Ex. 1004 ¶¶ 80–164. As for claims 10–18 and
25, those claims depend from at least one claim that
contains a limitation that has been shown, on this
record, to lack adequate corresponding structure.
Accordingly, based on the foregoing discussion, we
agree that Petitioner has shown, on this record, that
it is more likely than not that claims 1–20, 25, and 26
are unpatentable as indefinite under 35 U.S.C. § 112
¶ 2 because the ’640 patent fails to disclose adequate
structure under 35 U.S.C. § 112 ¶ 6 for the meansplus-function limitations in those claims.
III.

CONCLUSION

We have reviewed the information in the Petition
as well as Patent Owner’s arguments and evidence as
currently developed in its Preliminary Response. On
this record and as discussed in this Decision, we have
determined that, more likely than not, (i) claims 1–26
are directed to patent- ineligible subject matter, and
(ii) claims 1–20, 25, and 26 are indefinite for failing to
disclose adequate structure.
Any discussion of facts in this Decision is made
only for the purposes of institution and is not
dispositive of any issue related to any ground on

217a
which we institute review. The Board has not made a
final determination under 35 U.S.C. § 328(a) with
respect to the patentability of the challenged claims.
Our final determination will be based on the record as
fully developed during trial.
IV.

ORDER

For the foregoing reasons, it is
ORDERED that pursuant to 35 U.S.C. § 324(a), a
covered business method patent review is hereby
instituted as to claims 1–26 of U.S. Patent No.
6,754,640 B2 for the following grounds:
Whether Claims 1–26 are unpatentable as being
directed to patent- ineligible subject matter under 35
U.S.C. § 101; and
Whether Claims 1–20, 25, and 26 are unpatentable
under 35 U.S.C.
§ 112 ¶¶ 2 & 6, as being indefinite under 35 U.S.C.
§ 112 ¶ 2 because the ’640 patent fails to disclose
adequate structure under 35 U.S.C. § 112 ¶ 6 for
means-plus-function claim limitations;
FURTHER ORDERED that pursuant to 35 U.S.C.
§ 324(d) and 37 C.F.R. § 42.4, notice is hereby given of
the institution of a trial; the trial commencing on the
entry date of this Order; and
FURTHER ORDERED that the trial is limited to
the grounds identified above and no other grounds set
forth in the Petition are authorized.

218a
For PETITIONER:
Natasha H. Moffitt
Holmes J. Hawkins III
Abby L. Parsons
KING & SPALDING LLP
nmoffitt@kslaw.com
hhawkins@kslaw.com
aparsons@kslaw.com
For PATENT OWNER:
John W. Goldschmidt, Jr.
Thomas J. Maiorino
FERENCE AND ASSOCIATES
jgoldschmidt@ferencelaw.com
tmaiorinolaw@comcast.net

219a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
_________________
BOZEMAN FINANCIAL LLC,
Appellant
v.
FEDERAL RESERVE BANK OF ATLANTA,
FEDERAL RESERVE BANK OF BOSTON,
FEDERAL RESERVE BANK OF CHICAGO,
FEDERAL RESERVE BANK OF CLEVELAND,
FEDERAL RESERVE BANK OF DALLAS,
FEDERAL RESERVE BANK OF KANSAS CITY,
FEDERAL RESERVE BANK
OF MINNEAPOLIS,
FEDERAL RESERVE BANK OF NEW YORK,
FEDERAL RESERVE BANK
OF PHILADELPHIA,
FEDERAL RESERVE BANK OF RICHMOND,
FEDERAL RESERVE BANK
OF SAN FRANCISCO,
FEDERAL RESERVE BANK OF ST. LOUIS
Appellees
_________________
2019-1018
_________________
Appeal from the United States Patent and
Trademark Office, Patent Trial
and Appeal Board in No. CBM2017-00035.

220a
_________________
ON PETITION FOR REHEARING EN BANC
_________________
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellant Bozeman Financial LLC filed a petition
for rehearing en banc. The petition was first referred
as a petition for rehearing to the panel that heard the
appeal, and thereafter the petition for rehearing en
banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on June 10,
2020.
FOR THE COURT
June 3, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

221a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
_________________
BOZEMAN FINANCIAL LLC,
Appellant
v.
FEDERAL RESERVE BANK OF ATLANTA,
FEDERAL RESERVE BANK OF BOSTON,
FEDERAL RESERVE BANK OF CHICAGO,
FEDERAL RESERVE BANK OF CLEVELAND,
FEDERAL RESERVE BANK OF DALLAS,
FEDERAL RESERVE BANK OF KANSAS CITY,
FEDERAL RESERVE BANK
OF MINNEAPOLIS,
FEDERAL RESERVE BANK OF NEW YORK,
FEDERAL RESERVE BANK
OF PHILADELPHIA,
FEDERAL RESERVE BANK OF RICHMOND,
FEDERAL RESERVE BANK
OF SAN FRANCISCO,
FEDERAL RESERVE BANK OF ST. LOUIS
Appellees
_________________
2019-1020
_________________
Appeal from the United States Patent and
Trademark Office, Patent Trial
and Appeal Board in No. CBM2017-00036.

222a
_________________
ON PETITION FOR REHEARING EN BANC
_________________
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellant Bozeman Financial LLC filed a petition
for rehearing en banc. The petition was first referred
as a petition for rehearing to the panel that heard the
appeal, and thereafter the petition for rehearing en
banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on June 10,
2020.
FOR THE COURT
June 3, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

223a
APPENDIX G
STATUTORY PROVISIONS INVOLVED
Title 35, section 311(a) of the United States Code
provides: “Subject to the provisions of this chapter, a
person who is not the owner of a patent may file with
the Office a petition to institute an inter partes review
of the patent. The Director shall establish, by
regulation, fees to be paid by the person requesting
the review, in such amounts as the Director
determines to be reasonable, considering the
aggregate costs of the review.” 35 U.S.C. § 311(a).
***
Title 35, section 321(a) of the United States Code
provides: “Subject to the provisions of this chapter, a
person who is not the owner of a patent may file with
the Office a petition to institute a post-grant review of
the patent. The Director shall establish, by regulation,
fees to be paid by the person requesting the review, in
such amounts as the Director determines to be
reasonable, considering the aggregate costs of the
post-grant review.” 35 U.S.C. § 321(a).

224a
APPENDIX H
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
GEORGIA ATLANTA DIVISION
FEDERAL RESERVE BANK OF
ATLANTA, FEDERAL RESERVE
BANK OF BOSTON, FEDERAL
RESERVE BANK OF CHICAGO,
FEDERAL RESERVE BANK OF
CLEVELAND,
FEDERAL
RESERVE BANK OF DALLAS,
FEDERAL RESERVE BANK OF
KANSAS
CITY,
FEDERAL
RESERVE
BANK
OF
MINNEAPOLIS,
FEDERAL
RESERVE BANK OF NEW YORK,
FEDERAL RESERVE BANK OF
PHILADELPHIA,
FEDERAL
RESERVE
BANK
OF
RICHMOND,
FEDERAL
RESERVE
BANK OF SAN
FRANCISCO, and
FEDERAL
RESERVE BANK OF ST. LOUIS,
Plaintiffs,
v.
BOZEMAN FINANCIAL LLC,
Defendant.

CIVIL
ACTION
FILE NO.
________

225a
COMPLAINT FOR DECLARATORY RELIEF
THE FEDERAL RESERVE BANK OF ATLANTA,
FEDERAL RESERVE BANK OF BOSTON,
FEDERAL RESERVE BANK OF CHICAGO,
FEDERAL RESERVE BANK OF CLEVELAND,
FEDERAL RESERVE BANK OF DALLAS,
FEDERAL RESERVE BANK OF KANSAS CITY,
FEDERAL RESERVE BANK OF MINNEAPOLIS,
FEDERAL RESERVE BANK OF NEW YORK,
FEDERAL RESERVE BANK OF PHILADELPHIA,
FEDERAL RESERVE BANK OF RICHMOND,
FEDERAL RESERVE BANK OF SAN FRANCISCO,
and FEDERAL RESERVE BANK OF ST. LOUIS
(collectively, the “Federal Reserve Banks”), plaintiffs
in the above-captioned action, for their Complaint for
Declaratory Relief against defendant BOZEMAN
FINANCIAL LLC (“Bozeman Financial”), allege as
follows:
NATURE OF THE ACTION
1. This is an action for declaratory judgment of
non-infringement of U.S. Patent No. 6,754,640 B2
(“the ‘640 Patent”) and U.S. Patent No. 8,768,840 B2
(“the ‘840 Patent”). True and correct copies of the ‘640
Patent and the ‘840 Patent are attached hereto as
Exhibits A and B, respectively.
THE PARTIES
2. The Federal Reserve Bank of Atlanta is a
corporation chartered under the laws of the United
States pursuant to the Federal Reserve Act of 1913,

226a
12 U.S.C. § 221 et seq., with its principal place of
business in Atlanta, Georgia.
3. The Federal Reserve Bank of Boston is a
corporation chartered under the laws of the United
States pursuant to the Federal Reserve Act of 1913,
12 U.S.C. § 221 et seq., with its principal place of
business in Boston, Massachusetts.
4. The Federal Reserve Bank of Chicago is a
corporation chartered under the laws of the United
States pursuant to the Federal Reserve Act of 1913,
12 U.S.C. § 221 et seq., with its principal place of
business in Chicago, Illinois.
5. The Federal Reserve Bank of Cleveland is a
corporation chartered under the laws of the United
States pursuant to the Federal Reserve Act of 1913,
12 U.S.C. § 221 et seq., with its principal place of
business in Cleveland, Ohio.
6. The Federal Reserve Bank of Dallas is a
corporation chartered under the laws of the United
States pursuant to the Federal Reserve Act of 1913,
12 U.S.C. § 221 et seq., with its principal place of
business in Dallas, Texas.
7. The Federal Reserve Bank of Kansas City is a
corporation chartered under the laws of the United
States pursuant to the Federal Reserve Act of 1913,
12 U.S.C. § 221 et seq., with its principal place of
business in Kansas City, Missouri.
8. The Federal Reserve Bank of Minneapolis is a
corporation chartered under the laws of the United
States pursuant to the Federal Reserve Act of 1913,

227a
12 U.S.C. § 221 et seq., with its principal place of
business in Minneapolis, Minnesota.
9. The Federal Reserve Bank of New York is a
corporation chartered under the laws of the United
States pursuant to the Federal Reserve Act of 1913,
12 U.S.C. § 221 et seq., with its principal place of
business in New York, New York.
10. The Federal Reserve Bank of Philadelphia is a
corporation chartered under the laws of the United
States pursuant to the Federal Reserve Act of 1913,
12 U.S.C. § 221 et seq., with its principal place of
business in Philadelphia, Pennsylvania.
11. The Federal Reserve Bank of Richmond is a
corporation chartered under the laws of the United
States pursuant to the Federal Reserve Act of 1913,
12 U.S.C. § 221 et seq., with its principal place of
business in Richmond, Virginia.
12. The Federal Reserve Bank of San Francisco is
a corporation chartered under the laws of the United
States pursuant to the Federal Reserve Act of 1913,
12 U.S.C. § 221 et seq., with its principal place of
business in San Francisco, California.
13. The Federal Reserve Bank of St. Louis is a
corporation chartered under the laws of the United
States pursuant to the Federal Reserve Act of 1913,
12 U.S.C. § 221 et seq., with its principal place of
business in St. Louis, Missouri.
14. The
Federal
Reserve
Banks
are
instrumentalities of the United States that,
collectively, make up the operating arm of the Federal

228a
Reserve System, the central bank of the United
States. Through their employees, the Federal Reserve
Banks carry out the nationwide, operational
responsibilities of the nation’s central bank and
perform a myriad of important public functions
designed to develop, implement and foster the
monetary and fiscal policies of the United States.
These functions include providing and maintaining
the national infrastructure supporting payments,
including the Federal Reserve Banks’ FedLine Access
Solutions (“FedLine”) and related computer system,
Check 21 check processing system, the FedACH
Service (“FedACH”) and related computer system, the
Fedwire Funds Service (“Fedwire”) and related
computer system, and the National Settlement
Service (“NSS”) and related computer system
(collectively, the “Federal Reserve Bank Systems”).
The Federal Reserve Bank Systems form the
backbone of the nation’s payment systems. Each of the
Federal Reserve Banks relies upon and uses the
Federal Reserve Bank Systems to fulfill their
statutory mandate to provide financial services,
including check processing and funds transfers, to
U.S. depository institutions, the U.S. Government,
and foreign central banks and international
organizations.
15. On information and belief, Defendant Bozeman
Financial LLC (“Bozeman Financial”) is a limited
liability corporation organized and existing under the
laws of the State of Florida, with its principal place of
business located at 8022 Stimie Avenue North, Saint
Petersburg, Florida 33710. Bozeman Financial may

229a
be served with process by and through its registered
agent, Sandra W. Bozeman, at 8022 Stimie Avenue
North, Saint Petersburg, Florida 33710.
JURISDICTION AND VENUE
16. This action arises under the patent laws of the
United States, Title 35 of the United States Code, § 1
et seq., with a specific remedy sought under the
Federal Declaratory Judgment Act, 28 U.S.C. §§ 2201
and 2202. An actual, substantial, and continuing
justiciable controversy exists between the Federal
Reserve Banks and Bozeman Financial that requires
a declaration of rights by this Court.
17. The Court has subject matter jurisdiction over
this action pursuant to 28 U.S.C. §§ 1331 and 1338(a).
18. This Court has personal jurisdiction over
Defendant Bozeman Financial under Georgia’s longarm statute, O.C.G.A. § 9-10-91, because Bozeman
Financial transacts business in the State of Georgia
by virtue of its purposeful and repeated contacts with
the Federal Reserve Bank of Atlanta in this district
concerning the ‘640 Patent and the ‘840 Patent, and
its purposeful and repeated acts in this district
pertaining to the enforcement of the ‘640 Patent and
the ‘840 Patent against the Federal Reserve Bank of
Atlanta and the other Federal Reserve Banks arising
out of their alleged infringing activity occurring in
Georgia and elsewhere, and the alleged infringing
activity of their subscribers, some of which reside in
Georgia.

230a
19. Venue is proper in this judicial district
pursuant to 28 U.S.C. § 1391.
THE CONTROVERSY
20. Bozeman Financial claims to be the owner, by
assignment, of the ‘640 Patent, entitled “Universal
Positive Pay Match, Authentication, Authorization,
Settlement and Clearing System,” which issued on
June 22, 2004.
21. Bozeman Financial claims to be the owner, by
assignment, of the ‘840 Patent, entitled “Universal
Positive Pay Match, Authentication, Authorization,
Settlement and Clearing System,” which issued on
July 1, 2014.
22. The ‘640 Patent and the ‘840 Patent are related
to one another. Specifically, the ‘840 Patent is a
continuation of U.S. Patent Application No.
12/893,837, which is a division of U.S. Patent
Application No. 10/871,006, which is a continuationin-part of the patent application that matured into the
‘640 Patent. The ‘640 Patent and the ‘840 Patent are
hereinafter sometimes jointly referred to as the
“Patents-in-Suit.”
23. Each of the Patents-in-Suit identifies William
O. Bozeman (“Mr. Bozeman”) as the sole inventor.
24. On information and belief, Mr. Bozeman is a
manager and principal of Bozeman Financial.
25. In December 2015, Bozeman Financial, and
specifically, its principal, Mr. Bozeman, contacted the
Federal Reserve Bank of Atlanta by telephone. Mr.
Bozeman informed the Federal Reserve Bank of

231a
Atlanta that he believes several financial institutions
are infringing the Patents-in-Suit, as well as patents
owned by one or more of the Federal Reserve Banks.
Mr. Bozeman offered to approach these third parties
on behalf of Bozeman Financial and the Federal
Reserve Banks in an effort to extract licensing fees
from these third parties for their alleged
infringements. The Federal Reserve Bank of Atlanta
declined Mr. Bozeman’s business proposal to monetize
the Federal Reserve Banks’ patents on their behalf.
Mr. Bozeman then informed the Federal Reserve
Bank of Atlanta that he believes the Federal Reserve
Banks are infringing the Patents-in-Suit. Mr.
Bozeman spoke at length about his view of the scope
of Bozeman Financial’s patents on “universal positive
pay.” The Federal Reserve Bank of Atlanta informed
Mr. Bozeman that while it had not researched his
patents, it was confident that the Federal Reserve
Banks do not offer any “positive pay” services, and
therefore, the Federal Reserve Banks were not
infringing.
26. On or about January 27, 2016, Mr. Bozeman
and Bozeman Financial, along with their counsel,
again contacted the Federal Reserve Bank of Atlanta
by telephone concerning the Patents-in-Suit.
Bozeman Financial reiterated that it believes that the
Federal Reserve Banks have been infringing and are
continuing to infringe the Patents-in-Suit, and made
clear that Bozeman Financial intends to extract fees
from the Federal Reserve Banks for the Banks’
alleged infringement of these patents. The Federal
Reserve Bank of Atlanta again informed Bozeman

232a
Financial, Mr. Bozeman, and their counsel that it does
not believe the Federal Reserve Banks are infringing
the ‘640 Patent or the ‘840 Patent, and requested that
they provide a written explanation of the bases for
their infringement claims.
27. On or about April 21, 2016, Mr. Bozeman and
Bozeman Financial, through their counsel, again
reached out to the Federal Reserve Bank of Atlanta,
this time by e-mail, to “see if there is any mutual
ground for agreement that [Bozeman Financial’s] IP
deserves some commercially reasonable treatment
from the Fed and its subscribers, and others in the
digital debit and payment ecosystem.” In his email,
Bozeman Financial’s counsel confirmed that they had
reviewed the “publicly available date [sic]
surrounding the Federal Reserve’s role in the
verification of electronic payments in accordance with
the IP owned by Mr. Bozeman.” Bozeman Financial’s
counsel attached an infringement claim chart for the
‘840 Patent. This infringement claim chart presents
an element-by-element comparison of independent
claim 1 of the ‘840 Patent to the Federal Reserve
Banks’ electronic services, using as examples the
Federal Reserve Banks’ FedACH, Fedwire, and
FedLine services. Bozeman Financial’s counsel also
attached a compilation of publicly-available materials
describing the Federal Reserve Banks’ electronic
services, including FedLine, Check 21, FedACH,
Fedwire, and NSS. A true and correct copy of the April
21, 2016 e-mail and attachments is attached hereto as
Exhibit C.

233a
28. Since Bozeman Financial’s April 21, 2016 email, Bozeman Financial and the Federal Reserve
Bank of Atlanta, on behalf of itself and the other
Federal Reserve Banks, have had several additional
communications in writing and over the telephone,
and one in-person meeting at the Federal Reserve
Bank of Atlanta’s offices in this District, concerning
the Federal Reserve Banks’ alleged infringement of
the Patents-in-Suit. Bozeman Financial’s claims of
infringement have extended to the Federal Reserve
Banks’ subscribers, some of which reside in Georgia.
The Federal Reserve Banks have informed Bozeman
Financial and its counsel that they have not infringed
and are not infringing the ‘640 Patent and the ‘840
Patent, and that a license to these patents is neither
necessary nor warranted.
29. As a result of Bozeman Financial’s previous
and continued assertions that the Federal Reserve
Banks are infringing the Patents-in-Suit, and the
Federal Reserve Banks’ denial of the same, an actual
and justiciable controversy exists between the parties
of sufficient immediacy and reality to warrant
issuance of a declaratory judgment under 28 U.S.C. §§
2201 and 2202 as to the alleged infringement of the
Patents-in-Suit.
FIRST CLAIM FOR RELIEF
(Declaratory Judgment of Non-Infringement of
the ‘640 Patent)
30. The Federal Reserve Banks incorporate herein
by reference Paragraphs 1 through 29 above.

234a
31. An actual and justiciable controversy has
arisen and now exists between the parties with
respect to the alleged infringement of the ‘640 Patent.
32. The Federal Reserve Banks have not infringed,
and are not infringing, any claim of the ‘640 Patent,
either directly or indirectly, either literally or under
the doctrine of equivalents.
33. Independent claim 1 of the ‘640 Patent is
generally directed to a “universal positive pay match,
authentication,
authorization,
clearing
and
settlement system.” The claimed system comprises “at
least one server computer having a processor, an area
of main memory, a storage device, and a bus
connecting the processor, main memory, and the
storage device; a database stored on said storage
device; a data communications device connected to
said bus for connecting said at least one server
computer to an Internet; and web-based computer
program code stored in said storage device and
executing in said main memory under direction of said
processor, the computer program code including: first
instruction means for permitting a payer who
executes a check for payment to enter and store check
register information relating to the executed check in
said database, the check register information
including a check number, a date issued, a payee, a
routing number, and an account number; second
instruction means for providing a web site on the
Internet accessible to the payer who executed the
check, a payee of the executed check, a payee bank, a
drawee bank, and banking institutions intermediate
the payee bank and the drawee bank; third

235a
instruction means for enabling the payer who
executed the check, the payee of the executed check,
the payee bank, the drawee bank, and banking
institutions intermediate the payee bank and the
drawee bank to access check register information of
the executed check at every point along a check
clearing process in order to determine correspondence
between check register information stored in said
database and the executed check presented for
payment; and fourth instruction means for enabling
the payer who executed the check, the payee of the
executed check, the payee bank, the drawee bank, and
banking institutions intermediate the payee bank and
the drawee bank to determine whether tampering or
altering has occurred to the executed check at every
point along a check clearing process; wherein said
database stores check register information for payers
who execute checks having accounted with a plurality
of unrelated drawee banks.”
34. By way of example only and without limitation,
the Federal Reserve Banks do not infringe Claim 1 of
the ‘640 Patent (or any of its dependent claims)
because, among other reasons, the Federal Reserve
Bank Systems do not comprise “web-based computer
program code” that includes a “third instruction
means for enabling the payer who executed the check,
the payee of the executed check, the payee bank, the
drawee bank, and banking institutions intermediate
the payee bank and the drawee bank to access check
register information of the executed check at every
point along a check clearing process in order to
determine correspondence between check register

236a
information stored in said database and the executed
check presented for payment,” or a “fourth instruction
means for enabling the payer who executed the check,
the payee of the executed check, the payee bank, the
drawee bank, and banking institutions intermediate
the payee bank and the drawee bank to determine
whether tampering or altering has occurred to the
executed check at every point along a check clearing
process,” as those phrases are properly construed in
the context of the ‘640 Patent. None of these systems
enable every participant
in the check clearing
process to access stored check register information at
every point along the check clearing process to
determine correspondence between stored check
register information and the executed check
presented for payment. Further, none of these
systems enable every participant in the check clearing
process to determine whether tampering or altering
has occurred to the executed check at every point
along a check clearing process.
35. Independent claim 21 of the ‘640 Patent is
generally directed to “[a] computerized method for a
universal positive pay match, authentication,
authorization, clearing and settlement system.”
The claimed method comprises: “(a) providing a
database; (b) storing check register information
relating to a check executed by a payer for payment in
said database, the check register information
including a check number, a date issued, a payee, a
routing number, an account number, and an amount;
(c) providing a web site on the Internet accessible to
the payer who executed the check, a payee of the

237a
executed check, a payee bank, a drawee bank, and
banking institutions intermediate the payee bank and
the drawee bank; (d) enabling the payer who executed
the check, the payee of the executed check, the payee
bank, the drawee bank, and banking institutions
intermediate the payee bank and the drawee bank to
access the check register information of the executed
check stored in said database via the web site at every
point along a check clearing process in order to
determine correspondence between the check register
information stored in said database and the executed
check presented for payment; and (e) enabling the
payer who executed the check, the payee of the
executed check, the payee bank, the drawee bank, and
banking institutions intermediate the payee bank and
the drawee bank to determine whether tampering or
altering has occurred to the executed check at every
point along a check clearing process.”
36. By way of example only and without limitation,
the Federal Reserve Banks do not infringe Claim 21
of the ‘640 Patent (or any of its dependent claims)
because, among other reasons, the Federal Reserve
Bank Systems do not perform the steps of “enabling
the payer who executed the check, the payee of the
executed check, the payee bank, the drawee bank, and
banking institutions intermediate the payee bank and
the drawee bank to access the check register
information of the executed check stored in said
database via the web site at every point along a check
clearing process in order to determine correspondence
between the check register information stored in said
database and the executed check presented for

238a
payment,” or “enabling the payer who executed the
check, the payee of the executed check, the payee
bank, the drawee bank, and banking institutions
intermediate the payee bank and the drawee bank to
determine whether tampering or altering has
occurred to the executed check at every point along a
check clearing process,” as those phrases are properly
construed in the context of the ‘640 Patent. None of
these systems enable all of the check clearing process
participants to access the stored check register
information of the executed check via the web site at
every point along a check clearing process in order to
determine correspondence between the stored check
register information and the executed check
presented for payment. Further, none of these
systems enable all of the check clearing process
participants to determine whether tampering or
altering has occurred to the executed check at every
point along a check clearing process.
37. The Federal Reserve Banks are entitled to a
judgment declaring that they have not infringed and
that they are not infringing any claim of the ‘640
Patent, either directly or indirectly, either literally or
under the doctrine of equivalents.
SECOND CLAIM FOR RELIEF
(Declaratory Judgment of Non-Infringement of
the ‘840 Patent)
38. The Federal Reserve Banks incorporate herein
by reference Paragraphs 1 through 37 above.

239a
39. An actual and justiciable controversy has
arisen and now exists between the parties with
respect to the alleged infringement of the ‘840 Patent.
40. The Federal Reserve Banks have not infringed,
and are not infringing, any claim of the ‘840 Patent,
either directly or indirectly, either literally or under
the doctrine of equivalents.
41. Independent claim 1 of the ‘840 Patent is
generally directed to a “computer implemented
method for detecting fraud in financial transactions
during a payment clearing process.” The claimed
method comprises “receiving through one of a payer
bank and a third party, a first record of an electronic
financial transaction from at least one of the following
group: a payer, a point-of-sale terminal, an online
account and a portable electronic device; storing in a
database accessible by each party to said payment
clearing process of said electronic financial
transaction, said first record of said electronic
financial transaction, said first record comprising
more than one parameter; receiving at said database
at least a second record of said electronic financial
transaction from one or more of a payee bank and any
other party to said payment clearing process as said
transaction moves along said payment clearing
process, wherein said second record comprises at least
one parameter which is the same as said more than
one parameter of said first record; each of said first
and second records received at said database comprise
at least two of the same said more than one
parameters; determining by a computer when there is
a match between at least two of said parameters of

240a
said second record of said first financial transaction
received at said database and the same parameters of
said first record of said financial transaction stored in
said database, and wherein any party to said payment
clearing process is capable of verifying said
parameters at each point along said financial
transaction payment clearing process; sending a
notification to said payee bank participant with
authorization to process said electronic financial
transaction when said parameters match; and
sending a notification to said payee bank participant
to not process said electronic financial transaction
when said parameters do not match.”
42. By way of example only and without limitation,
the Federal Reserve Banks do not infringe Claim 1 of
the ‘840 Patent (or any of its dependent claims)
because, among other reasons, the Federal Reserve
Bank Systems do not comprise “a database accessible
by each party to said payment clearing process of said
electronic financial transaction,” or the ability to
enable “any party to said payment clearing process …
[to] verify[] said parameters at each point along said
financial transaction payment clearing process,” as
those claims are properly construed
in the context
of the ‘840 Patent. None of these systems comprise
such a database that is accessible by each party to the
payment clearing process. Further, none of these
systems can enable any party to the payment clearing
process to verify parameters at each point along the
financial transaction payment clearing process.
43. Claim 8 is generally directed to a “computer
implemented method for detecting fraud in a check

241a
clearing process.” The method of claim 8 comprises
“providing a computer having a database accessible by
each participant to said check clearing process;
receiving at said computer a first record of a check
from a payer including check register information;
storing in said database said first record of said check
received by said payer, said first record comprising at
least two
of the following parameters: a check
number, a date issued, a payee, a routing number, an
account number, and an amount; providing a network
interface to said database accessed by one or more
participants in said check clearing process selected
from the group comprising: a payee of said check, a
payee bank, a payer bank, banking institutions
intermediate said payee bank and said payer bank, a
clearing bank, a Federal Reserve Bank, and a third
party processor; enabling said one or more
participants in said check clearing process to
communicate separately with said database via said
network interface as said check moves along said
check clearing process; receiving from said at least one
or more participants in said check clearing process a
second record of said check, said second record
comprising at least two of the following parameters: a
check number, a date issued, a payee, a routing
number, an account number, and an amount, and
wherein any participant in said check clearing process
is capable of verifying said parameters at each point
along said check clearing process; determining by said
computer correspondence between said parameters of
said first record and said parameters of said second
record of said check; providing an electronic

242a
notification to said participant, wherein said
notification includes results of said correspondence
determination; wherein said notification informs said
participant to process said financial transaction when
said first and second records correspond; and wherein
said notification informs said participant to not
process said financial transaction when said first and
second records do not correspond.”
44. By way of example only and without limitation,
the Federal Reserve Banks do not infringe Claim 8 of
the ‘840 Patent (or any of its dependent claims)
because, among other reasons, the Federal Reserve
Bank Systems do not perform the steps of “providing
a computer having a database accessible by each
participant to said check clearing process,” or
enabling “any participant in said check clearing
process … [to] verify[] said parameters at each point
along said check clearing process,” as those phrases
are properly construed in the context of the ‘840
Patent. None of these systems comprise such a
database that is accessible by each party to the
payment clearing process. Further, none of these
systems can enable any party to the check clearing
process to verify parameters at each point along the
check clearing process.
45. Claim 15 of the ‘840 Patent is generally
directed to a “computer implemented method for
detecting errors in processing financial transactions.”
The claimed method comprises “providing at least one
computer having a processor, an area of main
memory, and a storage device having a database,
wherein said database is accessible by each

243a
participant involved in said processing of financial
transactions; storing in said database records of
financial transactions relating to payments,
comprising at least a first record of a first financial
transaction received from at least one participant to
said processing of said financial transaction selected
from the following group: a payer, a point of sale
terminal, an online account, and a portable electronic
device, each financial transaction record including
more than one parameter; receiving at said computer
a second record of said first financial transaction from
a bank of first deposit as said first financial
transaction moves through said error detection
process, said second record including at least some of
said more than one parameters that are in said first
record of said first financial transaction; determining
by said computer whether there is a match between at
least one of said parameters of said second record of
said first financial transaction received at said
computer and one of the same parameters in said first
record of said first financial transaction stored in said
database, and wherein any participant in said
processing of said financial transaction is capable of
verifying said parameters at each point along said
error detection process; providing a notification to said
bank of first deposit with results from said matching
of said parameters of said second record with said
parameters of said first record; and providing a
notification to said payer with results from said
matching.”
46. By way of example only and without limitation,
the Federal Reserve Banks do not infringe Claim 15

244a
of the ‘840 Patent (or any of its dependent claims)
because, among other reasons, the Federal Reserve
Bank Systems do not perform the steps of “providing
… a database, wherein said database is accessible by
each participant involved in said processing of
financial transactions,” or enabling “any participant
in said processing of said financial transaction … [to]
verify[] said parameters at each point along said error
detection process,” as those terms are properly
construed in the context of the ‘840 Patent. None of
these systems comprise such a database that is
accessible by each participant involved in the
processing of financial transactions. Further, none of
these systems can enable any participant in the
processing of a financial transaction to verify
parameters at each point along the error detection
process.
47. The Federal Reserve Banks are entitled to a
judgment declaring that they have not infringed and
that they are not infringing any claim of the ‘840
Patent, either directly or indirectly, either literally or
under the doctrine of equivalents.
PRAYER FOR RELIEF
WHEREFORE, the Federal Reserve Banks pray
for relief as follows:
A. For a judicial declaration that the Federal
Reserve Banks have not infringed and are not
infringing, either directly or indirectly, either literally
or under the doctrine of equivalents, any claim of U.S.
Patent No. 6,754,640 and U.S. Patent No. 8,768,840;

245a
B. For an order awarding the Federal Reserve
Banks their costs, expenses, and reasonable
attorneys’ fees as provided by law; and
C. For such other and further relief as the Court
deems just and proper.
Respectfully submitted, this 1st day of February,
2017.
KING & SPALDING LLP
s/ Natasha H. Moffitt
Natasha H. Moffitt
Ga. Bar. No. 367,468
Benjamin K. Jordan
Ga. Bar. No. 283,371
1180 Peachtree Street, NE
Atlanta, Georgia 30309
Tel.: (404) 572-4600
Fax: (404) 572-5134
Email: nmoffitt@kslaw.com
Email: kjordan@kslaw.com
Attorneys for Plaintiffs FEDERAL RESERVE BANK
OF ATLANTA, FEDERAL RESERVE BANK OF
BOSTON, FEDERAL RESERVE BANK OF
CHICAGO, FEDERAL RESERVE BANK OF
CLEVELAND, FEDERAL RESERVE BANK OF
DALLAS, FEDERAL RESERVE BANK OF KANSAS
CITY,
FEDERAL
RESERVE
BANK
OF
MINNEAPOLIS, FEDERAL RESERVE BANK OF
NEW YORK, FEDERAL RESERVE BANK OF

246a
PHILADELPHIA, FEDERAL RESERVE BANK OF
RICHMOND, FEDERAL RESERVE BANK OF SAN
FRANCISCO, FEDERAL RESERVE BANK OF ST.
LOUIS

